<html>
<title> - SOLVING THE CLIMATE CRISIS: CLEANING UP HEAVY-DUTY VEHICLES, PROTECTING COMMUNITIES</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
                SOLVING THE CLIMATE CRISIS: CLEANING UP
              HEAVY-DUTY VEHICLES, PROTECTING COMMUNITIES

=======================================================================

                                HEARING

                               BEFORE THE

                        SELECT COMMITTEE ON THE
                             CLIMATE CRISIS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                             JULY 16, 2019

                               __________

                            Serial No. 116-6
                            
                            
                            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                            www.govinfo.gov
   Printed for the use of the Select Committee on the Climate Crisis
   
   
   
   
                            ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 37-682               WASHINGTON : 2019  
   
   
   
   
                 SELECT COMMITTEE ON THE CLIMATE CRISIS
                     One Hundred Sixteenth Congress

                      KATHY CASTOR, Florida, Chair
BEN RAY LUJAN, New Mexico            GARRET GRAVES, Louisiana, Ranking 
SUZANNE BONAMICI, Oregon                 Member
JULIA BROWNLEY, California           MORGAN GRIFFITH, Virginia
JARED HUFFMAN, California            GARY PALMER, Alabama
A. DONALD McEACHIN, Virginia         BUDDY CARTER, Georgia
MIKE LEVIN, California               CAROL MILLER, West Virginia
SEAN CASTEN, Illinois                KELLY ARMSTRONG, North Dakota
JOE NEGUSE, Colorado

                              ----------                              

                Ana Unruh Cohen, Majority Staff Director
                  Marty Hall, Minority Staff Director
                         climatecrisishouse.gov
                         
                         
                            C O N T E N T S

                   STATEMENTS OF MEMBERS OF CONGRESS

                                                                   Page
Hon. Kathy Castor, a Representative in Congress from the State of 
  Florida, and Chair, Select Committee on the Climate Crisis:
  Opening Statement..............................................     1
  Prepared Statement.............................................     3
Hon. Garrett Graves, a Representative in Congress from the State 
  of Louisiana, and Ranking Member, Select Committee on the 
  Climate Crisis:
  Opening Statement..............................................     4

                               WITNESSES

Angelo Logan, Campaign Director, Moving Forward Network
  Oral Statement.................................................     6
  Prepared Statement.............................................     7
Michelle Romero, National Director, Green for All
   Oral Statement................................................    10
  Prepared Statement.............................................    12
Ryan Popple, President, Proterra, Inc.
  Oral Statement.................................................    16
  Prepared Statement.............................................    18
Tony Satterthwaite, President-Distribution Business, Cummins, 
  Inc.
  Oral Statement.................................................    20
  Prepared Statement.............................................    22

                       SUBMISSIONS FOR THE RECORD

CALSTART Policy Initiative Paper, submitted for the record by 
  Hon. Garret Graves.............................................    31
Report, Leveraging the DOE Loan Program, submitted for the record 
  by Hon. Sean Casten............................................    49
Article from E&E News, ``CO2 Emissions Reached an All-Time High 
  in 2018,'' submitted for the record by Hon. Jared Huffman......    50
Report, Final US Emissions Estimates for 2018, submitted for the 
  record by Hon. Jared Huffman...................................    50
Graph from US Energy Information Administration, ``Annual changes 
  in U.S. energy-related carbon dioxide emissions (2010-2019),'' 
  submitted for the record by Hon. Garret Graves.................    55
Article from E&E News, ``2019 Power-Sector Trends Point to a 
  Continued Rise in U.S. Emissions,'' submitted for the record by 
  Hon. Jared Huffman.............................................    55

                                APPENDIX

Questions for the Record from Hon. Kathy Castor to Angelo Logan..    59
Questions for the Record from Hon. Garret Graves to Angelo Logan.    60
Questions for the Record from Hon. Kathy Castor to Michelle 
  Romero.........................................................    62
Questions for the Record from Hon. Garret Graves to Michelle 
  Romero.........................................................    65
Questions for the Record from Hon. Kathy Castor to Ryan Popple...    67
Questions for the Record from Hon. Garret Graves to Ryan Popple..    69
Questions for the Record from Hon. Kathy Castor to Tony 
  Satterthwaite..................................................    70
Question for the Record from Hon. Garret Graves to Tony 
  Satterthwaite..................................................    71


SOLVING THE CLIMATE CRISIS: CLEANING UP HEAVY-DUTY VEHICLES, PROTECTING 
                              COMMUNITIES

                              ----------                              


                         TUESDAY, JULY 16, 2019

                          House of Representatives,
                    Select Committee on the Climate Crisis,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:02 a.m., in Room 
2172, Rayburn House Office Building, Hon. Kathy Castor 
[chairwoman of the committee] presiding.
    Present: Representatives Castor, Lujan, Bonamici, Brownley, 
Huffman, McEachin, Levin, Casten, Neguse, Graves, Griffith, 
Palmer, Carter, Miller, and Armstrong.
    Ms. Castor. The committee will come to order.
    Welcome to the ``Solving the Climate Crisis: Cleaning Up 
Heavy-Duty Vehicles, Protecting Communities'' hearing of the 
Select Committee on the Climate Crisis.
    Without objection, the chair is authorized to declare a 
recess of the committee at any time.
    Before we begin, I wanted to first say that we all share in 
a sense of relief for Ranking Member Graves in the aftermath of 
Hurricane Barry. We were just talking that thank goodness it 
wasn't quite the rain event that they had predicted, and we are 
grateful for that--grateful that there wasn't more storm damage 
or flooding in New Orleans or Louisiana, because I think they 
have had their fair share of disasters.
    And as sea levels rise and as communities deal with heavier 
rainfall during storms, we are going to have to partner with 
our local communities to ensure that they can adapt. We are all 
in this together. This Congress and this committee will always 
step up to help people who are hurt by disasters. We want to 
help communities become more resilient in the face of the 
climate crisis.
    For example, I visited Rep. McEachin's district last week 
in Virginia, and we were very impressed by the work being done 
there in the Hampton Roads to Richmond area on resiliency. They 
are planning ahead for climate impacts and flooding, and they 
had many recommendations for their Federal partners as we adapt 
all across the country.
    Over the past weeks, our committee has been examining ways 
to cut carbon pollution. We focused on the electric power 
sector first. And, fortunately, there is progress in the power 
sector--so much progress that it is the transportation sector 
that is now our largest source of carbon pollution. And in 
recent years, it has been growing. More than 90 percent of the 
energy used in transportation still comes from fossil fuels.
    In the power sector, the ways to cut pollution at power 
plants and bring new clean-energy sources onto the grid are 
relatively straightforward, but vehicles and industrial 
transport are different. Cars, trains, planes, trucks, buses, 
and ships all use different technology to move people and 
goods.
    Today, we are focusing on heavy-duty trucks and buses in 
particular. There are two big reasons that we want to start 
here.
    First, low-income communities and communities of color are 
hit hard by air pollution from heavy-duty vehicles. That is 
because of the ongoing repercussions of historic racial 
discriminatory practices like redlining. The neighborhoods 
surrounding polluting facilities, including ports and busy 
highways, they aren't rich. They are home to working people and 
people of color. And air pollution from these facilities causes 
asthma, lung cancer, and other ailments. And it is a big reason 
why the ZIP Code you were born in has such a powerful effect on 
your health.
    Moving heavy-duty transportation to cleaner technologies 
can help address these ongoing inequities and can improve 
people's health and help us tackle the climate crisis.
    Second, Congress can play a very important role in 
deploying cleaner trucks and buses. Congress can fund State and 
local initiatives to secure clean technology, and we can create 
new tax incentives for innovative technologies. Federal 
research and development can also bring new engine technology 
from the lab to the marketplace.
    California is currently leading the charge to reduce carbon 
pollution at its many ports and along highways. Three of our 
witnesses here today are from California, and they will be able 
to describe this policy leadership in detail.
    For instance, when ships make it to the largest ports in 
California, they have to tap into shore-side power instead of 
running their engines. I saw some of this in action when I 
visited Congresswoman Brownley's district. We went to Port 
Hueneme a couple months ago. They call themselves the greenest 
port, and we were impressed. And we have to replicate this now 
across the country. The aim is to save money on shipping as 
well as cutting dangerous air pollution.
    Ports are also the testbed for heavy-duty truck technology, 
so the State is funding demonstration projects for zero-
emission trucks that move goods from ships, and they are 
committed to transitioning public transit buses to zero 
emissions by 2040.
    Additionally, we know that children are particularly 
susceptible to air pollution. In fact, students are exposed to 
more diesel exhaust inside a school bus than drivers in the 
cars behind those buses. So California is funding zero-emission 
school buses, which is something I think we should all be 
interested in, given the importance of protecting children's 
health.
    Finally, we are not the only country working on this 
technology. We are in a race with India, with China, with 
Europe. But with American ingenuity, we can grow our economy, 
protect our health, and fight the climate crisis. I think this 
is a very exciting topic because we know that America can lead 
the world with well-paying jobs as we transition to clean 
energy.
    At this time, I am happy to recognize Ranking Member Graves 
for an opening statement.
    [The statement of Ms. Castor follows:]
                               __________

              Opening Statement (As Prepared for Delivery)

                    Rep. Kathy Castor (D-FL), Chair

           U.S. House Select Committee on the Climate Crisis

     Solving the Climate Crisis: Cleaning Up Heavy Duty Vehicles, 
                         Protecting Communities

                             July 16, 2019

    Good morning and thank you for joining us. Before we begin, I'd 
like to say that we all share the sense of relief for Ranking Member 
Graves and his Louisiana community that the tropical storm did not 
cause more flooding or serious damage. New Orleans and Louisiana have 
had more than their fair share. As sea levels rise and as communities 
deal with heavier rainfall during storms, we must partner with local 
communities to ensure they can adapt.
    We are all in this together. This Congress and this committee will 
always step up to help people who are hurt by disasters. We want to 
help communities become more resilient in the face of the climate 
crisis. For example, I visited Rep. McEachin's district last week in 
Virginia. We were impressed by the work being done at the local level 
to plan ahead for climate impacts and flooding, and they had many 
recommendations for us as they adapt.
    Over the past several weeks, our committee has been examining ways 
to cut carbon pollution from the electric power sector. Fortunately, 
there is progress in the power generation sector, so much progress that 
the transportation sector is now our largest source of carbon 
pollution. And in recent years, it has been growing. More than 90% of 
the energy used in transportation still comes from fossil fuels. In the 
power sector, the ways to cut pollution at power plants and bring new 
clean energy sources onto the grid are relatively straightforward. But 
vehicles and industrial transport are different--cars, trains, planes, 
trucks, buses and ships all use different technology to move people and 
goods.
    Today, we're focusing on heavy-duty trucks and buses in particular. 
There are two big reasons we want to start here.
    First, low-income communities and communities of color are hit hard 
by air pollution from heavy-duty vehicles. That's because of the 
ongoing repercussions of the historical, racially discriminatory 
practice of redlining. The neighborhoods surrounding polluting 
facilities, including ports and busy highways, aren't rich. They're 
home to working people and people of color. Air pollution from these 
facilities causes asthma, lung cancer and other ailments. And it's a 
big reason that the zip code you were born in has such a powerful 
effect on your health.
    Moving heavy-duty transportation to cleaner technologies can help 
address these ongoing inequities, improve people's health, and tackle 
the climate crisis.
    Second, Congress can play an important role in deploying cleaner 
trucks and buses. Congress can fund state and local initiatives to 
secure clean technology and we can create new tax incentives for 
innovative technologies. Federal research and development can also 
bring new engine technology from the lab to the marketplace.
    California is currently leading the charge to reduce pollution at 
its many ports and along highways. Three of our witnesses are based in 
California and will be able to describe this policy leadership in 
detail. For instance, when ships make it to the largest ports in 
California, they have to tap into shoreside power instead of running 
their engines. I saw some of this in action at Port Hueneme in 
Congresswoman Brownley's district a couple months ago.
    The aim is to save money on shipping as well as to cut dangerous 
air pollution. Ports are also a test bed for heavy-duty truck 
technology, so the state is funding demonstration projects for zero-
emission trucks that move goods from ships. And they're committed to 
transitioning public transit buses to zero emissions by 2040.
    Additionally, we know that children are especially susceptible to 
air pollution. In fact, students are exposed to more diesel exhaust 
inside a school bus than the drivers in the cars behind the buses. So 
California is funding zero-emission school buses, which is something I 
think we should all be interested in given the importance of protecting 
children's health.
    Finally, we're not on the only country working on this technology. 
We're in a race with India, China and Europe. But with American 
ingenuity, we can grow our economy, protect our health and fight the 
climate crisis. It's an exciting topic because you just know that 
American can lead the world with well-paying jobs as we transition to 
clean energy.

    Mr. Graves. Thank you, Madam Chair, and I appreciate you 
holding this hearing.
    And I want to thank all the witnesses for being here today.
    I am looking forward to the opportunity today to talk a bit 
about opportunities before us--opportunities to reduce energy 
costs for American citizens, opportunities to diversify energy 
opportunities for Americans, opportunities to help ensure that 
we have a clean environment to pass on to our children and 
generations to come, just better understanding of what 
opportunities are before us, understanding the state of 
technology, understanding where we are from a technological 
capacity perspective to be able to transition into some of 
these opportunities that perhaps are there for us to produce 
these cleaner-fuel vehicles, to produce vehicles that perform 
better, to produce vehicles that reduce energy costs for 
consumers.
    What are the obstacles? What are the obstacles to 
technology? The chair and I had a meeting recently where we 
discussed the fact that current conventional fuels, in some 
cases, have 30 times the energy density as other renewable 
technologies or battery storage technologies.
    So understanding how do we bridge that gap, what are the 
technological hurdles, and how can we better ensure that our 
Climate Change Technology Program that is run through the 
Department of Energy, including various Federal agencies, is 
focused on the right problems to ensure that we can address the 
solutions.
    What are the consequences to our actions as we transition? 
As I have mentioned several times, my home State of Louisiana, 
we have the lowest electricity cost in the United States, 
nearly 9 cents a kilowatt hour in Louisiana, the lowest cost. 
How do we continue to transition to this broader portfolio 
without adversely affecting those that would be impacted the 
most, the poor in our community?
    In that same meeting where we discussed the density of some 
conventional fuels, some of the experts that we met with 
indicated that we perhaps are decades away--decades away from 
having the battery storage capacity for heavy-duty and long-
haul trucks and boats and things along those lines. So I am 
interested in hearing your perspective on where we are with 
battery storage technology.
    I know, Mr. Popple, you all have made tremendous progress 
in the range of some of the buses that you have produced in 
recent years, and it really is impressive. But how do we 
continue building upon those types of successes and wins and, 
as the chair noted, ensuring that we do this in a manner where 
America wins?
    We had hearings in the Transportation Committee, where I 
also serve, where BYD, a Chinese bus manufacturer, was coming 
in--and it appears to be a state-owned enterprise--coming in 
and knocking out domestic bus manufacturers and being 
subsidized by the Chinese Government, coming in and assembling 
buses in California, in some of our own communities, only to 
undercut price, knock out domestic production of those same 
types of vehicles, therefore giving China an advantage. And 
ensuring that American companies, that American laborers have 
an opportunity to continue to work in this space.
    Clearly, there are opportunities before us. I am looking 
forward to hearing from each of you where those opportunities 
are for win-win-wins, where we can have an opportunity to lower 
costs for Americans, where we have an opportunity to provide 
more opportunities for energy sources for Americans, and, of 
course, opportunities to ensure that we have a clean 
environment for generations to come.
    So thanks again to all of you for being here. I am looking 
forward to your testimony.
    I yield back.
    Ms. Castor. Thank you very much.
    Without objection, members have 5 legislative days, 5 
business days, to enter an opening statement into the record.
    Ms. Castor. And now I would like to turn to introductions 
of our terrific panel today.
    Angelo Logan is campaign director for the Moving Forward 
Network. Mr. Logan is the co-founder of East Yard Communities 
for Environmental Justice and serves on several organizations 
working to protect community health, including the South Coast 
Air Quality Management District Environmental Justice Advisory 
Group, the I-710 Corridor Advisory Committees, and the Southern 
California Association of Governments' Goods Movement Task 
Force, among others.
    Michelle Romero is the national director of Green For All, 
which seeks to build an inclusive green economy strong enough 
to lift people out of poverty. Prior to joining Green For All, 
Ms. Romero worked with the University of California president, 
Janet Napolitano, who she advised on issues at the intersection 
of politics, policy, and communications. She also spent 5 years 
leading the Claiming Our Democracy Program at The Greenlining 
Institute.
    Ryan Popple is the president and CEO of Proterra, which 
manufactures zero-emission battery-electric buses. Prior to 
Proterra, Mr. Popple was a partner at Kleiner Perkins. He also 
served as a senior director of finance at Tesla, focusing on 
strategic planning and technology cost reduction.
    And Tony Satterthwaite is a vice president at Cummins, 
Inc., and president of Cummins Distribution Business. Prior to 
his current role, Mr. Satterthwaite led Cummins Power 
Generation from 2008 to 2015. He has worked at Cummins since 
1988.
    Without objection, the witnesses' written statements will 
be made part of the record.
    With that, Mr. Logan, you are now recognized for 5 minutes.

 STATEMENTS OF ANGELO LOGAN, CAMPAIGN DIRECTOR, MOVING FORWARD 
  NETWORK; MICHELLE ROMERO, NATIONAL DIRECTOR, GREEN FOR ALL; 
RYAN POPPLE, PRESIDENT, PROTERRA, INC.; AND TONY SATTERTHWAITE, 
        PRESIDENT, DISTRIBUTION BUSINESS, CUMMINS, INC.

                   STATEMENT OF ANGELO LOGAN

    Mr. Logan. Good morning, Chair Castor, Ranking Member 
Graves, and members of the committee. Thank you for inviting me 
here today to testify before you.
    My name is Angelo Logan, and I am with the Moving Forward 
Network, a network of 50 organizations across the country that 
coalesce to fight for environmental justice and climate justice 
in and around freight communities, such as ports, rail yards, 
logistics centers, from Seattle to Savannah, from Mobile to 
Detroit.
    The freight transportation system, otherwise known as goods 
movement, is a system which moves our products from point of 
manufacturing to point of consumption. It is the trucks, the 
trains, the ships, the cargo handling equipment that moves our 
goods from places like Southeast Asia to the Home Depots across 
the country.
    This system--again, the trucks, trains, ships, cargo 
handling equipment--predominantly is moved by diesel power. 
Diesel power or diesel-powered engines produce diesel exhaust. 
Diesel exhaust is a known carcinogen and a climate pollutant.
    The freight system itself contributes approximately 3 
billion tons of CO2 worldwide annually. Also, the freight 
transportation sector accounts for roughly 9 percent of U.S. 
greenhouse gas emissions and, again, is a major climate 
pollutant.
    To top that off, the freight sector is predominantly in 
communities of color, working-class, working-poor communities 
of color. To give you an example of how that impacts folks, 
African Americans are at risk about three times their 
proportion of the U.S. population, and Latinos, about two times 
their proportion.
    As an example, the Ports of L.A. and Long Beach, the 
communities that I live in, are the number-one source of air 
pollution in the region that is arguably the most polluted 
region in the country.
    With that said, the communities have come together along 
with the local jurisdictions to really advance a cleaner action 
plan and actually get the mayors of Long Beach and Los Angeles 
to commit to a 100-percent zero-emission port complex by 2035.
    They have seen, with the local community and local 
jurisdictions, that resolving this issue of both the 
environmental justice and climate crisis can be a win-win both 
in manufacturing, both in moving goods, both in reducing 
climate impacts and resolving environmental injustice.
    With that said, I would like to urge you all to include in 
your report the following actions:
    First, protect the Clean Air Act and the National 
Environmental Policy Act throughout all legislative actions. 
Oppose all provisions to any infrastructure bill or surface 
transportation reauthorization bill. Weakening the Clean Air 
Act and NEPA would hinder our ability to address climate 
change.
    Second, develop and adopt policy principles for climate 
legislation that advance climate justice, environmental 
justice, community self-determination, and local solutions. 
Develop a process and policy principles for climate legislation 
in conjunction with environmental justice groups, similar to 
that of the House Committee on Natural Resources spearheaded by 
Chairman Grijalva and Representative McEachin.
    Also, provide EPA with the tools and resources needed to 
meet its mission and play a role in resolving the climate 
crisis. Appropriation funds can be made to Environmental 
Justice grants to frontline communities so that they have the 
resources to promote local solutions and address the climate 
crisis as they become more resilient. Also add in more 
resources to the DERA program, focusing predominantly on zero-
emission technologies.
    Also with that, you should hold EPA accountable in meeting 
their mission and their legal requirements under the Clean Air 
Act by holding hearings and holding them to task, specifically 
for advancing national standards for heavy-duty trucks, ocean-
going vessels, and national standards for locomotives.
    And with that, I wanted to just say that the Moving Forward 
Network looks forward to engaging with you all in the future, 
and we are here to serve you. Thank you.
    [The statement of Mr. Logan follows:]
                              ----------                              


                       Testimony of Angelo Logan

                         Moving Forward Network

                     Before the United States House

                 Select Committee on the Climate Crisis

    ``Solving the Climate Crisis: Cleaning Up Heavy Duty Vehicles, 
                        Protecting Communities''

                             July 16, 2019

    Good morning Chair Castor and members of the Committee:
    Thank you for inviting me to testify today. My name is Angelo Logan 
and I am with the Moving Forward Network. The Moving Forward Network is 
a national coalition of over 50 member organizations including 
community-based groups, national environmental organizations, and 
academic institutions, in over 20 major U.S. cities, representing over 
2 million members, committed to resolving the public health harms 
created by our country's freight transportation system and achieving 
environmental justice and climate justice. Importantly, Network members 
include individuals who live in and work directly with frontline 
communities.
    Freight transportation otherwise referred to as goods movement is a 
complex system that weaves seaports, freight corridors, rail yards, 
intermodal facilities, inland ports and logistic centers. Ultimately 
goods movement is a transportation system that brings materials and 
goods from the places of origin to the places of consumption, from 
factories in Southeast Asia to Home Depots across the US. It is the 
trucks, trains, ships and cargo-handling equipment that transport the 
things we buy that are produced across the globe.
    The freight system relies predominately on diesel-powered 
equipment, which produces diesel exhaust made up of toxins and climate 
pollutants. Diesel exhaust creates CO2, a major greenhouse gas. Freight 
transport worldwide contributes approximately 3 billion tons of CO2. 
Black carbon is also a result of diesel exhaust. Black carbon is a fine 
particulate matter and short-lived climate pollutant that has very high 
global warming potential--some estimate over 600 times higher than CO2. 
The freight transportation sector accounts for roughly 9% of US 
greenhouse gas emissions and in the next couple of decades, it is 
expected that ocean going vessels alone will account for about 17% of 
all man-made carbon dioxide emissions worldwide.
    I'd like to give you a sense of who is hit first and worst when we 
talk about the climate crisis and freight transport. For example, 13 
million people live near major marine ports and rail yards, these 
communities are disproportionately low-income communities of color and 
have increased health risks from climate change impacts and the toxic 
air pollution this industry is responsible for. Epidemiologic studies 
have consistently demonstrated that children and adults living in close 
proximity to freight transportation sources have poorer health 
outcomes, including but not limited to: asthma, poor lung development, 
and other respiratory diseases; cardiovascular disease; lung cancer; 
pre-term births and infants with low birth weight; and premature death. 
Affected by freight transportation, African Americans are a high-risk 
population that is 3 times their proportion of the U.S. population and 
Latinos made up two times their proportion. All this to say, freight 
transport poses a huge climate crisis for the planet and for the local 
environmental justice communities that have been dealing with the 
impacts of the air pollution that is causing the climate crisis.
    To that end I would like to urge you to take the following actions:
  protect the clean air act and the national environmental policy act 
                   throughout all legislative actions
    Oppose all provisions to any Infrastructure Bill or Surface 
Transportation Reauthorization Bill that would endanger public health 
by weakening the Clean Air Act and/or the National Environmental Policy 
Act hindering the ability to address climate change. As you intend to 
invest in the public's best interest, do not allow those investments to 
fund projects that will feed the climate crisis. Invest in projects 
that will be part of the solution to the climate crisis and require the 
advancement of a true zero emission future. Specifically, providing 
exemptions of the CAA or the NEPA process to major infrastructure 
projects, including proposed federal highway projects, channel 
deepening projects, bridge raising projects, and terminal expansion 
projects will exempt the opportunities for mitigation, and transparency 
in these processes, especially where such projects will adversely 
affect communities already disproportionately impacted by freight and 
other industrial sources. When NEPA is included in all infrastructure 
and transportation projects we can ensure that air pollution and 
climate change impacts are accurately identified, and alternative 
solutions can be developed and deployed.
   develop and adopt policy principles for climate legislation that 
   advance climate justice, environmental justice, communities' self-
                   determination and local solutions
    To truly address the climate crisis, we must reduce and eliminate 
air pollution and greenhouse gas emissions at their source, locally in 
communities that have been disproportionally burdened with toxic 
exposure for decades and are now the most vulnerable to climate 
impacts. Frontline communities have the real expertise and true 
solutions that will solve the climate crisis. Therefore, the process 
for developing any solution or strategy is paramount. The Select 
Committee on the Climate Crisis must develop a process and policy 
principles for climate legislation similar to the House Committee on 
Natural Resources.
    On June 26th, Chairman Grijalva and Rep. McEachin hosted a 
Congressional Convening on Environmental Justice where they presented 
the committee's draft statement of policy principles for environmental 
justice legislation. These principles are a result of a several month 
process that the committee facilitated an Environmental Justice Working 
Group.
provide epa with the tools and resources needed to meet its mission and 
               play a role in solving the climate crisis.
    Congress can enact statutes authorizing federal agencies to award 
grants and impose reasonable conditions on the receipt of federal 
assistance funds. EPA must have the resources it needs to protect 
families and communities from the threat of air pollution and the 
climate crisis. Congress must appropriate a substantial increase of 
funds to the EPA, both DERA and the Environmental Justice grants
program.
    The Environmental Justice Grants Programs support communities 
working on solutions to environmental and public health issues. The 
programs are designed to help communities address exposure to multiple 
environmental harms and risks. When appropriating funds Congress can 
impose conditions and uses of those funds. It is without a doubt that 
frontline communities across the country, both in freight impacted 
areas and otherwise need more resources to promote local solutions to 
address the climate crisis as well as becoming more resilient in the 
face of climate change impacts that they will face first and worst.
    The Diesel Emissions Reduction Act (DERA) authorizes grants to 
eligible entities for projects that reduce emissions from existing 
diesel engines. The statute authorizes up to $100 million annually and 
allows for new funding mechanisms, including rebates. This amount of 
funds is a drop in the bucket when it comes to the number of heavy-duty 
vehicles that need to transition to zero emission in the near term. 
Incentive funding strategies targeting the freight sector need to be 
developed. While EPA has granted subsidies under DERA to reduce freight 
emissions, EPA must develop a more targeted strategy for awarding these 
funds. Funds for demonstration projects should target zero-emission 
technologies. Technologies that rely on combustion of fossil fuels 
should not benefit from these funds because they are already capable of 
achieving much lower standards and will not achieve the 
transformational change that is required at our freight facilities. 
Furthermore, funding should be targeted to applicants that meet strict 
criteria, including, for example, ports with facility-specific 
emissions inventories that meet meaningful health risk and emission 
reduction goals.
    To the extent funding is meant to accelerate the deployment of 
technologies that have already been demonstrated, these funding 
programs should be coupled with regulatory requirements to incentivize 
early compliance. This combination of regulatory requirements with 
incentives for early compliance will help the commercialization of 
technology by providing clear market signals to manufacturers. Without 
the regulatory component, funding will be inadequate to spur the 
investment required to take technologies beyond the demonstration 
phase.
  hold epa accountable to meeting its mission and legal requirements 
   under the clean air act. epa must adopt regulations to reduce and 
              eliminate emissions from the freight sector
    Require to the full extent of your authority that EPA take action 
to address freight pollution. The committee should require timelines, 
progress reporting and hold regular hearings on the progress of EPA in 
meeting its legal requirements under the Clean Air Act. It is critical 
that Congress do everything in their power to hold EPA accountable. 
Specifically, Congress should require EPA to adopt regulations to 
reduce and eliminate emissions from the freight sector.
    The devastating impacts of freight operations require elevation 
within EPA. In 2009, EPA's National Environmental Justice Advisory 
Council (NEJAC) provided 41 recommendations for EPA action. To date, 
however, EPA has failed to adopt a targeted strategy for reducing 
emissions from the freight sector to the degree necessary to protect 
public health and climate change. As a result, the health crises in 
these communities persist and threaten to get worse with increasing 
freight activity.
    EPA must identify reducing freight-related air pollution as a top 
priority for the Agency. Tackling such pollution will further the 
Agency's air quality, climate and environmental justice goals. EPA must 
adopt new national standards for freight-related sources and provide 
more guidance to states with freight-related activities in areas that 
violate national air quality standards and/or produce localized health 
risks.
    EPA must prioritize promulgation of the next generation of national 
emission standards for freight-related sources. The following national 
rules should be prioritized within EPA:
          <bullet> National Standards for Heavy-Duty Trucks. EPA's 
        should advance the proposed greenhouse gas emissions standards 
        for heavy-duty trucks encouraging the adoption of incentives 
        for advanced zero-emission technologies and addressing 
        particulate emissions from auxiliary power units.
          <bullet> New Standards for Ocean Going Vessels. EPA should 
        pursue a next generation of NOx and particulate matter 
        standards. Foreseeable technologies and more general engine 
        efficiency improvements hold the potential to reduce NOx 
        emissions by another 90 percent below current standards.
          <bullet> National Standards for Locomotive Engines. EPA 
        should also adopt Tier 5 standards for new locomotive engines. 
        Technologies can achieve significantly lower NOx and PM limits. 
        Moreover, technologies now exist to enable zero-emission track 
        miles. The next generation of standards should reflect the 
        feasibility of these technologies and incentivize development 
        and deployment of advanced zero-emission technologies.
    This list of proposed actions is not absolute or complete. As 
mentioned above the community engagement process of developing 
solutions and strategies is paramount. To that end, we encourage the 
committee's continued engagement with the Moving Forward Network.
            Sincerely,
                                              Angelo Logan,
                                            Moving Forward Network.
                     moving forward network members
    1. Air Alliance Houston
    2. Bay Area Healthy 880 Communities-SL
    3. California Cleaner Freight Coalition
    4. Charleston Community Research to Action Board (CCRAB)
    5. Center for Community Action and Environmental Justice
    6. Central California Environmental Justice Network
    7. Central Valley Air Quality Coalition
    8. Citizens for a Sustainable Future, Inc.
    9. Clean Air Council
    10. Clean Water Action, Clean Water Fund
    11. Coalition for Healthy Ports (NYNJ)
    12. Coalition for a Safe Environment
    13. Coalition for Clean Air
    14. Comite Civico Del Valle, Inc.
    15. Diesel Health Project, Inc.
    16. Earthjustice
    17. East Yard Communities for Environmental Justice
    18. End Oil, Inc.
    19. Environmental Health Coalition
    20. Environmental Integrity Project
    21. Global Community Monitor
    22. Georgia Research Environmental Economic Network (GREEN) Inc.
    23. Harambee House, Inc.
    24. Ironbound Community Corporation
    25. Long Beach Alliance for Children with Asthma
    26. Maryland Institute for Applied Environmental Health, School of 
Public Health
    27. National Nurses United
    28. Natural Resources Defense Council (NRDC)
    29. New Jersey Environmental Justice Alliance
    30. Puget Sound Sage
    31. Regional Asthma Management and Prevention (RAMP)
    32. Respiratory Health Association
    33. Rutgers Robert Wood Johnson Medical School
    34. Rutgers University School of Management & Labor
    35. Southwest Detroit Community Benefits Coalition/Southwest 
Detroit Environmental Vision
    36. Steps Coalition
    37. Sunflower Alliance
    38. Texas Environmental Justice Advocacy Services (TEJAS)
    39. The Center for the Urban Environment, Thomas Edison College
    40. THE NEW SCHOOL
    41. Union of Concerned Scientists
    42. University of Southern California
    43. University of Texas Medical Branch / Sealy Center for 
Environmental Health and Medicine
    44. West Oakland Environmental Indicators Project

    Ms. Castor. Thank you, Mr. Logan.
    Ms. Romero, you are recognized for 5 minutes.

                  STATEMENT OF MICHELLE ROMERO

    Ms. Romero. Good morning, and thank you for the opportunity 
to present solutions today.
    My name is Michelle Romero, and I am the national director 
of Green For All, a nonprofit program that was founded by Van 
Jones more than a decade ago to build an inclusive green 
economy strong enough to lift people out of poverty. We are 
known for our advocacy on behalf of green jobs and policy 
solutions that put people to work building a more sustainable 
future.
    Earlier this year, Green For All, in partnership with Clean 
Energy Works, the Chispa League of Conservation Voters, and 
Mothers Out Front, launched a campaign called Fuel Change to 
tackle the transportation-sector emissions that are in our 
communities and accelerate the transition to a zero-emission 
future together. We are mobilizing people and resources around 
the country to bring clean cars, trucks, and buses to the 
communities who need it most--low-income communities and 
communities of color overburdened by pollution.
    And, this year, we are focusing our attention on school 
buses. Twenty-five million children in the U.S. ride a bus on 
their way to get an education. More than two-thirds of our 
Nation's bus fleets are actually school buses, and 90 percent 
of those are run on diesel.
    We know all of the research, right? Diesel- and gasoline-
powered vehicles lead to asthma, cancer, decreased lung 
function, even cognitive issues like problems focusing. It is 
hard to learn if you can't breathe. Childhood asthma affects 
millions of children nationwide, predominantly kids of color, 
and is a top reason for missed school days. But when asthma 
strikes, it isn't just the children who are missing school. 
Caregivers and families spend hundreds of dollars in healthcare 
costs and have to miss work as well.
    And this is completely preventable. New technology exists 
that does not cause these problems. We ask the committee to put 
our kids on buses going forward to a clean-energy future. The 
future is electric, and we should be the leader in electric 
vehicle manufacturing. Let's give people jobs making smart 
batteries and smart buses.
    Electric buses have zero tailpipe emissions and are cheaper 
to fuel and maintain. Today's electric school buses can travel 
up to 155 miles on a single charge.
    According to the Union of Concerned Scientists, electric 
buses also have fewer carbon emissions than diesel, natural 
gas, and diesel hybrid buses no matter where in the country 
they are powered from the electrical grid. That means even the 
cleanest of these alternative buses, the diesel hybrid, 
generates more than twice as many carbon emissions as an 
electric bus, making electric buses the clear winner here.
    Electric buses can also provide additional benefits through 
grid-connected storage, and with so many positive benefits, 
several school districts are already beginning to make this 
transition. Twin Rivers Unified School District in Sacramento, 
California, where I live, has the largest electric school bus 
fleet in the country, with 25 buses. And they are joined by 
school districts in Chicago, Massachusetts, New York, and 
Minnesota, each of which has electric school buses.
    States like Colorado, Nevada, and Maryland have also 
advanced policies this year to invest in electric school buses. 
And I am here to say, these school districts, to actually 
accelerate this for all communities across the country, are 
going to need help. Buying an electric bus is still at least 
double or can be triple the price of a comparable diesel bus.
    And that is why Green For All supports the Clean School Bus 
Act, which was introduced by U.S. Senator Kamala Harris and 
colleagues, and would encourage the U.S. House of 
Representatives to introduce similar legislation. The Clean 
School Bus Act invests $1 billion over 5 years for a Clean 
School Bus Grant Program that would provide grants of up to $2 
million to help school districts replace dirty diesel buses 
with clean, electric, zero-emission buses.
    And, most importantly, it gives priority to applications 
that serve low-income students, helping us replace the most 
polluting buses and leveraging other funding to further 
decrease pollution.
    A Federal program like this would be a huge help. And by 
prioritizing public and private investments to electrify the 
neighborhoods who need it most, we can ensure a just transition 
that gives every child a clean and safe ride to school.
    In addition to public funding, we can look at inclusive 
financing programs that are helping low-income energy customers 
afford the upfront cost of things like building energy 
efficiency upgrades and apply a similar model to transportation 
through utility-inclusive financing. With public funding and 
private financing, we can accelerate this transition.
    The only way forward for our country, our children, and our 
economy is to have a swift and just transition towards a zero-
emission future.
    Thank you.
    [The statement of Ms. Romero follows:]
                               __________

 Michelle Romero, National Director, Green for All, Oakland, California

   Testimony Before the House Select Committee on the Climate Crisis

                         Tuesday, July 16, 2019

    Good morning, and thank you Chair Castor, Ranking Member Graves and 
members of the Committee for this hearing to discuss Solving the 
Climate Crisis: Cleaning up Heavy Duty Vehicles, Protecting 
Communities.
    My name is Michelle Romero. I am the National Director of Green For 
All, a program of the Dream Corps, where we work to build an inclusive 
green economy strong enough to lift people out of poverty.
    We are here today because bold leaders like you are looking for 
solutions that can accelerate our path toward a pollution-free, zero-
emission future.
    We need to start building this future, and we need to do so 
immediately.
    In 2018, the Intergovernmental Panel on Climate Change released a 
report \1\ indicating that we now have less than eleven years to 
significantly reduce our emissions to avoid catastrophic global 
consequences.
---------------------------------------------------------------------------
    \1\ https://www.ipcc.ch/sr15/.
---------------------------------------------------------------------------
    We need solutions that tackle our biggest threats to climate change 
and pollution.
    Transportation is now the number one source of carbon emissions in 
the United States. Fossil-fueled passenger vehicles, heavy duty trucks, 
and buses are some of the major sources of this pollution \2\ with an 
estimated 150 million Americans living in neighborhoods that don't meet 
federal air quality standards.\3\
---------------------------------------------------------------------------
    \2\ https://www.ucsusa.org/clean-vehicles/fuel-efficiency/heavy-
duty-truck-fuel-efficiency.
    \3\ https://www.epa.gov/environmental-topics/air-topics#air-
pollution.
---------------------------------------------------------------------------
    I'm sure we've all, at some point in our lives, driven behind a 
truck or bus as it belches out huge clouds of black smoke. These 
vehicles represent the oldest, dirtiest, and most harmful buses still 
on our roads today. These puffs painted a vivid picture of 
transportation pollution, but whether we now see black puffs or not, we 
know that tailpipe emissions pump particulate matter, or PM2.5, into 
the air we breathe. Particulate matter is a toxic substance so small we 
can't see it, but so tiny it easily travels into our bodies as we 
breathe and gets deeply embedded into our lungs. It can never be 
removed. It simply accumulates until it's so much it affects our lung 
function and respiratory system. It is known to cause premature death, 
heart disease and lung damage,\4\ with children and the elderly being 
the most vulnerable.
---------------------------------------------------------------------------
    \4\ https://www.epa.gov/transportation-air-pollution-and-climate-
change/smog-soot-and-local-air-pollution.
---------------------------------------------------------------------------
    I share this to emphasize that tailpipe emissions are both a 
climate problem and a public health problem. According to the EPA, 
``Air pollution emitted from transportation contributes to smog and 
poor air quality, which has negative impacts on the health and welfare 
of U.S. citizens.'' \5\
---------------------------------------------------------------------------
    \5\ https://www.epa.gov/transportation-air-pollution-and-climate-
change/smog-soot-and-local-air-pollution.
---------------------------------------------------------------------------
    Growing evidence links emissions from diesel and gasoline-powered 
vehicles to low birth weight, asthma, cardiovascular illness, and even 
cognitive issues like autism and Alzheimer's. In fact, there are now 
more premature deaths from traffic-related pollution than traffic-
related accidents.\6\
---------------------------------------------------------------------------
    \6\ https://ktla.com/2019/04/08/air-pollution-linked-to-more-than-
107000-premature-deaths-in-u-s-in-2011-study/.
---------------------------------------------------------------------------
    If we don't change our patterns of pollution, our world will 
continue to change in front of our eyes--from the wildlife we see to 
the air we breathe, our children will be unable to experience a 
healthy, safe, or livable environment. And frankly, many children today 
already do not have a healthy, safe environment.
    While pollution impacts all populations, low-income communities and 
people of color are at the highest risk for transportation-related 
health conditions.\7\ After decades of unfair housing, lending, highway 
planning, and facility siting practices, these communities find 
themselves living near busy highways, diesel truck and bus routes, 
ports and distribution centers--all major sources of transportation 
pollution.
---------------------------------------------------------------------------
    \7\ https://www.niehs.nih.gov/research/programs/geh/geh_newsletter/
2016/4/spotlight/
poor_communities_exposed_to_elevated_air_pollution_levels.cfm.
---------------------------------------------------------------------------
    Research tells us that African-Americans in the United States are 
3-4 times likelier to be hospitalized and die from asthma compared to 
Whites.\8\
---------------------------------------------------------------------------
    \8\ https://www.reimaginerpe.org/node/306.
---------------------------------------------------------------------------
    Similarly, Latinos are twice as likely to be hospitalized from 
asthma.
    One mother we met with in Las Vegas, Nevada, Ivon Meneses, shared 
with us about her sleepless nights wondering whether this will be the 
night her 14-year-old son Jacob will be taken from her, every time she 
hears him struggling to breathe. They've already been through multiple 
hospitalizations and at least one near-death experience before when 
doctors told her he might not make it after having a severe asthma 
attack.
    Earlier this year, Green For All put out a call to aspiring artists 
around the country, to submit lyrics about how transportation pollution 
is affecting them or their community. We selected four young people to 
feature in our #FuelChange song and music video.
    One of the selected artists is Nehemiah Vaughn. Nehemiah is an 18-
year-old African American male who grew up in West Oakland, CA, where 
diesel trucks idle through neighborhoods on their way to the port and 
is surrounded on all sides by busy freeways and highways to the point 
where the neighborhood reeks of the stench of gasoline all day long. In 
school, Nehemiah was the captain of his highschool basketball team but 
he ended up having to limit his sports activity because of his asthma. 
His only other dream was to rap, something he's natural gifted in. Yet, 
even the breath control needed to rap is a constant challenge and 
something you can actually hear as he raps:

Let me tell you about my story
about how I used to have my dream
but for some reason, I can't speak
and I can't even breathe.

    Like Nehemiah, students across the United States face a similar 
struggle. Childhood asthma is a serious issue that affects millions \9\ 
of children nationwide and is the top reason for missed school days. In 
2013, about 13.8 million missed school days were reported due to 
asthma.\10\ And when an asthma attack strikes, it is not just students 
who are affected; caregivers miss work \11\ and families may spend 
hundreds of dollars in health care costs.\12\
---------------------------------------------------------------------------
    \9\ https://www.aafa.org/asthma-facts/.
    \10\ https://www.cdc.gov/asthma/asthma_stats/missing_days.htm.
    \11\ https://www.ncbi.nlm.nih.gov/pubmed/28453370.
    \12\ https://www.aafa.org/cost-of-asthma-on-society/.
---------------------------------------------------------------------------
    We must tackle each of these--cars, trucks, and buses--to build a 
more sustainable future. This includes major investments including in 
transit-oriented development, improving public transportation, and 
creating bikeable, walkable communities. However, today I will focus my 
remarks and recommendations primarily on school buses.
                              school buses
    More than two-thirds of the nation's bus fleet are school buses. 
There are close to half a million school buses in operation \13\ in the 
United States, and 90% of those are run on diesel.
---------------------------------------------------------------------------
    \13\ https://education.stateuniversity.com/pages/2512/
Transportation-School-Busing.html.
---------------------------------------------------------------------------
    With over 55% of K-12 students riding school buses everyday,\14\ 
children are especially vulnerable to tailpipe pollution--that's over 
25 million kids gaining exposure to known toxins and carcinogens that 
increase their risk of not only asthma, but cancer and other serious 
disease.
---------------------------------------------------------------------------
    \14\ https://www.atu.org/work/school.
---------------------------------------------------------------------------
    Dirty diesel school buses are basically refineries on wheels. As 
kids line up alongside the buses waiting to board, the buses spew out 
soot and particulate matter, seeping into both the air and our 
children's bodies. As soon as our children are on board, the tiny 
particles continue to invade their lungs through the windows, 
potentially harming the immediate and long-term health of our students.
    Kids should not have to grow up this way. Pollution is completely 
preventable. New technology exists that does not cause these problems.
    That's why Green For All, with its partners Clean Energy Works, the 
Chispa League of Conservation Voters, and Mothers Out Front, launched 
the #FuelChange campaign, an effort to accelerate the transition to a 
clean, zero-emission transportation future, starting in underserved and 
pollution-burdened communities.
    Let's put our kids on zero-emissions, electric buses that don't rob 
them of educational opportunities and the chance to live a healthy, 
whole life. Electric buses have zero tailpipe emissions and are cheaper 
to fuel and maintain, so school districts would save money by leaving 
their diesel buses behind. And the technology has come so far that 
today's electric buses can travel a good distance on a single charge. 
Blue Bird offers electric school buses that get up to 120 miles, and 
Lion has school buses that get up to 155 miles on a single charge.
    According to a Union of Concerned Scientists' analysis, electric 
buses have fewer carbon emissions than diesel, natural gas, and diesel 
hybrid buses no matter where in the country the bus charges from the 
electricity grid.\15\ They found that each of these alternative buses 
(diesel, natural gas and hybrid diesel) generates more than twice as 
many carbon emissions as an electric bus making an all electric zero-
emission bus preferable for addressing both the climate crisis and the 
health impacts tailpipe emissions are having on our children and 
communities.
---------------------------------------------------------------------------
    \15\ https://blog.ucsusa.org/jimmy-odea/electric-vs-diesel-vs-
natural-gas-which-bus-is-best-for-the-climate.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Electric school buses can also provide additional benefits through 
grid-connected storage. School buses are parked and unused most of the 
day and during peak months like Summer, when they can offer a solution 
to the problem utilities face now of generating more renewable power 
than the grid can capture and store for later use.
    With so many positive impacts, several school districts are already 
implementing this cutting-edge solution.
    Twin Rivers Unified School District in Sacramento, California was 
the first school district to buy an electric bus, and now has the 
largest electric school bus fleet in the country with 25 electric 
buses.\16\ The District's own website lists the benefits of these buses 
as being:
---------------------------------------------------------------------------
    \16\ http://www.twinriversusd.org/Students--Families/
Transportation-Services/Electric-Vehicles-/index.html.
---------------------------------------------------------------------------
          <bullet> Healthier--Clean air for our children, teachers, 
        parents and neighbors.
          <bullet> Safe--Built and tested with high back seats and 
        seat-belts.
          <bullet> Cleaner--Zero engine emissions.
          <bullet> Great Performance--Proven in all types of terrain 
        and weather.
          <bullet> Cost Savings--Electric buses can reduce fueling 
        costs of a vehicle by over 40%.
          <bullet> Quieter--Electric school buses are much quieter, 
        allowing drivers better communication with and oversight of 
        students.
    Twin Rivers USD has seen a cost savings of between $8,000 and 
$15,000 on energy and maintenance costs.\17\ In these difficult times 
for underfunded schools around the country, that is money that can be 
put toward the education of our children and retaining high quality 
teachers. According to their transportation director Tim Shannon, Twin 
Rivers USD has set a goal to transition at least 30% of their fleet in 
the next 3 years.
---------------------------------------------------------------------------
    \17\ https://sacramento.cbslocal.com/2018/11/04/electric-school-
bus-fleet-leaving-green-footprint-on-twin-rivers-school-district.
---------------------------------------------------------------------------
    Twin Rivers is joined by school districts in Chicago, 
Massachusetts, New York, and Minnesota all with electric buses. In 
2017, Lakeville, Minnesota became the first Midwest school district to 
have an electric bus. Community members say that the bus makes its 
rounds so quietly that it plays music when it travels under 15mph so 
that children can hear it, one of many state-of-the-art safety features 
on the new fleets.\18\
---------------------------------------------------------------------------
    \18\ https://www.betterenergy.org/blog/first-electric-school-bus-
comes-minnesota.
---------------------------------------------------------------------------
    We need school districts across the United States to adopt this 
mission and we need your help to make that happen.
    For most school districts, the biggest challenge to implementation 
is cost. While many schools and transit agencies have the will and the 
desire to transition their fleets, the upfront cost is a major 
impediment to the transition.
    Buying electric is still at least double or triple the price of a 
comparable diesel bus, approximately $120,000 more. If we can help 
schools overcome the upfront cost, we can accelerate the transition and 
reap immediate benefits.
    An electric bus is cheaper to fuel and maintain with operating 
costs for an electric bus at approximately 19 cents per gallon compared 
to 82 cents per gallon for a diesel bus.\19\ Furthermore, as battery 
technology improves and the market grows to scale, we'll see much more 
competitive pricing in the near future.
---------------------------------------------------------------------------
    \19\ Government Technology ``Electric Buses Are Not Only Clean but 
Less Costly to Run'' https://www.govtech.com/workforce/Electric-Buses-
Are-Not-Only-Clean-but-Less-Costly-to-Run.html.
---------------------------------------------------------------------------
 to reach the scale our planet needs, and as quickly as we need it, we 
           will need a combination of funding and financing.
    That's why Green For All supports The Clean School Bus Act, 
introduced by U.S. Senator Kamala Harris, along with Senators Dianne 
Feinstein (CA), Jeff Merkley (OR); Cory Booker (NJ); Tina Smith, (MN); 
Bernie Sanders (VT); and Catherine Cortez Masto (NV).
    This legislation would help schools serving low-income 
neighborhoods make the down payment to go from dirty diesel to zero-
emission electric buses and give kids a clean, safe ride to school.
    If passed, The Clean School Bus Act would:
    <bullet> Provide grants of up to $2 million to replace diesel 
school buses with electric school buses, invest in charging 
infrastructure, and support workforce development
    <bullet> Give priority to applications that serve low-income 
students, replace the most polluting buses, and leverage the funding to 
further decrease pollution and emission including through partnerships 
with local utilities
    <bullet> Authorize $1 billion over five years at the Department of 
Energy to fund a Clean School Bus Grant Program to spur increased 
adoption of this clean technology.
 we encourage the house to introduce similar legislation to the clean 
     school bus act and support an even larger funding commitment.
    A federal program like the one proposed by the Clean School Bus Act 
would be a huge help. And by prioritizing public and private funds to 
electrify the neighborhoods most in need, we can ensure a just 
transition that gives every child has a clean, safe ride to school.
    By Clean Energy Works estimates, it would take at least $6 billion 
to cover the upfront cost barrier to electrify just 10% of the nation's 
school bus fleet over the next 5 years. That's where additional funds 
and financing are needed.
    We have seen successful green financing programs before. In more 
than half a dozen states, inclusive financing programs help low-income 
energy customers afford the upfront cost of building energy efficiency 
upgrades. If we apply a similar model to public school transportation, 
utility investments could help school districts electrify their fleets 
more quickly.
    In Lakeville, Minnesota, for example, the cost of their electric 
bus was provided through a financing partnership between Green River 
Energy and Dakota Electric Association--a model we can replicate in 
other cities and school districts.
    It is time to prioritize the health of our communities and the 
health of our planet. School bus electrification will allow for cleaner 
air to breathe, and a cleaner world to live in.
    The only way forward for our country, and for our children, is a 
speedy transition toward a zero-emission future. Thank you.

    Ms. Castor. Thank you, Ms. Romero.
    Mr. Popple, you are recognized for 5 minutes.

                    STATEMENT OF RYAN POPPLE

    Mr. Popple. Thank you.
    Chairwoman Castor, Ranking Member Graves, and distinguished 
members of the select committee, on behalf of Proterra, thank 
you for the opportunity to testify at today's hearing. I 
applaud your leadership in focusing today on the climate crisis 
and on the role that heavy-duty vehicles can play in helping to 
solve that crisis.
    My name is Ryan Popple, and I am the CEO of Proterra, a 
leader in the design and manufacture of zero-emission, heavy-
duty, electric transit buses. We also provide technology 
solutions to power other heavy-duty electric applications such 
as school buses and over-the-road motorcoaches.
    Our vision, one that I am passionate about, is to provide 
clean and quiet transportation for all. Our buses are deployed 
throughout the United States, heavily in California but 
throughout the rest of the 50 States as well. And just as 
importantly, those buses are designed, engineered, and 
manufactured in the United States.
    I am honored to appear before you today to discuss the 
urgency of reducing emissions caused by heavy-duty 
transportation. I would like to summarize my written testimony 
by making the following few points.
    First, transportation is a leading contributor to U.S. 
carbon emissions. According to the EPA, greenhouse gas 
emissions from transportation account for approximately 29 
percent of total U.S. greenhouse gas emissions. It is therefore 
critical that we begin to reduce this dangerous level of 
transportation pollution.
    Second, communities across the United States struggle to 
address the harmful effects of air pollution. What makes this 
situation worse and troubling is that there are areas, 
particularly disadvantaged communities, that bear a 
disproportionate share of the air-pollution burden. Exposure to 
particulate matter is linked to a range of severe health 
issues, including heart, lung, asthma, and upper respiratory 
problems.
    Third, Proterra electric transit buses that are currently 
serving our communities, airports, and universities are already 
making a significant difference in addressing these and other 
issues. Every time a Proterra electric bus with zero tailpipe 
emissions replaces a diesel bus, greenhouse gas emissions are 
reduced by approximately 230,000 pounds and noise pollution is 
significantly lessened. Our buses have displaced more than 50 
million pounds of greenhouse gas emissions, and we have helped 
transit customers save money on fuel and spare parts.
    I applaud this committee's focus on solving the climate 
crisis, a topic that we take seriously at Proterra. In order to 
improve public health, it is critical that we prioritize 
electrifying heavy-duty vehicles in the United States and we 
make zero-emission battery-electric technology available to all 
U.S. communities.
    Electrifying transportation, however, does more than just 
clean up the environment and improve public health; it helps 
boost the economy by creating good-paying jobs. We employ more 
than 500 employees in California and South Carolina, and we 
have also helped create jobs indirectly through our supply 
base, like our composite suppliers in Iowa who help build the 
body of our bus.
    We have come a long way in a short period of time. We can 
do more with your help. I have detailed several policy 
suggestions in my written comments, but I would like to 
specifically mention the following three.
    Number one, reauthorize the Low-No program and increase 
funding. The Federal Transit Administration's Low or No 
Emission Program has been responsible for accelerating hundreds 
of electric buses, but the funding has been limited. If we are 
serious about delivering cleaner mobility solutions to all 
communities, we should significantly increase appropriations 
for this program in particular and make this a national 
priority. We would like to see the FAST Act reauthorized and 
the Low-No program reauthorized at higher funding levels.
    Number two, we would like to see transit agencies 
incentivized to transition to the most efficient forms of bus 
technology. Under current funding levels, the Federal 
Government will pay up to 85 percent of the cost of a new bus, 
which includes buses that run on fossil fuels. We suggest that 
Congress prioritize that funding for transit technologies that 
are the cleanest and the most efficient to operate.
    And, finally, like my colleague, we would encourage you to 
implement grant programs for other heavy-duty vehicle sectors. 
Senator Kamala Harris and colleagues recently introduced the 
Clean School Bus Act to accelerate the electrification of 
school bus fleets. This bill authorizes grants of up to $2 
million to replace diesel school buses with electric school 
buses. We support it and urge Congress to pass it and 
appropriate funding.
    Thank you for the opportunity to testify before you today. 
I look forward to answering any questions that you have.
    [The statement of Mr. Popple follows:]
                               __________

                       Ryan Popple, CEO, Proterra

       Written Testimony Before the U.S. House of Representatives

                 Select Committee on the Climate Crisis

    ``Solving the Climate Crisis: Cleaning Up Heavy Duty Vehicles, 
                        Protecting Communities''

                             July 16, 2019

    Chairwoman Castor, Ranking Member Graves, and Members of the Select 
Committee, on behalf of Proterra, thank you for the opportunity to 
testify at today's hearing focused on ``Solving the Climate Crisis: 
Cleaning Up Heavy Duty Vehicles, Protecting Communities.''
    I am Ryan Popple, CEO of Proterra, a leader in the design and 
manufacture of zero-emission, heavy-duty electric transit buses and 
technology solutions to power other heavy-duty, electric applications 
such as school buses and coach buses. Our vision, one that I am 
passionate about, is to provide clean, quiet transportation for all. 
Today, Proterra has received more than 700 awards of buses from 
communities in 36 states, District of Columbia, and 2 Canadian 
provinces, and we have delivered more than 300 Proterra electric buses. 
Our buses are deployed in traditional red states and blue states, urban 
areas and suburbs, big cities and small communities, and even rural 
areas. Proterra products are proudly designed, engineered and 
manufactured in the United States and we currently employ more than 500 
employees in our three offices in Silicon Valley, Greenville, South 
Carolina and Los Angeles.
    I am honored to appear before you today to discuss the urgency of 
reducing greenhouse gas emissions caused by heavy-duty transportation. 
In order to properly address the world's climate crisis and improve 
public health it is critical that we prioritize electrifying heavy-duty 
vehicles in the United States and make zero-emission, battery-electric 
technology available to all U.S. communities. We have begun to achieve 
these goals today with American-made, zero-emission heavy-duty public 
transit buses and can make significant strides by expanding electric 
powertrains into adjacent sectors, such as school buses and over-the-
road motor coaches.
    Transportation is widely considered the number one contributor to 
U.S. carbon emissions. According to the EPA,\1\ greenhouse gas 
emissions from transportation account for approximately 29 percent of 
total U.S. greenhouse gas emissions, making it the largest contributor 
of U.S. GHG emissions. According to the same report, between 1990 and 
2017, GHG emissions in the transportation sector increased, in absolute 
terms, more than any other sector. It is critical that we begin to 
reduce this dangerous level of transportation pollution.
---------------------------------------------------------------------------
    \1\ ``Sources of Greenhouse Gas Emissions.'' United States 
Environmental Protection Agency, last updated on 29 April 2019, 
www.epa.gov/ghgemissions/sources-greenhouse-gas-
emissions#transportation.
---------------------------------------------------------------------------
    Communities across the United States struggle to address the 
harmful effects of air pollution. Exposure to particulate matter is 
linked to a range of severe health issues, including premature death 
for those suffering from heart or lung disease, heart attacks, 
irregular heartbeat, aggravated asthma, decreased lung function and 
increased respiratory symptoms (EPA \2\). According to the American 
Lung Association, more than four in 10 people in the United States live 
in counties that have unhealthy levels of ozone or particle pollution, 
which is around 141.1 million Americans.\3\ Children and teenagers are 
among the most vulnerable populations.
---------------------------------------------------------------------------
    \2\ ``Health and Environmental Effects of Particulate Matter 
(PM).'' United States Environmental Protection Agency, last updated 20 
June 2018, www.epa.gov/pm-pollution/health-and-environmental-effects-
particulate-matter-pm.
    \3\ ``State of the Air 2019.'' American Lung Association, 2019, 
https://www.lung.org/assets/documents/healthy-air/state-of-the-air/
sota-2019-full.pdf.
---------------------------------------------------------------------------
    We know that there are areas that bear a disproportionate share of 
the air pollution burden. Some communities are often exposed to higher 
levels of air pollution because they are located near freight centers 
and heavily traveled roadways and residents often lack the resources to 
relocate. According to a recent Union of Concerned Scientists report 
that analyzed air pollution from vehicles in California, on average, 
African American, Latino, and Asian Californians are exposed to more 
particulate matter pollution from cars, trucks and buses than white 
Californians. Further, the lowest-income households in the state live 
where particulate matter pollution is 10 percent higher than the state 
average, while those with the highest incomes live where particulate 
matter pollution is 13 percent below the state average. Not 
surprisingly, households earning less than $20,000 a year and people 
who don't own cars suffer vehicle pollution levels about 20 percent 
higher than the state average.\4\
---------------------------------------------------------------------------
    \4\ ``Inequitable Exposure to Air Pollution from Vehicles in 
California.'' Union of concerned Scientists, February 2019, https://
www.ucsusa.org/clean-vehicles/electric-vehicles/CA-air-quality-equity.
---------------------------------------------------------------------------
    Beyond air pollution, Americans are also suffering from noise 
pollution. Constant traffic noise can lead to greater stress, anxiety, 
high blood pressure, heart disease, depression and compromised sleep 
quantity and quality.\5\
---------------------------------------------------------------------------
    \5\ ``Environmental Noise Pollution in the United States: 
Developing an Effective Public Health Response.'' Monica S. Hammer, 
Tracy K. Swinburn, and Richard L. Neitzel, 2014. Environmental Health 
Perspectives 122:2 CID: https://doi.org/10.1289/ehp.1307272.
---------------------------------------------------------------------------
    Electric transit buses serving our communities, airports and 
universities are making a significant difference in addressing all of 
these issues. Every time a Proterra electric bus with zero tailpipe 
emissions replaces a diesel bus, greenhouse gas emissions are reduced 
by approximately 230,000 pounds and noise pollution is lessened. To 
date, Proterra vehicles in revenue service have displaced more than 49 
million pounds of greenhouse gas emissions. Additionally, transit 
customers save money on fuel and maintenance.
    Vehicle powertrain technology is undergoing a transformational 
shift away from the internal combustion engines of the past to battery-
electric technology. In just a few short years we have seen the growth 
of electric transit buses globally. In 2017, around 13 percent of the 
total global municipal bus fleet was electric.\6\ The United States is 
poised to be a global leader in this emerging market, bringing the next 
wave of transit innovation directly to communities across the U.S. But 
this movement is not just about protecting the environment. It is about 
creating good-paying jobs and boosting the clean energy economy. 
Electric vehicle technology is creating the manufacturing and 
engineering jobs of today and tomorrow, such as electricians, advanced 
manufacturing factory workers, EV service and maintenance workers, and 
battery technicians. Further innovation by EV companies positively 
impacts adjacent industries. For example, Proterra partners with TPI 
Composites to manufacture our pioneering composite body for Proterra 
transit buses. TPI recently opened a factory in Newton, IA and added 
headcount to support the growing demand of electric buses. 
Additionally, by investing in battery-electric technology, America will 
lessen its dependence on foreign oil and leverage its innovative spirit 
to develop clean, green technology that outperforms traditional diesel 
vehicles.
---------------------------------------------------------------------------
    \6\ ``Electric Buses in Cities: Driving Towards Cleaner Air and 
Lower CO2.'' Bloomberg New Energy Finance, 29 March 2018.
---------------------------------------------------------------------------
    As you can tell, I am an EV and public transit enthusiast. It is 
why I took this job more than 4 years ago. It is critical that we 
reduce harmful emissions that are intensifying the world's climate 
crisis. We have a viable, market-driven solution that can help drive 
change right now and, when deployed at scale, will positively impact 
our environment and our public health.
    But we could use additional help.
    In my opinion, the single biggest accelerant in this space has been 
the Federal Transit Administration's Low or No Emission Vehicle Program 
(LowNo), which has been responsible for funding hundreds of electric 
transit buses. But the funding has been limited. LowNo was funded at 
$55M per year in the last surface transportation reauthorization bill, 
the Fixing America's Surface Transportation (FAST) Act. We are grateful 
that the House and Senate Appropriations Committees have provided 
supplemental funding for this program over the last two fiscal years. 
If we are serious about delivering cleaner mobility solutions to all 
communities, we should significantly increase appropriations for this 
program in particular and make this a national priority. Let's ensure 
that there is increased funding to enable all Americans to ride in an 
emission-free and quiet electric vehicle.
    In addition to the above, we respectfully request that this 
Committee consider other actions to help all communities transition to 
a cleaner mobility future:

 I. Surface Transportation Bill Reauthorization. The Fixing America's 
  Surface Transportation (FAST) Act expires at the end of Fiscal Year 
 2020. We urge Congress to reauthorize the surface transportation bill 
and, specifically, reauthorize the LowNo Program at higher amounts due 
     to increasing demand, thus ensuring that the grant awards are 
  sufficient for meaningful EV deployments and distributed in diverse 
 regions throughout the country. This might be the perfect vehicle to 
fold in the Green Bus Act, which would require all new buses purchased 
 with FTA funds be zero-emission beginning on October 1, 2029 and give 
   preference under the LowNo Program to transit agencies that have 
completed full fleet transition plans to zero emission vehicles. Thank 
   you for your leadership on this initiative Congresswoman Brownley.

  II. Comprehensive Infrastructure Bill. We're pleased that both the 
  Administration and Congress have indicated that infrastructure is a 
      priority. We call on Congress to put forth a comprehensive 
   infrastructure bill that includes funding for heavy-duty electric 
         vehicle fleets and the accompanying EV infrastructure.

III. Incentivize Transit Agencies to Transition to Zero-Emission Buses. 
Under current funding levels, the federal government will pay up to 85% 
of the cost of a new bus, which include buses that run on fossil fuels. 
   We suggest that Congress keep the existing federal share for zero-
 emission transit buses, but reduce it for diesel (40%), CNG (50%) or 
                       diesel-hybrid buses (60%).

IV. Grant Programs For Other Heavy-Duty Vehicles. Senator Kamala Harris 
    and colleagues recently introduced the Clean School Bus Act to 
 accelerate electrification of school bus fleets. The bill authorizes 
grants of up to $2 million to replace diesel school buses with electric 
 school buses, invest in charging infrastructure and support workforce 
  development. The bill would also give priority to applications that 
  serve lower-income students, replacing the most polluting buses. We 
    support it and urge Congress to pass it and appropriate funding.

V. Expansion of the ATVM Loan Program. The Advanced Technology Vehicles 
Manufacturing Loan Program is administered by the Department of Energy. 
One of its goals is to improve the use of advanced technologies in cars 
and components manufactured in the United States. But manufacturers of 
    heavy-duty vehicles--such as electric public transit buses--are 
  ineligible to apply for the low-interest loans. My understanding is 
  that there is approximately $16B remaining in this Program, having 
successfully helped companies such as Tesla, Nissan and Ford. Congress 
 should amend this Program to allow companies like Proterra to be able 
   to apply for loans that will help them invest in R&D and product 
                              development.

    Thank you for the opportunity to testify before you today. I look 
forward to answering any questions that you may have.

    Ms. Castor. Thank you.
    Mr. Satterthwaite, you are recognized for 5 minutes.

                STATEMENT OF TONY SATTERTHWAITE

    Mr. Satterthwaite. Chairwoman Castor, Ranking Member 
Graves, members of the select committee, thank you for inviting 
me here today and for your interest in clean technologies for 
heavy-duty vehicles. My name is Tony Satterthwaite, and I am 
the president of the distribution business at Cummins.
    Like you, we know climate change is a significant threat to 
our world and to our business, and Cummins has always been 
committed to improving technology in our industry. Today, I 
would like to tell you a bit about that journey as well as what 
we think may be possible in the future.
    First, let me tell you about Cummins. We are a 100-year-old 
company founded and headquartered in Columbus, Indiana. And in 
those 100 years, we have become the largest independent 
producer of both diesel engines and diverse power solutions in 
the world. In the United States, we have approximately 27,000 
employees, and we have manufacturing facilities in 9 States.
    Because I have the opportunity to work with our customers 
every day, I see firsthand the challenges they face. Most of 
our customers buy heavy-duty vehicles for commercial return. A 
truck owner needs to be able to purchase a vehicle that is 
capable of doing the job required, has low operating costs, and 
can be purchased for a price that allows the truck owner to 
still make a profit at whatever work he or she is doing.
    Cummins doesn't make vehicles, but our engines and 
components are in many of the trucks you see on the road in a 
wide range of applications, including trucks and buses of all 
sizes. This is also another thing that makes the commercial 
vehicle sector unique: It is not one market. It is lots of 
markets with customers who need vehicles to do a wide variety 
of jobs. What is right for one customer won't necessarily be 
right for the next customer.
    Since the Clean Air Act Amendments of 1990, Cummins has 
been on a journey to reduce emissions from diesel engines. More 
than 30 years ago, we developed solutions that enable us to 
meet standards that reduce particulate emissions in the diesel 
engine by 90 percent and NOx by 95 percent while improving fuel 
efficiency. In fact, it would take 60 of today's clean diesel 
trucks to equal the emissions from a single truck sold in 1988.
    But even with that progress, we don't believe we are done. 
Cummins and other truck and engine manufacturers are currently 
working with EPA and the California Air Resources Board about 
how much farther we can go to further reduce NOx and 
particulate matter.
    With respect to climate change, in 2009 Cummins began 
working with regulators to determine the best way to establish 
fuel efficiency standards for commercial vehicles, because 
improving fuel economy is the best way to reduce CO2 emissions 
from vehicles. We have always supported those standards, and 
truck and engine manufacturers like Cummins and other 
stakeholders are hard at work to develop products that meet 
these new standards. Department of Energy programs like 
SuperTruck are critical to develop the technologies to make 
that happen.
    Which brings me to where we are today. As we look to the 
future of the heavy-duty transportation sector, we don't 
believe there will be one technological solution that will meet 
all needs. While diesel technology has captured most of the 
commercial vehicle market in the past, we see a future where 
diesel, natural gas, battery electric, and even fuel cell and 
sustainable fuels power our products. How and where they are 
applied depends on a variety of factors, including technology 
capability, cost, and infrastructure availability. And, 
frankly, we don't know which ones will win.
    We think clean diesel will remain an important technology 
for many of our customers for a long time. This is especially 
true for applications that require a lot of power and 
reliability. Of the alternatives to diesel, natural gas is the 
most mature, reliable solution available today that can reduce 
greenhouse gases, NOx, and particulate matter.
    Our latest natural gas engine is certified to California 
Air Resources Board's Optional Low NOx emissions standard, 
which is 90 percent lower than current EPA and CARB 50 State 
standards. However, limited fueling infrastructure remains an 
important barrier to increased usage in many heavy-duty 
applications for natural gas.
    Cummins is also invested heavily in our electrified power. 
We have committed to investing $500 million and have launched 
our first battery-electric powertrain this year in city and 
school bus applications.
    There are challenges to the adoption of battery 
technologies for the heavy-duty transportation sector. 
Improvements are needed in energy density, charging time and 
infrastructure, and cost. Continued investment by the 
Department of Energy can help us solve these issues faster.
    In addition to these technologies available today, Cummins 
is also investing in a variety of other fuels and technologies, 
including fuel cells powered by hydrogen and natural gas and 
engines that can run on a variety of sustainable fuels.
    Cummins is committed to investing in an energy-diverse 
future where our customers have a broad portfolio of power 
options so they can choose what works best for them.
    Thank you for the great honor and privilege to speak to you 
today.
    [The statement of Mr. Satterthwaite follows:]
                               __________

  Written Statement of Tony Satterthwaite, Vice President, President--
                  Distribution Business, Cummins Inc.

   Hearing on Solving the Climate Crisis: Cleaning Up the Heavy-Duty 
                    Vehicles, Protecting Communities

  U.S. House of Representatives Select Committee on the Climate Crisis

                             July 16, 2019

    Chairwoman Castor, Ranking Member Graves, and members of the Select 
Committee, thank you for inviting me here today and for your interest 
in clean technologies for heavy-duty vehicles. My name is Tony 
Satterthwaite and I am President of the Distribution Business at 
Cummins. We have been committed to improving technology in our 
industry. We embraced regulations more than 20 years ago and developed 
solutions that enabled us to meet standards that reduced particulate 
emissions in the diesel engine by 90 percent, and NO/x/ by 95 percent 
while improving fuel-efficiency. Today, I'd like to tell you a bit 
about that journey, as well as what we think may be possible in the 
future.
                              cummins inc.
    Cummins Inc. is a 100-year-old company founded and headquartered in 
Columbus, Indiana. Since 1919, we've become the largest independent 
producer of both diesel engines and diverse power solutions in the 
world, and we've done this through constant technological innovation 
and by bringing our customers the right power solution at the right 
time for each unique application.
    We also manufacture and supply highly complex components to the 
transportation and power solutions industries such as turbochargers, 
fuel systems, filters and aftertreatment systems - all of which has 
enabled us to build high-performing and efficient products meeting 
global emission standards.
    Cummins products are in a wide range of applications including 
small passenger trucks, tractor-trailers that move goods across the 
country, pick-up and delivery trucks, as well as transit and school 
buses. You will also find our products in refuse trucks, mining 
equipment, oil-and gas operations, passenger trains and tug boats. Our 
products also generate electricity in applications from mobile power 
systems that support our military to critical backup power systems that 
keep data centers and hospitals up and running 24 hours a day, seven 
days a week. National Landmarks that many Americans see every day, like 
Wrigley Field and the Statue of Liberty, also rely on Cummins for their 
backup power needs.
    Simply put, our products need to be dependable and reliable to help 
our customers do the work they need to do, whether that is hauling 
critical goods across the country, or delivering our most precious 
cargo: our children to school. They also need to work hard, capable of 
carrying very heavy loads and performing in extreme conditions.
    We have more than 62,000 employees globally and operate in over 190 
countries throughout the world. In the United States, we have 
manufacturing facilities in Indiana, Minnesota, New York, North 
Carolina, South Carolina, Tennessee, Wisconsin, California and Oregon. 
In addition to our manufacturing operations in the United States, we 
also own all our distributor branches with locations in almost every 
state.
                     innovation and the environment
    The hearing today is well-timed as we are at the forefront of 
change in the heavy-duty vehicle industry. We are providing a wider 
variety of products for our customers that are cleaner, more efficient 
and cost-effective than ever before.
    Cummins has long acknowledged that our company is only as strong as 
the health of our communities. Nearly four decades ago, Cummins made 
the decision to embrace tough environmental standards and to use our 
technological expertise and innovation to drive our business and 
improve communities, in contrast to the industry approach at the time. 
In 2006, we set our first facility energy and greenhouse gas goal and 
joined the U.S. EPA Climate Leaders program--firmly stating our 
commitment to address climate change. In 2009, Cummins technical and 
policy leaders wrote a white paper for the National Academy of Sciences 
addressing the regulation of greenhouse gases in commercial vehicles 
that served as an important reference for regulators. Recently, in 
November 2018, EPA announced the Cleaner Trucks Initiative (CTI), which 
will include a future rulemaking to establish updated standards to 
address NO/x/ emissions from highway heavy-duty trucks and engines. We 
strongly support this initiative. This year we are releasing our next 
companywide sustainability plan including science-based climate goals. 
Our commitment to addressing the environmental impact of our products 
and facilities is ingrained in our mission, vision, values and culture.
                            energy diversity
    As we look to the future of the heavy-duty transportation sector, 
we see a sector that is highly complex and one in which we don't 
believe there will be one technological solution that will meet all 
needs. Our customers buy heavy duty vehicles for commercial return; 
they are part of their livelihoods and must be capable of doing the job 
required at a price that is reasonable. We think clean diesel will 
remain an important technology for many of our customers for a long 
time. We will continue to work with regulators to make diesel even 
cleaner and more efficient than it is today. At the same time, in some 
applications natural gas or electrified power will make the most sense 
based on the job to be done or the location where the vehicle is 
operating.
    While diesel technology has captured most of the market in the 
past, we see a future where diesel, natural gas, battery electric, and 
even fuel cell and sustainable fuels power our products. The three 
primary fuels and technologies for heavy-duty vehicles are diesel, 
natural gas and electric. How and where they are applied depends on a 
variety of factors. Below is a chart which demonstrates some of the 
core attributes most important to our customers including technology 
capability, cost and infrastructure availability.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Diesel--Cummins continues to be a leader in clean diesel technology 
and understands that for many markets, diesel engines will be the best 
solution for decades to come. Clean diesel is the combination of 
today's ultra-low sulfur diesel fuel, advanced engines and effective 
emission controls. Together, these elements result in a highly 
efficient engine, which can achieve extremely low emissions and reduce 
greenhouse gases (GHGs). Clean diesel benefits from low upfront costs 
and an existing and mature infrastructure. Combining clean diesel and 
hybrid technology provides additional fuel efficiency; further 
improving air quality and reducing carbon footprints, and even enabling 
a zero emissions operating mode within city limits.
    This decade, the 4.9 million new-technology diesel trucks on 
America's roads have removed more than 26 million metric tons of NOx 
and 59 million metric tons of carbon dioxide from the air. Currently, 
across the United States, more than 36% of all Classes 3-8 registered 
commercial trucks are of the newest, near-zero generation diesels, and 
that number grows each year.
    We are not done innovating to make diesel engines cleaner and more 
efficient. Truck and engine manufacturers like Cummins and other 
stakeholders are hard at work to develop products that meet EPA and 
NHTSA's Phase 2 Greenhouse Gas Standards for commercial vehicles. When 
fully implemented those standards will lower CO2 emissions by 
approximately 1.1 billion metric tons; save vehicle owners fuel costs 
of about $170 billion; and reduce oil consumption by up to two billion 
barrels over the lifetime of the vehicles sold under the program. Our 
ability to meet these goals is supported by cooperative research 
programs like the SuperTruck program at the Department of Energy. As 
mentioned above, we are also actively working with EPA, CARB and other 
stakeholder to take near-zero emissions diesel engines closer to zero 
through a new engine standard for NOx.
    Natural Gas--Where infrastructure exists or can be expanded, 
natural gas is a mature, reliable solution available today that can 
reduce GHG, NOx, and PM. Renewable natural gas expands on these 
benefits. While the initial purchase price of a natural gas vehicle is 
higher than a diesel vehicle, its operating costs are comparable or 
less than conventional diesel technology.
    Cummins Westport has been the leader in providing low emission and 
efficient natural gas engines to some of this country's largest private 
and municipal transit and refuse fleets, and on-highway truck and 
school bus properties reaching global sales of over 60,000 natural gas 
engines in 2015. Since 2002, Cummins Westport has offered emission 
leading natural gas engines, meeting or exceeding the most stringent 
North American engine emission limits set by the US Environmental 
Protection Agency (EPA).
    However, natural gas use is not a viable choice for many heavy-duty 
applications due to limited infrastructure. Vehicles that return to 
base daily, like refuse trucks, port vehicles or city buses are ideal 
applications for natural gas. Given that natural gas vehicles can cost 
and weigh more than conventional diesel vehicles, policies like the 
federal excise tax and weight limits can also reduce consumer adoption 
of these vehicles.
    Battery Electric--Electrified Power is the newest of Cummins' 
business segments bringing together all the company's electrification 
resources with a view to supporting all the segments where Cummins 
traditionally operates today. Cummins can use a range of cell 
chemistries suitable for pure electric, hybrid and plug-in hybrid 
applications.
    The adoption of electric vehicle systems for heavy duty 
transportation is dependent on the availability of charging 
infrastructure capable of meeting the energy demands of heavy-duty 
applications. Emissions requirements, government incentives and cost 
also play a part. A city bus is a great example of an application where 
electrification technology works today. The duty cycle, with frequent 
stops and starts, is ideally suited for electrified powertrains and 
makes this technology viable for reducing emissions in traffic 
congested areas. Material handling applications are being electrified, 
reducing emissions in ports, distribution hubs and warehouses. And 
while the energy density of batteries continues to improve, it is not 
yet viable for all applications. Currently, the weight of batteries 
negatively impacts payload capacity, making electric trucks impractical 
for many applications. Creating hybrid technologies that combine diesel 
and electric can be part of the solution to help meet regulatory 
requirements for some applications.
    From an economic standpoint, customers will need an electric 
vehicle system that offers an acceptable return on investment; battery 
prices must progress to a reasonable level that allows for payback, 
without the use of incentives. Improvements to charging infrastructure, 
advances in cell chemistry that allow for increased energy density in 
combination with fast charging, and greater modularity of battery packs 
will all help accelerate the adoption of electric and hybrid vehicles. 
Continued investment in these areas by the Department of Energy can 
accelerate this development.
    In addition to these technologies available today, Cummins is also 
investing in a variety of other fuels and technologies:
    Hydrogen and Fuel Cell--Globally, we see increased focus on 
hydrogen- based technologies and infrastructure. Advancements in fuel 
cells have made the technology more suitable for commercial use. 
Improving proton-exchange membrane (PEM) and Solid Oxide (SOFC) fuel 
cell technology performance characteristics, life, efficiency and cold 
weather capabilities could make fuel cells a credible alternative for 
commercial and industrial applications. The application of PEM fuel 
cells to commercial vehicle applications is exciting, particularly 
those applications with productivity or longer daily range needs that 
cannot be accomplished by batteries. Joining the Hydrogen Council 
Executive Committee has provided a great platform for Cummins to 
collaborate with experts and companies with a similar vision of the 
future. Cummins is participating in the Costa Rica hydrogen ecosystem 
project by sponsoring a hydrogen fuel cell bus. Phase 1 of the project 
demonstrated technical feasibility and Phase 2 aims to demonstrate 
financial viability. Phase 2 will feature a Cummins electric powertrain 
and a fuel cell electric powertrain in two buses.
    Other Alternative Fuels--Cummins is investing in enabling its 
engines and generator sets to use fuel sources that would otherwise be 
considered waste products, delivering robust power even with fuels like 
landfill and digester gases. Capturing landfill gas or biogas for 
processing into fuel suitable for vehicles or gensets has significant 
benefits. Biomethane - obtained by purifying biogas - that is used as 
fuel in place of fossil fuels effectively produces less GHG than the 
fuel it replaced. Biogas can provide a clean, easily controlled source 
of renewable energy from organic waste materials, replacing fossil 
fuels with a sustainable carbon neutral fuel option, while can reducing 
external fossil fuel dependence and promoting energy security.
                             policy levers
    Public policy plays an important role in facilitating this energy 
diverse future for the heavy duty sector. We think the best policies 
are ones that don't pick winners and losers but focus on desired 
outcomes. The best technology to solve for a problem today may not be 
the best in six months or two years - that's why technology neutral 
policy, free of technology-forcing mandates, is important to ensure 
communities and customers can continue to make the best choices to meet 
their performance, commercial and environmental needs and let the 
technologies compete to determine market solutions.
    Federal investment and tax policy also play an important role in 
spurring innovation. Robust and consistent investment in research and 
development and investment through grants and public-private 
partnerships is essential to provide market certainty for consumers, 
fleets, dealers, manufacturers and suppliers participating in the 
transition to cleaner technologies.
    Encouraging adoption of low-emissions technologies infrastructure 
investment is critical. Congress should invest in battery electric 
vehicle charging as well as hydrogen and natural gas fueling 
infrastructure to help accelerate adoption of these technologies.
    Finally, Congress, communities and customers should support low or 
no-carbon, sustainable fuel choices. The rise of multiple fuels means a 
poly-fuel future, but each fleet has unique needs. It is important for 
suppliers to continually produce more sustainable, low or no-carbon 
fuels, vehicle technologies, and infrastructure that measurably improve 
well-to-wheels climate impacts and address other relevant 
sustainability impacts and benefits.
                               conclusion
    The heavy duty vehicle industry is facing significant change and 
more is needed to meet our global energy and environmental challenges. 
Cummins is committed to investing in an energy diverse future where our 
customers have a broad portfolio of power options--including clean 
diesel, natural gas, electrified power and even fuel cell technology--
so they can choose what works best for them. Enacting policies that 
promote the power of choice for every market will help ensure that this 
country and every community within it has the proven technology 
necessary to meet air quality and climate goals and serve the economy.
    Thank you again, for the great honor and privilege to speak to you 
all today. If I can provide any information to you on behalf of Cummins 
Inc. I would be honored to discuss this issue or any other issue with 
you or your staff.
                                appendix
Policy Recommendations
    As the Committee prepares policy recommendations to address the 
Heavy-Duty industry, energy diversity can be addressed and encouraged 
in the following ways:
1. Funding
    Cummins supports robust funding for the Highway Trust Fund (HTF) to 
ensure dedicated funds for maintaining and improving highway, bridge 
and transit infrastructure. The following recommendations will ensure 
energy diversity and parity across all vehicles with a commitment to 
reliable and consistent funding of the HTF and modernizing the truck 
fleet with the cleanest, safest available vehicles.
    <bullet> Policy Recommendations
         <bullet> Repeal the 100-year-old 12% federal excise tax on 
        Heavy Duty trucks to incentivize new truck purchases which 
        modernize truck fleets.
         <bullet> Support a mechanism for equal contribution to the HTF 
        by drivers of all vehicles regardless of power source such as a 
        Vehicle Miles Travelled (VMT) tax.
         <bullet> Encourage greater public-private partnerships by 
        implementing investment tax credits, raising the cap on private 
        activity bonds and increasing flexibility for the TIFIA program 
        for surface transportation projects so public project sponsors 
        and private investors have the fullest possible range of 
        financing options available.
                 <bullet> Congress should authorize Qualified Tax 
                Credit Bonds for surface transportation projects under 
                Section 54A of the tax code.
         <bullet> Extend tax credits that promote energy efficiency and 
        diversity: the fuel cell vehicle tax credit, alternative fuels 
        tax credit, the alternative fuel refueling infrastructure tax 
        credit, and the energy production tax credit (Secs. 6426, 30B, 
        30C, 45 and 48).
         <bullet> Ensure favorable treatment of R&D expenditures in the 
        Internal Revenue Code (IRC), including a robust R&D Tax Credit 
        and a fair and efficient system of cost recovery for R&D 
        expenses.
2. Innovation
    Leadership in innovation is one of the most important factors for 
future of US manufacturing. Innovation makes the country and its 
businesses more productive, dynamic and competitive. At Cummins, 
innovation is ingrained in our culture, mission, vision and values. Our 
commitment to innovation dates back a century, to when Clessie Cummins 
first applied inventive ideas to improvements that advanced the diesel 
engine. These recommendations seek to increase support for foundational 
R&D and position America to compete and thrive globally in the 
innovation race, and pursue innovation inclusively.
    <bullet> Policy Recommendations
         <bullet> Funding for ARPA-E, EERE, and specifically the DOE 
        Vehicle Technology program is valuable and should be increased 
        and set to grow at 4 percent per year adjusted for inflation, 
        reversing nearly a decade of decline.
         <bullet> Support the Fueling America's Security and 
        Transportation (FAST) with Electricity Act to provide a 30% 
        federal tax credit for electric transportation options beyond 
        passenger cars; provide a 30% federal tax credit for recharging 
        and refueling stations and provide loan guarantees to support 
        capital investments in associated domestic manufacturing 
        capacity.
3. Transit and Passenger Rail
    Investing in US transportation infrastructure can greatly improve 
the efficacy and use of public transit and passenger rail. This 
investment can encourage ridership, promote ease of access and make 
regional mass transit more sustainable for communities and the 
environment. Increasing public funding for bus, commuter and passenger 
rail systems will release private investments to expand capacity, 
reduce highway congestion, link rural and suburban communities safely 
and mitigate the impacts to our environment.
    <bullet> Policy Recommendations:
         <bullet> Provide predictable, dedicated and sustainable 
        funding for capital investment in bus, commuter and passenger 
        rail systems.
                 <bullet> Include a Phase II of the Alternative Fuel 
                Corridors (AFC) program which supports infrastructure 
                for alternatives to gasoline like natural gas and 
                hydrogen powered vehicles.
                 <bullet> Include Diesel Exhaust Fluid as a component 
                of AFCs at rail yards to increase adoption of EPA Tier 
                4 clean locomotives.
                 <bullet> Provide matching funds to states for 
                installation of clean re-fueling infrastructure along 
                10 major AFC's annually through 2030.
         <bullet> Reauthorize the Diesel Emissions Reduction Act 
        (DERA).

    Ms. Castor. Thank you very much.
    Now we are going to move to members' questions. I am going 
to hold off until probably closer towards the end, so I would 
like to recognize Ms. Bonamici for 5 minutes.
    Ms. Bonamici. Thank you very much, Chair Castor and Ranking 
Member Graves.
    And thank you to our witnesses.
    This is a good conversation we are having today. We know 
that the transportation sector is a large contributor of 
anthropogenic greenhouse gas emissions. And we know that the 
hazardous air pollutants, particularly from diesel engines, 
disproportionately affect our vulnerable communities.
    In my home State of Oregon, they have recognized the public 
health risks of diesel trucks. The legislature just recently 
passed a bill to phase out older diesel engines with newer 
models by 2025 in the Portland metro area. And earlier this 
year, Daimler Trucks North America announced that it is going 
to begin manufacturing electric Freightliner trucks in 
Portland. They will be on the road by 2030. And these are 
important first steps to help mitigate the pollution from 
heavy-duty vehicles.
    In northwest Oregon, the district I am honored to 
represent, our mass transit agency, TriMet, recently launched 
their first all-electric buses, powered by 100-percent wind 
energy. TriMet estimates that the bus will reduce greenhouse 
gas emissions by 100 to 140 tons per year compared to their 
diesel fleet. The renewable-powered buses ease congestion and 
reduce air pollution as they smoothly cruise through the 
Northwest. It is very exciting. The transition, of course, 
benefits the environment but also the health and well-being of 
the communities.
    And I really encourage colleagues here today--you know, we 
heard about the costs, especially with things like buses. We 
need to consider, as well, the cost savings in terms of 
healthcare, job loss from people who are suffering from health 
conditions. So let's keep that in mind as we are crafting ideas 
and policies.
    Mr. Popple, you made several suggestions in your testimony 
about policy. What would be the best thing that Congress could 
do to incentivize the rapid deployment of zero-emission trucks 
and buses? And where do we need more research and development, 
investments in research and development, as well, to support 
our transition away from diesel to clean technologies?
    Mr. Popple. Well, thank you, Congresswoman. I appreciate 
the question.
    I think the most important thing that we can do is continue 
with the programs that already exist. So I would say the 
number-one priority, from my perspective, would be to make sure 
that we have a long-term transportation bill, so a renewal of 
the FAST Act and continue the Low-No program.
    The reason that is so important is because there are 
applications that are relatively easy to electrify, like city 
buses and school buses. And what we typically see in bus and 
truck is the technology starts in depot-based vehicles like 
buses, it is perfected, and then it is transferred to trucking. 
So we saw that with natural gas and with propane. I think we 
are going to see the same thing in electric.
    So if we want momentum towards zero-emission heavy-duty 
vehicles, I think it is important to keep the momentum we 
already have on the applications where it makes sense today.
    Ms. Bonamici. And do we need more research and development 
in any particular areas?
    Mr. Popple. Absolutely. I think one of the new frontiers 
that we are eager to explore is this intersection between 
transportation and the grid. And the Department of Energy and 
the Department of Transportation should be seeking ways to 
create joint programs specifically around vehicle-to-grid 
technology.
    Ms. Bonamici. Right.
    Mr. Popple. These are big batteries, and they enable the 
grid to be more resilient. For example, after a storm or an 
earthquake or a fire, electric school buses or city buses could 
be putting power back on to a down grid. That technology still 
needs research and development.
    Ms. Bonamici. Terrific. Thank you.
    Mr. Logan, I co-chair the bipartisan House Oceans Caucus, 
and I really appreciate your testimony mentioning that by 2050 
ocean-going vessels alone will account for about 17 percent of 
emissions worldwide without significant efforts to decarbonize.
    And the electrification of the maritime industry is 
happening gradually. We know it is happening in Europe. Norway 
is leading the way. But in the United States, we are falling 
behind our international allies.
    I represent a district that is bordered by the Columbia 
River and the Pacific Ocean. I invite you all to visit. It is 
beautiful. But I am very concerned, obviously, about the 
effects of emissions from diesel-powered engines on our 
waterways and ecosystems.
    So what are the current barriers to electrifying the global 
shipping fleet? And how can we incentivize meaningful emissions 
reductions for the maritime industry?
    Mr. Logan. So I think the biggest obstacle is the fact that 
this is a sector that is regulated internationally. And so 
really having Congress urge our representatives that sit in 
those bodies to really step up and push the international 
community to advance technologies in ocean-going vessels, that, 
along with incentives, I think can move us light-years ahead of 
where we are today.
    Ms. Bonamici. And I mentioned Norway. Are there other 
places that are really out in front in this transition?
    Mr. Logan. I would have to get back to you on that.
    Ms. Bonamici. Thank you.
    I yield back.
    Ms. Castor. Thank you.
    Mrs. Miller, good morning. You are recognized for 5 
minutes.
    Mrs. Miller. Thank you, Chairman Castor and Ranking Member 
Graves.
    And thank all of you all for being here today.
    The transportation industry in West Virginia is critical to 
ensure that our goods can make it across the Nation and around 
the world. West Virginia has the sixth-largest highway system 
in our country. My hometown of Huntington has one of the 
largest inland water ports in the Nation. That along with our 
trucks and our rail help ensure that West Virginia natural 
resources are able to power the world.
    Mr. Satterthwaite, can you talk about what Cummins has done 
under the EPA Phase 1 greenhouse gas rule and what you plan on 
doing under Phase 2?
    Mr. Satterthwaite. Thank you, Congresswoman, for the 
question.
    Cummins has worked collaboratively with the EPA over many 
years. Starting in 2009, as I said, we were engaged with the 
development of the first round of Phase 1 greenhouse gas. We 
have now come to an agreement, the industry and EPA, on Phase 2 
greenhouse gas, which will further lower greenhouse gas 
emissions of heavy-duty vehicles through 2027.
    These reductions are significant. Today's diesel engines 
are cleaner than ever. And through the latest generation of 
cleanest trucks on the road, we have reduced--59 million tons 
of CO<INF>2</INF> has been eliminated since 2011 on the basis 
of improvements in diesel-engine greenhouse gas emissions.
    Mrs. Miller. Can you discuss how Cummins has helped 
innovate in the heavy-duty transportation sector to increase 
energy diversity and help protect the environment?
    Mr. Satterthwaite. Cummins, as I mentioned in my testimony, 
has been investing in many technologies.
    We believe the best way to make short-term improvement in 
air pollution and greenhouse gas is to implement quickly 
improvements in diesel technology that have already been 
brought to market through programs like DERA and other programs 
that actually encourage customers to invest in newer vehicles 
and retire older vehicles.
    We have also made investments in battery-electric and fuel-
cell technologies that we believe are a part of the future. And 
we continue to make those investments and believe there are 
parts of the commercial vehicle market where they are very 
appropriate and even economic at the current time.
    Mrs. Miller. So, basically, you don't rely on just one type 
of technology.
    Mr. Satterthwaite. That is correct, ma'am.
    Mrs. Miller. Okay.
    How would a technology-forcing mandate hinder innovation in 
the heavy-duty sector?
    Mr. Satterthwaite. A technology-forcing mandate would 
require customers to use a technology that might not be 
appropriate for their specific application.
    And this is what we believe--the commercial vehicle market, 
the heavy-duty transportation sector has a wide variety of 
customer needs, from long-haul, over-the-road trucking, to 
short-term pickup and delivery, to the rail system. And we 
believe each of those applications in the future may benefit 
from a different technology, all with the intention of driving 
towards a cleaner and better future, but not all from a single 
technology.
    Mrs. Miller. Thank you.
    Does cost play a major role in businesses' decisions to 
utilize specific technology?
    Mr. Satterthwaite. I believe so. I believe cost plays a 
major role. And I think all businesses consider cost, both 
OPEX, as we say, operating cost, and CAPEX, capital cost. And 
some of the tradeoffs we are talking about is the tradeoff 
between capital cost and operating cost for every business.
    Mrs. Miller. So what other major factors do businesses rely 
upon when deciding which type of power is best to utilize?
    Mr. Satterthwaite. In the customers that I work with, one 
of the first things that they worry about is reliability and 
support. Does the technology work, and when it doesn't, can I 
get it fixed quickly and easily and effectively?
    That is essentially what my part of the business at Cummins 
does. We repair products in the field. And it is a common 
conversation with customers and a concern they have. Again, 
they have business to do, they have work to do every day. And 
new technologies are interesting for them; what they really 
want to do is reliably run their business.
    Mrs. Miller. Absolutely.
    What technology do you see the industry mainly relying upon 
in 10 years from now?
    Mr. Satterthwaite. One of the things I like about the 
future is it is hard to predict. And at Cummins, we don't know. 
And so our approach has been to invest in a portfolio of 
technologies and to understand how each of those technologies--
their relative benefits, their relatives costs, and understand 
how the industry might evolve.
    We do not believe there will be a single technology winner 
in the future. Our view of the future of the heavy-duty 
transportation sector is it will be a multi-technology, multi-
fuel industry in the future. And so we are trying to become a 
major player across that portfolio.
    Mrs. Miller. All of the above. Thank you so much.
    I will give back my 5 whole seconds.
    Ms. Castor. Thank you very much.
    Ms. Brownley, you are recognized for 5 minutes.
    Ms. Brownley. Thank you, Madam Chair.
    And before I begin, I wanted to ask unanimous consent that 
a copy of CALSTART's Federal policy which has just come out and 
their recommendations on medium and heavy-duty vehicles and 
calling for a national clean truck and corridor initiative be 
added to the record.
    Ms. Castor. Without objection.
    [The information follows:]
                               __________

                       Submission for the Record

                     Representative Julia Brownley

                 Select Committee on the Climate Crisis

                             July 16, 2019

                                CALSTART

              National Clean Truck and Corridor Initiative

federal investment to drive clean trucks and corridors--the time is now
    While essential to the nation's goods movement industry, trucks are 
also one of the nation's largest single sources of air pollution, 
greenhouse-gas emissions, and users of diesel fuel. Given the scope of 
the trucking industry, the resulting impacts are felt in every region 
and impact every resident. Fortunately, technology can provide 
solutions that address these issues, while making the trucking sector 
even stronger. A new national effort focused on expanding clean truck 
highway corridors and incentivizing the deployment of clean trucks will 
not only contribute to compliance with clean air standards, it would 
also expand domestic vehicle and component manufacturing and highway 
corridor construction jobs while providing U.S. based vehicle 
manufacturers a competitive global advantage. Transforming the trucking 
industry will require a three-pronged approach including vehicle 
acquisition incentives, Research, Development and Demonstration (RD&D) 
and new (alternative fueling/charging) highway infrastructure. CALSTART 
and its 200 plus member companies are calling for a national Clean 
Truck and Corridor Initiative that would promote U.S. energy 
independence, climate security, domestic advanced manufacturing, job 
creation and healthier lives.
    The timing is right for a National Clean Truck and Corridor 
(infrastructure) Initiative. Over the past decade the costs of electric 
propulsion systems, including batteries, have come down dramatically. 
The performance of fuel cell technologies has improved significantly 
and engines using low carbon fuels have now achieved ultra-low NOx 
emission levels. Under the Trump administration, the U.S. Environmental 
Protection Agency (EPA) has announced plans to further strengthen 
pollution standards for trucks and buses. Concurrently, global 
companies are making major investments and are beginning to deploy zero 
emission commercial vehicles around the world. China currently has the 
lead with more than 300,000 electric trucks and buses operating in 
major cities today. This industry is still nascent, and the United 
States, its manufacturers and suppliers, can be leaders, producing 
thousands of jobs while enabling the entire country to meet the federal 
air quality standards established in the late 1970's.
    For the United States to lead in this sector, the Clean Truck and 
Corridor Initiative could provide investments in three critical areas. 
First, there is a need to bring existing zero, and near-zero emission 
products to the market which can be accomplished through purchase 
incentives, using a model proven to be successful in several states. 
Second, there is a need to assist U.S. manufacturers and suppliers in 
developing the next generation of technology so that zero and near-zero 
emission trucks and buses can be available in a larger number of 
segments and applications. Third, there is a need to expand corridors 
with zero emission refueling and recharging stations. Together, these 
three program elements would transform trucking and position U.S. 
companies to grow and compete globally. Further detail on these three 
categories is provide below.
    helping fleets transition today--providing a national purchase 
                               incentive
    The zero- and near-zero emission truck market is rapidly growing, 
offering several technology options for fleets. While having a higher 
upfront purchase price, zero to near-zero emission trucks are proving 
to have a lower total cost of ownership over the life of the vehicle. 
Similar to the zero-emission passenger car market, incentives are 
needed to jump-start the zero- to near-zero emission truck market to 
encourage fleets to purchase these advanced and cleaner vehicles. A 
federal incentive program could transform this industry in the next 5-
10 years, build a stronger domestic industry that provides high quality 
manufacturing jobs, while dramatically improving air quality along 
congested freight corridors. An investment of $20 billion over six 
years could replace more than 400,000 diesel fueled trucks with near-
and-zero emission trucks by 2025.
    A voucher incentive program (VIP)\1\ to incentivize clean truck 
purchases has proven effective in large regional markets because of its 
streamlined `point of sale' discount approach. In Illinois, New York, 
and California voucher incentives have led to the purchase of more than 
6,000 battery-electric, fuel cell, hybrid, and ultra-low NOx natural 
gas vehicles.
---------------------------------------------------------------------------
    \1\  A Voucher Incentive Program (VIP) is a streamlined process 
that applies the vehicle incentive at the point of purchase. Under a 
VIP program, the manufacturer pre-qualifies its vehicles with the 
entity managing the program and vendors are approved to submit voucher 
requests on behalf of purchasers. A voucher is redeemed to the vendor 
once all paper work is submitted and the vehicle is delivered to the 
purchaser. Fleets greatly prefer this process over the costly and 
lengthy process that includes 9-12 months of proposal development and 
review, award selection, and contract negotiations. Fleets also prefer 
the VIP process over tax credits as their true monetary value usually 
gets lost in corporate accounting and does not impact the budgets of 
most fleet directors.
---------------------------------------------------------------------------
    Zero- to near-zero emission trucks that are currently available or 
are soon to become commercially available include:
          <bullet> Hybrid-Electric cargo vans, delivery trucks, and 
        utility ``bucket'' trucks;
          <bullet> Low NOx Natural Gas refuge, drayage, and long-haul 
        trucks;
          <bullet> Battery-Electric delivery, regional and yard trucks;
          <bullet> Class 7-8 Battery Electric Drayage trucks; and
          <bullet> Hydrogen fuel cell long haul tractor-trailers.
    Federal incentives in these targeted areas--where early market 
success is most likely--would help build volumes and lower costs over 
the next 5-7 years. Once greater economies of scale are achieved, 
Federal incentives would not be needed and could be scaled back and 
eventually eliminated.
Recommendation: Create a grant program within the CMAQ program to 
        establish a Voucher Incentive Program. Require States to 
        administer the grant program using current programs as models.
 research, development & demonstration--making tomorrow's trucks better
    To transform the goods movement industry in the next 10 years, 
federal funding is required to support the research, development and 
demonstration (RD&D) of advanced technologies to make high-efficiency, 
zero-emissions, and longer-range technologies more affordable and 
viable. RD&D investments would help U.S. companies develop a diversity 
of high-quality products and be in a better position to compete in the 
global truck and bus market which exceeds $1 trillion in annual 
revenue. Based on analysis done for state agencies, CALSTART projects a 
need for federal RD&D investment of about $250 million/year from 2020 
to 2025. Approximately 30-40% of the funds should be allocated to 
technology development and demonstrations, and the remaining 60-70% 
would be allocated to major pilot deployment projects where both 
fleets, suppliers, and manufacturers can test and improve the product. 
Most of the funds should be focused on the larger trucks that consume 
the bulk of the fuel in the market.
    While we recommend that these RD&D funds be predominately spent on 
RD&D to advance the truck industry, Congress should include language so 
that some of the funds could be used for two related purposes. Zero 
emission transit buses are rapidly gaining market share in the United 
States. Additional RD&D investments in zero emission buses would help 
address key issues such as performance in cold weather and 
infrastructure resilience. In addition, the technology development of 
the Maritime Administration should be boosted to $10 million year to 
leverage the technology being deployed in near- and zero emission buses 
and apply it to the nearshore marine vessel sector.
Recommendation: Provide $250 million in additional annual funding for 
        FHWA, FTA and MARAD research, development and demonstration 
        programs to support technology development for clean trucks, 
        buses and nearshore marine vessels.
 expanding clean corridors--alternative fuel infrastructure to enable 
                             clean trucking
    Expanding our national alternative fuel corridors is critical to 
enabling clean vehicle adoption. Through the Federal Highway 
Administration's Alternative Fuel Corridor Designation Program, 46 
states including the District of Columbia have submitted nominations 
for corridors for 100 interstates, 76 US highways and state roads, of 
135,000 miles across all fuels (electric, hydrogen, natural gas and 
propane as selected by the local jurisdiction). While this designation 
allows for highway signage, significant gaps in charging and refueling 
infrastructure exist. Less than one percent of the truck stops in the 
country have zero-emission fueling stations.
    Trucks stop operators, utilities, and third-party providers are 
eager to build the truck power infrastructure of the future, and 
federal investment would play a vital and catalytic role. Federal 
funding would significantly leverage and encourage additional 
investments from the utility and private sectors. A key outcome of this 
investment would be a new or revamped network of truck stops providing 
100 percent domestic clean fuels and energy for our nation's trucks. 
Unlike today, the truckers taking part in this program would no longer 
need to rely on imported fuel, thereby lowering the nation's trade 
deficit and supporting domestic jobs.
    Based on initial estimates, we anticipate the total investment 
needed to convert the nation's trucking infrastructure to zero or near-
zero emission fuels to be between $50-100 billion over the next decade. 
Federal investment of $20 billion over that time period would leverage 
non-federal investment on a 4:1 basis.
Recommendation: Expand the current FHWA Alternative Fuel Corridor 
        program to not only designate corridors but to establish a 
        grant program for the installation of alternative fuel 
        infrastructure. Authorize the grants in lieu of tax credit of 
        the Treasury Department Section 1603 program.
                       summary--targeted outcomes
    If the U.S. Congress were to move forward with the proposed 
National Clean Truck & Corridor Initiative, there would be major 
benefits in the near- and long-term future for the country. Below are 
some of the expected outcomes from such a program:
          <bullet> Nationally, NOx emissions, the primary source of air 
        pollution in urban areas, would be reduced by 150,000 tons and 
        due to cleaner truck product availability, the nation would be 
        in a strong position to be in full compliance, for the first 
        time, with the federal air quality standards that were 
        established in the late 1970's;
          <bullet> Diesel fuel consumption would be reduced by 19 
        billion gallons by 2025, and the U.S. would be on a trajectory 
        to eliminate imported diesel by the end of the decade, thus 
        reducing the trade deficit and contributing to a declining 
        geopolitical significance of oil producing nations that don't 
        share our values;
          <bullet> Total greenhouse gas emissions from the trucking 
        sector would decline by 72 metric tons by 2025, placing the 
        U.S. in a leadership position and supporting the commitments 
        made under the global climate accord established in 2016;
          <bullet> Fleets would save approximately $20 billion in fuel 
        costs by 2025, with savings projected to expand exponentially 
        from 2026-2035 as the market for zero- and near-zero emission 
        trucks grow; and
          <bullet> U.S. truck makers and suppliers would be increasing 
        their market share and in a strong position to compete 
        globally.
    For further information on this concept, please contact CALSTART's 
Alycia Gilde, Director, Fuels and Infrastructure at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="afcec8c6c3cbcaefcccec3dcdbcedddb81c0ddc881">[email&#160;protected]</a>

    Ms. Brownley. Thank you.
    Mr. Popple, I wanted to thank you first for, at least in 
your written testimony, highlighting my Green Bus Act. I 
appreciate that very much. And I have a bill that says that any 
buses purchased with Federal funds be zero-emission by 2029. 
And it also increases funding for the Low and No Emission that 
you made reference to in your public testimony. So I thank you 
for that, and I hope that I can get members of the committee to 
sign on to my bill.
    In the staff report--and we have great staff. The staff 
report states that, while there are 300 electric transit buses 
in the United States, there are 2,250 electric transit buses in 
Europe and 421,000 electric buses in China.
    So I wanted to ask you, what do you think it is going to 
take in the United States to be a global leader? You made 
reference in your testimony that we have that opportunity to be 
a global leader. We seem to be terribly behind at the moment. 
But what is it going to take for us to truly be a global 
leader?
    Mr. Popple. Thank you for the question, Congresswoman.
    I think the status of our progression towards more advanced 
technologies in the medium and the heavy-duty sector has a lot 
to do with our Nation's traditional focus on the light-duty 
sector. So a lot of our policy early on and innovation early on 
was focused on cars. I think the U.S. has the best electric 
vehicle technology. We have the best battery technology. We 
have the best engineers. And we are just starting to apply that 
to the heavy-duty sector.
    I also think that other countries that have already done 
this demonstrate that there isn't technology risk or science 
risk in taking sectors like buses and completely electrifying 
them. We just need to focus on it and set tougher standards for 
emissions for those sectors like China and Europe have.
    Ms. Brownley. And with regards to CNG buses, I am just 
curious--I know, Ms. Romero, you talked about our school buses. 
I was a school board member way back in the day, and I know 
that our fleet, at that point in the early 2000s, were 
transitioning to CNG buses from traditional diesel buses.
    Do we have any idea, when we talk about our bus fleet, you 
know, what percentage is CNG? I understand that zero emissions 
is where we need to go, but there are somewhat cleaner buses 
out there than diesel buses. And I don't have any sense of, in 
terms of school buses, you know, what percentage are CNG. I 
know that the Federal Government had offered some opportunities 
back in the early 2000s.
    Ms. Romero. Yeah. I don't have the exact statistics for 
compressed natural gas buses. But I do know that, out of the 
nearly 500 million school buses on the roads in the U.S., about 
90 percent of those are run on diesel--so it is still very 
significant--and about 60 to 65 percent of our public buses.
    Ms. Brownley. And the cost comparison between an electric 
bus and a CNG bus, does anybody have any data on that?
    Ms. Romero. It can still be about twice--go ahead.
    Mr. Popple. On the transit side, we see a basic diesel bus 
around a half a million dollars; a CNG bus can be up to 
$600,000; and hybrids and electrics are $700,000 to $800,000.
    Ms. Brownley. Thank you.
    And, Mr. Logan, in your testimony, you talked about the 
good things that are happening in Long Beach and L.A. and 
bringing the environmental justice community together along 
with leadership in both cities.
    I also know that in the Port of Los Angeles and Long Beach 
they have required that trucks utilizing the port meet certain 
clean emissions standards, and they have progressively gotten 
stricter over time. And I think they have made some, you know, 
major improvements to that.
    Can you talk about, you know, lessons learned around that 
initiative and what the Federal Government could do to 
incentivize more of that? I have 11 seconds--10 seconds left.
    Mr. Logan. Absolutely.
    So I think one is just coupling incentives with mandates 
through, for instance, at the Ports of L.A. and Long Beach, 
within their leases, requiring the shippers to go to lower-
emission trucks and eventually to zero-emission trucks.
    I think the lesson learned is that it was done, that we 
were able to do that, that the sky did not fall, that business 
continued to move forward and there was profit to be made, and 
folks are actually being able to implement the program without 
any blips in the system.
    Ms. Brownley. Thank you, Madam Chair. I yield back.
    Ms. Castor. Thank you.
    Mr. Armstrong, you are recognized for 5 minutes.
    Mr. Armstrong. Thank you, Madam Chair.
    Commodity-based economies like North Dakota, we like 
trucks, we like pipelines, we like rails, we like everything. 
The geographic distribution of agricultural products and 
natural resources and energy production necessitate the 
transportation of products to consumer States--New York, Texas, 
California, Oregon--from States that are production States. And 
as far as I know, we look at availability, reliability, and 
cost.
    We already suffer from a bigger basis differential on our 
agricultural products in North Dakota. We have a discount for 
transportation on oil and natural gas. And I think it is 
important that when we have this conversation we talk about it 
in the scenario of--we talk about all-of-the-above energy, but 
we like all-of-the-above transportation as well.
    So as we continue to do this and move forward, we also see 
repeated opposition to pipelines and rail transport, which are 
also necessary to move our products. Rail transport accounts 
for just over 2 percent of the global greenhouse gases. 
Pipelines, right around the same, just over 2 percent. But, I 
mean, last month, we passed an amendment on the floor of the 
House that essentially banned the transportation of liquefied 
natural gas by rail across this country. I mean, we constantly 
see different States across the country fighting against 
putting pipelines in the ground, which, regardless of how you 
feel about everything else, it is a cleaner, safer way to move 
a lot of this transportation.
    So, Mr. Satterthwaite, what is the timeline for bringing 
heavy-duty electric vehicle technology to the market, 
specifically, like, Class 8 or higher?
    I mean, we are talking about buses, and I am going to get 
into infrastructure if I have enough time. But, I mean, we need 
to move heavy product, whether it is cows, grain, or oil and 
natural gas.
    Mr. Satterthwaite. I hope I am not disappointing you by 
saying I don't know when.
    Mr. Armstrong. No. I thought that would be the answer.
    Mr. Satterthwaite. Currently, we see three major challenges 
to implementing battery-electric technology in heavy-duty 
trucks.
    The first is energy density of batteries. Essentially, in 
order to have a tractor head that would have the same range and 
the same power as today's diesel engine and fuel tank, we would 
need to increase by weight a factor of three to five in order 
to accommodate enough batteries to give that same power and 
that same range. And so that is both a cost and a weight 
penalty in the trucking industry.
    So improvements in energy density of batteries are one of 
the significant things that has to happen before battery-
electric technology can play a significant role in heavy-duty 
trucks.
    Mr. Armstrong. And I think that is important, because we 
just talked about infrastructure and layout, but one of the 
things we have to talk about is road restrictions. And, I mean, 
we talk about infrastructure packages, but those are borne by 
local, State, and county--or, I mean, counties when we do this.
    We had an oil boom in western North Dakota. We had one of 
the largest infrastructure packages in our history. But one of 
the things that we required western counties to do was to bring 
their roadway to a higher threshold so we didn't have to go 
back and fix every road 2 years later. I mean, there is always 
maintenance, but--so, when we are talking about that, I mean, 
this essentially moves the needle all across the country on 
road load. I mean, am I right?
    Mr. Satterthwaite. If you force electric technology into 
heavy-duty, over-the-road trucks, then you will need to address 
all the other infrastructure--roads, weights, battery charging 
stations. And so there is an awful lot of impact on the 
infrastructure if you force the technology.
    I think, again, if you put a mandate out there that says we 
want to reduce greenhouse gas emissions moving the same freight 
the same distance, the question is, what other technologies are 
available and how can the market respond to that, including 
addressing infrastructure questions.
    Mr. Armstrong. And I don't disagree with that. And I think 
it also includes--I mean, competition breeds low--the problem 
with all of this is eventually it gets passed on to the 
consumer. I mean, farmers and ranchers have been doing this for 
200 years, longer than that in my State, and they have never 
seen inputs go down, they have never seen the cost of 
transportation go down.
    And as we continue to bring this up, we talk about all of 
those things, but if we push this too fast at the same time as 
we are excluding other modes of transportation, then the cost 
to the producer and the cost to the consumer is going to go up.
    Mr. Satterthwaite. I agree. And, in effect, instead of a 
technology-forcing mandate, I think you are trying to warn 
against mode-of-transportation-forcing mandates. And I do 
agree, there are more efficient ways to move certain types of 
goods around the U.S. than the heavy-duty trucking industry. It 
has become very efficient, but there is no doubt, there are 
more efficient ways to move certain commodities.
    Mr. Armstrong. Yeah, depending on where you are trying to 
get them, absolutely.
    Thank you. I yield back.
    Ms. Castor. Mr. Neguse, you are recognized for 5 minutes.
    Mr. Neguse. Thank you, Madam Chair.
    Today's topic is such an important aspect of the 
conversation around fighting climate change, given, as the 
chair articulated, that the transportation sector really is the 
largest source of greenhouse gas emissions in the United 
States.
    There were a few references to the State of Colorado in the 
testimony. I happen to represent Colorado's Second 
Congressional District. And at the State level, I am very proud 
that Colorado was the 11th State, the first landlocked State, 
to adopt the Zero Emission Vehicle, or ZEV, program, following 
California's lead, which will ensure that 9 percent of vehicles 
sold in Colorado by 2025 are plug-in, hybrid, and electric. 
This rule alone is estimated to prevent 2.2 million metric tons 
of carbon dioxide and save our State $1.1 billion.
    At the Federal level, I just want to note, I am very proud 
to support efforts happening in this chamber to drive down the 
transportation emissions as well. And, in particular, I want to 
applaud the leadership of my good friend and colleague from 
California, Mr. Levin, for introducing the Zero-Emission 
Vehicles Act, or the ZEV Act. And I am proud to be an original 
cosponsor on that bill.
    Just to give you a sense of why this matters a great deal 
to me and to the folks that I represent, in my home State of 
Colorado, some folks might be familiar with the struggles we 
have had with respect to air quality in the Denver metro area. 
Denver experiences what is known as a brown cloud, so a layer 
of smog over the city, caused by weather patterns and local 
sources of pollution, including transportation.
    And just this past March, just 3 months ago, Denver's air 
quality index, at one point, was at a level three times worse 
than Beijing. That is sobering and underscores the need for 
this committee and this Congress to take drastic and, I think, 
significant action and really show leadership on this front.
    And so, again, I appreciate the testimony of the witnesses 
today and appreciate your willingness to engage in this 
important conversation.
    Ms. Romero, I wanted to follow up on some of the points you 
made in both your written testimony and in your oral testimony.
    As reported by the IPCC in 2018, we only have 11 years to 
make drastic cuts in our emissions in order to avoid 
irreversible global consequences from climate change.
    You mention in your testimony the impact that tailpipe 
emissions and greenhouse gases have on children, negatively 
impacting their health and contributing to greater rates of 
asthma.
    With transportation as the number-one source of carbon 
emissions in the U.S. and the fact that 55 percent of K-
through-12 students take a bus to school every day, there is a 
distinct need to eliminate the pollution our kids are exposed 
to when they ride diesel buses to school every day. You 
mentioned some of the efforts that have happened in my home 
State of Colorado on this front.
    I am curious if you could expound on what you described in 
your testimony of ways in which we could further incentivize 
the electrification of diesel buses and other steps that you 
might recommend we take as a Congress.
    Ms. Romero. Yeah. Thank you for the question.
    You know, to mobilize the resources we need to make this 
transition, it is going to take a combination of public funding 
and private finance. Our partners at Clean Energy Works 
estimates that it would take $6 billion to cover the upfront 
cost barrier to electrify just 10 percent of the Nation's 
school bus fleet over the next 5 years. So, in short, we really 
need that combination of public funding and private financing. 
But it is possible, right?
    I heard another witness talk about, you know, making sure 
that there is a fair playing field for different types of 
fuels. We have been propping up the fossil fuel industry for 
decades.
    And, Ms. Brownley, you asked, you know, what is it going to 
take to be a global competitor? It takes investing in cutting-
edge technology. You know, when you have the iPhone 8, 9 and 
10, you don't want the iPhone 4, 5 and 6 anymore. We have the 
technologies here; we need to deploy these solutions.
    And so it is about equaling the playing field and helping 
school districts bridge the gap for that upfront cost so that 
they can benefit from the fuel and maintenance cost savings.
    Mr. Neguse. Thank you. Thank you, Ms. Romero.
    And thank you, again, to the witnesses today.
    And I would yield back the balance of my time.
    Ms. Castor. Mr. Palmer, you are recognized for 5 minutes.
    Mr. Palmer. Thank you, Madam Chairman.
    Mr. Satterthwaite, based on your experience with Cummins, 
do you think a single energy solution, like going all electric, 
will be able to meet the various needs of your customers?
    Mr. Satterthwaite. Thank you for the question, Congressman. 
No, I do not.
    Mr. Palmer. Do you think consumers have some needs that are 
better served by traditional sources and some demands that are 
better served by electric? Is there some balance there?
    Mr. Satterthwaite. I believe so, specifically today. As I 
have said a couple times, I think the future is uncertain, but 
today I think there are certain applications where battery-
electric technology is capable, available, and economic. Not 
all.
    How that changes over the future, I think, is what makes my 
life interesting and my day job very interesting. Will the 
right technology for the future be cleaner diesel? Natural gas? 
Fuel cells? Battery-electric? This is what we work on every 
day. And, frankly, there isn't an answer right now.
    Mr. Palmer. We build CNG-powered trucks at Autocar in my 
district for trash trucks. And, obviously, their power demands 
for those type trucks are smaller than some of our bigger 
freight-transfer trucks. And I do have some concerns about this 
effort to go to 100-percent renewable and how that would impact 
not only the reliability of the system but also the cost for 
electric vehicles. It is not free.
    Mr. Satterthwaite. It is not free.
    And I would say that the customers that I talk to share 
those concerns. Most of the customers I speak with have an 
interest in figuring out how to get to a lower-carbon, a lower-
polluting operation of their own, and yet they are also worried 
about is the technology ready, is it appropriate for them.
    And in the meantime, we in the industry continue to make 
improvement to the diesel engine, improvements to the natural 
gas engine, which continue to take carbon out of the air and 
reduce pollution on an annual basis through working with the 
EPA and CARB.
    Mr. Palmer. Well, it is not going to completely remove 
carbon from--even if we go to 100-percent renewables and 100-
percent electric vehicles, it is not going to completely remove 
carbon from the atmosphere.
    I want to talk about another aspect of this, and I think 
Congressman Armstrong touched on it a little bit, and that is 
the weight aspect of this. And I am concerned about going to 
pilotless vehicles and how that is going to impact our 
infrastructure.
    Because most of us--and I know nobody in this room texts 
while they drive, but even if you are not distracted, you are 
varying your position in a lane. You change lanes, but even if 
you stay in the same lane, you don't stay in the same spot. If 
we add to the weight of freight vehicles and we go to pilotless 
vehicles, they are going to be in one spot. And it is going to 
basically rut the aggregate that we are now using.
    Do you see that as an issue, a problem, particularly in 
your industry?
    Mr. Satterthwaite. Sir, I am afraid you may have gotten out 
of my area of expertise in terms of trucks and roads. I don't 
know.
    I think, to the earlier Congressman's comment, I do think 
the infrastructure of this country, the roads in particular, 
will need to be addressed, and heavier trucks definitely will 
have an impact at some point. I am not an expert and really 
able to comment on exactly how that is going to happen.
    Mr. Palmer. That is something that I have been focusing on, 
been working on. Down at Auburn University, they have a center 
where they are testing various types of aggregate. They have a 
big test track. And one of the interesting things is that--one 
of my concerns is how do we clean up the coal ash. And they are 
using coal ash now as part of the aggregate. You don't lose any 
of the heavy metals, they don't leach into the ground, but it 
hardens the asphalt, and I think that is going to be a big 
deal.
    As of today--and this will be my last question--there are 
more than 30 counties in California that are out of compliance 
with not just one but multiple Federal air quality standards in 
the Clean Air Act despite all of the regulations that 
California has in place. There are numerous other California 
counties that are in violation of one of the air quality 
standards. And many have been out of compliance for decades, 
and it is unclear when, if ever, some will come into 
compliance. For reference, Alabama does not have a single 
county out of compliance.
    So my question would be, does it make sense to apply more 
regulations to the transportation industry when that doesn't 
appear to be working in heavily regulated States like 
California?
    And this is EPA data I have here.
    Mr. Satterthwaite. I think it is a responsibility of 
industry and Cummins sees it as a responsibility of industry to 
continue to improve technology to have better outcomes for all 
American citizens.
    I do think there is scope, and the EPA is appropriate to 
continue to push the industry on what it is capable of and 
asking us to deliver better for the American people across the 
country.
    Mr. Palmer. Be smarter.
    I yield back.
    Ms. Castor. Mr. Huffman, you are recognized for 5 minutes.
    Mr. Huffman. Thank you, Madam Chair.
    This is a great conversation. I want to thank the witnesses 
and thank the chair for setting this up.
    And I am interested in the technology we are talking about. 
Those of us who think we are in a climate crisis, many of us 
believe we have to start identifying areas in which we simply 
don't need to burn fossil fuel because we have alternative 
technology that can help us move forward.
    And what I am trying to understand--and I want to start 
with you, Mr. Satterthwaite, because you are really at the 
fulcrum of these heavy vehicles that have always relied on 
internal combustion and fossil fuels--is whether we can 
reimagine that technology in a way that doesn't burn fossil 
fuel.
    And I am not talking about natural gas, because, as I take 
a look at that, I don't think we have time for fake solutions. 
And, quite honestly, yes, it has less of a carbon profile in 
the burning end of the system, but if you add in the fugitive 
methane, which we think is somewhere between 1 and 9 percent, 
at 3\1/2\-percent methane loss, it is just as bad as coal.
    So, if we are serious about this crisis, we've got to 
identify places where we don't need to use fossil fuel and move 
on to new, clean technologies.
    Can we do that with the type of heavy vehicles that you 
have been such a leader in working on, if we decide that we 
just have to go beyond fossil fuel to clean technology?
    And let me just say that I have worked with Cummins in the 
past when I was a California legislator. I know you are 
innovators. I worked with a division of yours called Cle-Air 
that did these wonderful retrofit devices for school buses that 
dramatically reduced the particulate matter. So I am impressed 
with your track record in this area. I just want to hear your 
thoughts on whether we can reimagine this technology.
    Mr. Satterthwaite. Thank you, Congressman. I will say that 
much of Cle-Air's work was funded by the DERA act. So I just 
wanted to make sure you knew that that is how that work was 
done in California.
    I would argue Cummins is reimagining the future. If you 
look across the industry, last year, the first company to show 
an electric truck was Cummins. And so we are currently trying 
to do exactly that, imagine what a future would look like in a 
very different state. And part of the challenge, of course, is 
we are trying to do this economically at both a capital cost 
and an operating cost level.
    So we are asking ourselves all those questions. We strongly 
believe the future will be multi-technology; it won't a single 
technology. And yet, in the path to get there, we will need to 
make improvements today and in the future.
    And I think what I don't want to miss is the opportunity to 
make improvements today, in light of trying to, you know, go 
for gold, if you will, with zero emissions in the future and 
ignore the opportunity to make significant emissions reductions 
today.
    Mr. Huffman. But I think I am hearing you say there is 
nothing about these heavy vehicles and heavy equipment that you 
have been powering that precludes going to fossil-free 
technology?
    Mr. Satterthwaite. At a certain point in time, at a certain 
cost, at a certain reliability. But the technology is 
developing. I would argue to say it is not fully developed, but 
it is developing. And there are many forces in the industry 
that are pushing it. And Cummins is also with those forces, 
moving it along as well.
    Mr. Huffman. Appreciate that.
    Mr. Popple, the other concern I have about this climate 
crisis is that we are way behind some other countries that seem 
to be taking it much more seriously. We have seen the numbers 
on electric buses. China is light-years ahead of us on 
deploying this technology.
    I recently took a trip to Sweden as part of the 
Transportation and Infrastructure Committee. They are 
reimagining their highway system to address some of the 
limitations of electrifying heavy trucks. And they are piloting 
some charge-as-you-drive technologies, where the actual 
transportation infrastructure of the country would help solve 
the problem of battery density and battery weight.
    What can we do in this country to reclaim the mantle of 
leadership in this crisis when we talk about heavy vehicles 
like buses and trucks?
    Mr. Popple. Thank you for that question, Congressman.
    I think we really should focus on economic productivity and 
return to that being the focus of the investments we make. I 
think there is a false tradeoff that is depicted between clean 
innovation and economic efficiency.
    On the bus side, on an apples-to-apples basis, if you power 
a bus with an electric system, you use 2,000 watt-hours per 
mile. If you use diesel, you use 10,000 watt-hours per mile. So 
those countries that have already moved past legacy 
technologies in some of their transportation systems, they have 
8,000 watt-hours per mile of free economic value to put into a 
data center or put into industry.
    The other thing I would mention is that, from a light-
weighting perspective, some of the sectors are already getting 
there, where the electric vehicle is at the same weight or 
lighter than the combustion vehicle. So a Proterra battery-
electric bus with a carbon-fiber body is lighter than a CNG 
bus.
    So, as long as we make sure, as my colleague pointed out, 
that the technologies are ready to go and have reached product 
market fit, there are huge economic productivity gains to be 
had.
    Mr. Huffman. Great. Thank you.
    I yield back.
    Ms. Castor. Mr. Carter, you are recognized for 5 minutes.
    Mr. Carter. Thank you, Madam Chair.
    And thank all of you for being here.
    Ladies and gentlemen, I have the honor and privilege of 
representing the First Congressional District of Georgia, which 
includes the whole coast of Georgia. It is over 100 miles of 
pristine coastline. And it includes two major seaports, the 
Port of Savannah, which is the second-busiest container port on 
the Eastern Seaboard, as well as the Port of Brunswick, which 
is the number-two roll-on/roll-off port in the country.
    The Port of Savannah is one of the fastest-growing ports in 
the world. In fact, for a short period of time there, they were 
the third-fastest-growing port in the world. Only two ports in 
China were growing faster.
    I mention that because obviously they are growing at a very 
high rate of speed, but they are also taking great initiatives 
in saving fuel. In fact, the Georgia Ports Authority has saved 
over 2 million gallons of fuel annually just by electrifying 
their ship-to-shore cranes. And if you take all of the 
initiatives together, they are saving nearly 7 million gallons 
of fuel annually, which is significant, particularly for these 
growing ports.
    And one of their most critical benefits is that they have 
two first-class railroads right there on the ports, in the 
container port in Savannah, which really helps tremendously.
    You know, one of the initiatives, if you will, that the 
President has spoken about and that we in Congress have been 
speaking about is the infrastructure initiative. And, 
certainly, that is very important.
    I will direct this question to you, Mr. Satterthwaite, but, 
at the same time, anyone chime in here.
    Improving our infrastructure, particularly improving our 
roads and bridges, how would that make heavy-duty vehicles more 
efficient and, in turn, cleaner?
    Mr. Satterthwaite. Thank you for the question, Congressman.
    I think the impact of infrastructure, particularly roads 
and bridges, on the heavy-duty industry, I think is in a couple 
of areas.
    One is that the sad state of our roads leads to more 
breakdowns and more customers who face interruptions to their 
business. Because, frankly, who of us hasn't driven over a 
pothole and popped a tire someplace. And if you are driving an 
18-wheeler rig, that is not only dangerous, it also stops that 
load and interrupts that wheel of commerce from moving. So 
making improvements will, initially at least, improve the 
efficiency with which goods move across the U.S.
    I think the next step is then what it enables us to do and 
how we use those investments. There are some countries around 
the world who are investing--as the Congressman said in Sweden, 
about changing how they think about the infrastructure. If you 
are upgrading it, I believe we may as well think long-term and 
ask ourselves what other types of improvements would we put in 
the infrastructure. Rather than just replacing what is there, 
how do we build for the future?
    So I think both those activities have big opportunity to 
improve the efficiency of our industry.
    Mr. Carter. Great.
    Well, let me mention, I was also on that trip to Sweden and 
witnessed the same thing that Jared witnessed, and it is very 
innovative and certainly something we need to be looking at.
    I want to also mention about my district--obviously, I am 
very proud of the district, but it also has a large rural area. 
South Georgia, rural south Georgia, is a large geographic area. 
And I believe some of my colleagues up here mentioned also 
about the effect that this might have on rural areas. And I 
want to make sure the rural areas aren't left behind. I want to 
make sure that they are included, because, you know, they 
have--make sure they have a seat at the table, because they 
have a big need for these heavy-duty vehicles.
    And how can we help them? What kind of challenges do you 
see? And, again, I will direct this to anyone who wants to jump 
in. But what kind of challenges do you see the rural 
communities having when compared to the urban cities in 
reducing emissions?
    Ms. Romero. Yeah, I mean, I will just jump in here. Thank 
you for the question.
    Based on my experience in working with some of the rural 
communities in California, you know, a lot of these communities 
don't have access, really, to local hospitals or even just to 
government services to do their regular business, you know, 
update and renew their driver's license and all of that sort of 
thing--right?--because the metropolitan areas are so far away.
    And so, in Huron, California, where my friend Rey Leon is 
the mayor, there is a 7,000-person town that takes 4 hours for 
them just to get to the nearest public hospital, because they 
have to take three buses. That is 4 hours one way; it takes 4 
hours back, with an hour to schedule your doctor appointment, 
right?
    So we do need to invest in public transportation in these 
areas and bringing buses to these areas. I am sure that there 
are some rural communities where the range will be more of a 
challenge, right?
    But, in Huron, what they are doing now is electric ride-
share programs that the community has led to help connect 
people to services with clean-vehicle technology that doesn't 
pollute these areas.
    Mr. Carter. Well, thank you very much for your answer. And 
I do hope that we will remember the rural communities. This is 
extremely important for them as well.
    Thank you, Madam Chair, and I yield back.
    Ms. Castor. Thank you.
    Mr. McEachin, you are recognized for 5 minutes.
    Mr. McEachin. Thank you, Madam Chair. And thank you for 
holding this hearing today.
    And I am grateful for all the witnesses for coming today.
    As we have discussed, the transportation sector is now the 
largest source of greenhouse gas emissions, and auto emissions 
powerfully affect air quality and public health. Air pollution 
and climate change, both direct effects of tailpipe emissions, 
affect all Americans, but they disproportionately impact low-
income communities, communities of color, and other vulnerable 
populations.
    Protecting these communities from dangerous air pollution 
and from the worst impacts of climate change is a moral 
imperative. I want to use my time to explore how we can best 
meet that responsibility.
    And, Mr. Logan, sir, if you don't mind, I will start off 
with you.
    Mr. Logan, environmental injustices in general and 
disparities in air pollution exposure in particular are a 
direct result of poor policymaking, and they cry out for a 
policy solution.
    For instance, I have the honor of sponsoring legislation to 
ensure the Federal Government considers the true impact of 
greenhouse gas emissions in a cost-benefit analysis. I believe 
that when we talk about the cost of fighting climate change, we 
also need to consider the public health costs of doing nothing.
    What might the full and fair accounting look like in 
practice? How can Congress promote it? And how can we ensure 
that we are mindful not just of how much good we do but also 
whom we help?
    Mr. Logan. Great. Thank you.
    So, first, I want to say that action needs to be taken, and 
action needs to be taken now. We know that we are in a climate 
crisis, and so actions definitely need to be taken.
    There is cost to transitioning to zero emissions, for sure. 
But there are costs of the impacts of the climate crisis, 
whether that is in agriculture or whether that is in public 
health in our communities. It is paramount that we look at 
resourcing communities that are disproportionately impacted.
    One of the reasons that we have the impacts in these 
communities is because that is where the activities are, this 
is where the operation is, in port and freight communities 
specifically.
    So, when we look at environmental justice, climate justice, 
through that lens and through the lens of equity, we need to 
make that we are investing in these communities to uplift them 
so that we can transition in a smart and just way.
    Mr. McEachin. Thank you.
    Ms. Romero, in your testimony, you mentioned that vehicle 
pollution is linked with asthma. Childhood asthma, of course, 
is the top reason for missed schooldays nationwide. It can 
significantly affect children's quality of life and, in rare 
cases, can prove fatal.
    What is the best way for Congress to protect children from 
this harmful pollution? And how do we ensure that the benefits 
are concentrated in the communities that suffer the most?
    Ms. Romero. Yeah. Look, African Americans are three to four 
times more likely to be hospitalized and die from asthma.
    And I think, you know, what it is going to take--I heard 
Mr. Carter and other members really speak about the progress 
that we have made on cleaner fuels and, you know, making steps 
forward, with a sense of pride, and I could feel that.
    I think, though, if anyone has watched a game of 
basketball, when you have made the shot and you are sitting 
there holding your hands up after you have made the shot, being 
proud, and you stand there just a little too long, the rest of 
the team has already taken the ball and scored on you, right?
    So I think that I just want us to remember that we should 
be proud for the progress that we have made but we have a whole 
heck of a lot further to go, especially on the timeline that 
the IPCC report is telling us. And so we really need to 
accelerate and invest significant resources.
    Mr. McEachin. I like that analogy. Thank you.
    Mr. Popple, I heard people say that electric vehicles are 
only for wealthy individuals. Can you explain why people who do 
not own cars should be interested in the electrification of 
transportation and how even they would benefit from this trend?
    Mr. Popple. Well, thank you for the question, Congressman.
    One of the reasons why I first got involved with Proterra 
after starting my career in electric vehicles at Tesla Motors 
was that I saw the opportunity in the fleet-vehicle sector for 
us to deploy clean, electric vehicle technology into the most 
accessible form of transportation.
    So there are vehicle categories, specifically public 
transit buses and city buses, that are predominantly utilized 
by lower-income families. But we should also not forget about 
the fact that, whether you own a vehicle or not, you are paying 
the health cost of the truck or bus or car that drives past 
you.
    So I actually think that some of the best applications for 
EV go into the most utilitarian types of vehicles.
    Mr. McEachin. Thank you for your answer.
    And, Madam Chair, I am now giving you 10 seconds back. I 
yield back.
    Ms. Castor. The chair thanks you.
    The ranking member is recognized for 5 minutes.
    Mr. Graves. Thank you, Madam Chair.
    Mr. Logan, let me ask you a question. You are in charge of 
climate for the whole country. We give you a billion dollars. 
What do you do?
    Ms. Romero. It is going to take a lot more than a billion 
dollars, right? It----
    Mr. Graves. I know, but----
    Ms. Romero. Is going to take all of that.
    Mr. Graves. Mr. Logan, what do you do?
    Mr. Logan. So I would say the same point. A billion dollars 
is a significant amount of money, but we definitely need to go 
beyond that globally and in the United States.
    But couple that, you know, really feeding that into 
incentive programs, couple it with regulatory measures, I think 
that that gets----
    Mr. Graves. Incentive programs to do what?
    Mr. Logan. To deploy zero-emission vehicles, especially in 
the heavy-duty sector.
    I think, to the point that, you know, not one particular 
technology is going to get us to where we need to be, zero-
emissions is definitely needed. We definitely need to move 
toward zero-emissions, whether that is fuel cell or other types 
of technology. But there is a cost to doing nothing, right?
    And electric vehicles is an over-100-year-old technology. 
Over 10 years ago, we put a robot on Mars. We can do this. We 
have the technology, we have the know-how, and we have the 
innovation.
    Again, with regulatory measures, backed up with incentive 
programs, we can get there.
    Ms. Romero. And if I can add, as important as the ``what'' 
is the ``where'' and the ``who.'' And so I would take that 
billion dollars and I would prioritize underserved and 
pollution-burdened communities, whether urban, rural, et 
cetera, so that we can help these clean-technology companies 
actually break through the market barriers.
    It is easy for the early adopters. It is easy for the rich 
guys on the coasts--right?--to afford the Tesla as a toy car. 
That is not what we are talking about. We are talking about a 
green economy that benefits every American all across the 
country, starting with those who need it most.
    Mr. Graves. You know, the thing that just--it is 
fascinating to me. I heard, Mr. Popple, you said that we need 
to look at economic productivity. And the way that I view that 
is, we have to do economic analysis: What is the best bang for 
the buck? What is the best return on investment for the tax 
incentives we are providing, for the R&D dollars, for all of 
the capital investments and incentives that we are providing?
    And I hear people sitting here just saying zero-emissions 
heavy trucks is what we need to do, when I am not sure that--
look, we have a finite amount of cash, we have a finite amount 
of incentives that we can do. And I want to make sure that we 
are investing our dollars and our limited resources in the 
incentives and in the products that are actually going to 
generate the best solutions.
    And I heard my friend Mr. Huffman--Mr. Huffman, you still 
here? Good. You said--and I wrote it down, so it is going to 
come back up at Resources Committee, I promise--we don't have 
time for fake solutions. You might count on it; it is coming 
back up.
    And you also talked about China, and you said China is 
beating us. Look, I think it is important for us to talk about 
the fact that, look, the United States, we have reduced 
emissions by nearly a billion tons. China has increased, during 
that same period of time, 4 billion tons. So I am not sure what 
they are beating us on. They are not.
    We had a hearing in the T&I Committee on BYD. They are 
beating us on stealing our technology. That is what they are 
beating us on. They are beating us and they are undercutting 
domestic companies, like Mr. Popple right here, that are trying 
to employ American jobs and not have state-owned enterprises 
that are coming in and distorting the economics.
    Mr. Satterthwaite, let me ask you a question. You laid out 
a chart, and it is interesting. You have clean diesel, natural 
gas, electric. You talk about how you have these extraordinary 
reductions. And to throw out one of the figures that is in your 
testimony, you talk about the Phase II greenhouse gas standards 
for commercial vehicles. When fully implemented, those 
standards will lower CO2 emissions by approximately 1.1 billion 
metric tons.
    The United States, I said that we have reduced our 
emissions by a billion tons. That is greater than the next--I 
used to say 11; now it is 12--12 countries combined--combined.
    Why is it, Mr. Satterthwaite, that you don't see all these 
companies just coming to you and just saying, hey, I want 
electric trucks? Why is that not happening?
    Mr. Satterthwaite. Thank you for the question, Congressman.
    I think that customers are concerned. Most of our customers 
are conservative in their business approach. They want to 
invest in products and particularly in products that they are 
confident are going to work for them and help their business be 
successful.
    And I think the two biggest concerns about electric heavy-
duty trucks right now are weight, which is a function of 
battery density; range, which is also a function of energy 
density and batteries; and then reliability and charging 
infrastructure.
    Imagine you are a truck company. You buy an electric truck 
to do business in L.A., and that truck needs to go to Reno, 
Nevada. And there is no charging station in Reno, or there is a 
charging station that takes 8 hours to charge that truck. So 
what does the driver do for those 8 hours?
    So these are practical concerns that our customers have 
about infrastructure, about technology readiness, and also 
about cost.
    Mr. Graves. Thank you.
    Madam Chair, I want to say that, look, when we move 
forward--I agree with what all of our objectives here are; I 
agree--we need to be careful.
    Russia and Massachusetts have to import gas--excuse me. Let 
me try that again. New York and Massachusetts have to import 
gas from Russia. California has had to increase their oil 
imports from Saudi Arabia and others. And as we talked about 
the other day, the electrical grid is going to require two to 
three times the electricity to move to EV vehicles in this new 
economy.
    We need to make sure that we are planning in a way that 
actually allows us to achieve these goals with current 
technology.
    Thank you.
    Ms. Castor. Thank you.
    Mr. Casten, you are recognized for 5 minutes.
    Mr. Casten. Thank you very much, Chair Castor, and to all 
our panelists. Really appreciate you all coming here today.
    You know, I think I won't belabor the point. A lot of 
people have mentioned how the transportation sector is now the 
largest source of greenhouse gas emissions. My view is that 
that is in no small part because it really requires a different 
set of policies from other sectors.
    The electric sector, the industrial sector are dominated by 
capital-intensive assets that run most of the time. The 
operative question on those sectors is, what is the variable 
cost of energy? The transportation sector is dominated by 
capital-intensive assets that are parked most of the time. And 
the operative question is, what is the cost of capital in that 
space? And I think sometimes we assume that we can do the same 
tools everywhere, but they are not the same tools.
    However, I would submit to you that the principles that 
have to guide good climate policy are the same everywhere.
    And I really liked your comments, Mr. Satterthwaite, when 
you called for technology-neutral and goal-dependent 
decarbonization strategies in the transportation sector. I 
would suggest that that is true everywhere. To Mr. Graves' 
point, we do have finite capital. Markets will allocate capital 
accurately and efficiently if we define the goal. We get in our 
way all the time when we start recommending paths.
    And there is also the reality that lowering carbon dioxide 
emissions is awesome, fun, and addictive once you start, 
because--and this is complicated, so I am going to say this 
real slow so everybody gets it--people don't give away fuel for 
free. So if you burn less fuel, you save money. That requires 
an investment, but you make money on investments. And in places 
that have done this, we have seen them adopt this and move 
along and go from there.
    And that is essential, to make sure that our climate 
policies focus on accelerating capital investment, and then 
recognize that, once you own an efficient vehicle, once you own 
an efficient power plant, once you own a solar panel on your 
roof, you tend to operate it all the time because it is 
cheaper, it is more efficient, and if you are fortunate enough 
to own an electric car, it is super-fun to drive, way more fun 
than the other car you have.
    So, you know, that is in part why I introduced H.R. 2025 to 
permanently extend the alternative refueling property tax 
credit for investments in EV charging and other alternative 
fuel. This is a real hard investment for the private sector to 
make, but once you get that infrastructure out there, it is a 
catalyst to move other investments forward.
    I want to thank Chairman Neal and Chairman Thompson for 
including an extension of that tax credit in the Taxpayer 
Certainty and Disaster Relief Act of 2019.
    Mr. Popple, as we consider a potential infrastructure 
package, can you help understand why it is important that the 
Federal Government make investments in EV charging 
infrastructure?
    Mr. Popple. Thank you, Congressman, for the question.
    I think certain types of EV charging infrastructure require 
Federal investment because you have a period of 
underutilization for infrastructure, and so you end up with a 
market failure. It is difficult for a private business to have 
patient enough capital, and you also have to be able to take a 
little bit of risk for some of those charging stations in terms 
of knowing where to put them.
    However, on the fleet vehicle side, what I think is quite 
interesting is that there is no risk in terms of where that 
infrastructure should go and whether or not it will be 
economically utilized. That is one of the reasons why we have 
never had a charging infrastructure problem with our markets. 
We don't have a chicken-and-egg problem because our customers 
buy the same number of chickens and the same number of eggs as 
they need to do that fleet vehicle job.
    I agree also with your point on the fact that once you get 
started with this technology you embrace it and you want to go 
further with it. We have had dozens of cities throughout the 
U.S. voluntarily, on their own, from the bottoms up, after they 
have implemented some electric buses, they have passed an 
action plan to go to 100-percent electric buses.
    So for some sectors where the category is ready, once you 
get it started, it takes a momentum on its own, and the 
customer will take it from there.
    Mr. Casten. Thanks.
    So I want to shift. Since its inception in 2007, the 
Advanced Technology Vehicle Manufacturing Program has helped 
drive a whole lot of investment through direct loans to 
automotive or component manufacturers for re-equipping, 
expanding, or establishing facilities for the domestic 
production of fuel-efficient, advanced-technology vehicles. I 
think the numbers to date are: It has supported over 4 million 
advanced-technology vehicles and upwards of $17.7 billion in 
remaining loan authority.
    However, a 2018 report from Energy Futures Initiative 
entitled ``Leveraging the DOE Loan Program'' notes that current 
statutes prevent the program funds from being used to invest in 
medium- and heavy-duty vehicles, even though they account for 
almost 25 percent of the greenhouse gas emissions in the 
transportation sector.
    Madam Chair, I would like to ask unanimous consent to enter 
this report into the record.
    Ms. Castor. Without objection.
    [The information follows:]
                              ----------                              


                       Submission for the Record

                       Representative Sean Casten

                 Select Committee on the Climate Crisis

                             July 16, 2019

    ATTACHMENT: Leveraging the DOE Loan Program. Energy Futures 
Initiative, 2018.
    The report is retained in the committee files and available at:
          https://docs.house.gov/meetings/CN/CN00/20190430/109329/HHRG-
        116-CN00-Wstate-FosterD-20190430-SD003.pdf.

    Mr. Casten. And, Mr. Popple, I was pleased to hear you call 
to amend the program to allow companies like Proterra to be 
able to apply for loans.
    We would welcome from you and/or Mr. Satterthwaite, as you 
think about low-carbon solutions in the transportation sector, 
how important is it that the Federal Government provide access 
to lower-cost financing options?
    Mr. Popple. Well, I think it can be extremely important in 
terms of starting a market, but what we have seen on the 
battery-electric bus side is, once it is proven out, private 
capital steps in.
    So we had recent example where Mitsui has announced a $200 
million program to finance batteries for our sector, but you 
often need the Federal Government to at least initiate it.
    Mr. Casten. Mr. Satterthwaite.
    Mr. Satterthwaite. I would support Mr. Popple. I think 
starting and getting some of these early starts and early wins 
in the infrastructure, charging infrastructure, and alternate 
fuel, refueling infrastructure, is an area where the Federal 
Government can play a very big part.
    Mr. Casten. Thank you.
    And I yield back.
    Mr. Huffman. Madam Chair, would you entertain a unanimous 
consent request, please? A report from the Rhodium Group and 
also a recent E&E News report.
    This is, unfortunately, in response to my friend Ranking 
Member Graves' victory lap on our recent emissions reductions. 
The victory lap is over, and these reports show that in 2018 
our emissions began rising again. They are projected to 
continue rising.
    So, sadly, we don't have a lot of laurels to rest on. And I 
think these reports, if you will enter them into the record, 
will help correct that impression.
    Ms. Castor. Without objection.
    [The information follows:]
                              ----------                              


                       Submissions for the Record

                      Representative Jared Huffman

                 Select Committee on the Climate Crisis

                             July 16, 2019

    ATTACHMENT: Harvey, Chelsea. ``CO2 Emissions Reached an All-Time 
High in 2018.'' E&E News, 6 December 2018.
    The article is retained in the committee files and available at:
          https://www.scientificamerican.com/article/co2-emissions-
        reached-an-all-time-high-in-2018/
    ATTACHMENT: Houser, Trevor; Pitt, Hannah; Hess, Hannah. Final US 
Emissions Estimates for 2018. Rhodium Group, 31 May 2019.
    The report is retained in the committee files and available at:
          https://rhg.com/research/final-us-emissions-estimates-for-
        2018/.

    Ms. Castor. And, Mr. Lujan, you are recognized for 5 
minutes.
    Mr. Lujan. Thank you, Madam Chair.
    Mr. Popple, you said that the next wave of transportation 
technology isn't just about driving down emissions but also, I 
quote, ``creating good-paying jobs and boosting the clean-
energy economy.''
    Proterra could be a model for growing the manufacturing of 
heavy-duty vehicles in the country, with an eye toward reducing 
emissions and protecting working men and women. Are you working 
with communities and unions to hire family-supporting jobs that 
reduce emissions?
    Mr. Popple. Absolutely, Congressman. I appreciate the 
question.
    We work very closely on the infrastructure side with labor 
groups like the IBEW. They tend to be one of the best sources 
of high-voltage, trained, skilled labor.
    We are a young manufacturer. We have about 500 employees. 
So we are still evolving through what our long-term structure 
will be in terms of our relationship with labor. But we are 
supportive 100 percent of whatever decision our employees make 
in terms of their right to organize.
    We have a plant in Greenville, South Carolina; we have a 
plant in L.A. County; and we also have a plant in the Bay Area. 
And we are supportive of whatever our employees choose.
    In terms of good jobs and clean-energy economy, our company 
provides salary, healthcare benefits, stock equity in the 
company for 100 percent of our employees. And we think that the 
types of jobs that we are creating for this company can be a 
model for this new industry as it grows and helps us improve 
our energy productivity.
    Mr. Lujan. I appreciate that response, Mr. Popple. My 
father was a union ironworker. He learned how to weld in the 
shipyards of San Pedro as a young man before he found his way 
back to New Mexico. My brother is IBEW. My grandfather was a 
union carpenter as well.
    The other question that I have, connected to that--and you 
alluded to this--but what are you doing also within the company 
to promote safe working conditions and to make sure that, while 
we are moving forward with what will be strong, new 
technological advances, that people are smart about the 
environments that they are creating for the teams that you are 
assembling to build the future?
    Mr. Popple. That is a great question. Thank you, sir.
    The reality is, working on electric vehicles and 
maintaining electric vehicles and operating electric vehicles 
is healthier for the worker than the fossil-fuel alternative. A 
lot of our service techs, one of the things they really like 
about this job is, at the end of the day, they are not covered 
in grease and oil. They don't feel like they are going back 
home to their families possibly with something on them that is 
a contaminant.
    In terms of work environment, Proterra as a company exceeds 
our industry averages for safety. We start every meeting, every 
session, with a focus on safety, including with our board of 
directors. And we take very seriously the need to train workers 
on this new digital and electric technology, not just on the 
vehicle side but also on the infrastructure side.
    Mr. Lujan. I appreciate that.
    And you anticipated my next question, which was: How can we 
work with you to promote the skill and labor force needed, 
specifically in the electric vehicle service and maintenance 
workers and battery technicians? So I appreciate that very 
much.
    Ms. Romero, I represent a rural district in New Mexico. 
What more can we be doing to promote electric vehicles and 
clean transportation infrastructure in districts like mine?
    Ms. Romero. Yeah. You know, electric vehicle infrastructure 
charging stations are going to be put in neighborhoods where 
they think there is going to be a lot of electric vehicle 
ownership. And whether it comes to bringing these technologies 
to rural communities or bringing them to urban communities of 
color, the problem is the same. We need to make sure that we 
are investing in accessible clean technology for all Americans.
    And sometimes that means a utility or a company isn't going 
to put it there, it doesn't make business sense for them. But 
for us, as a government that serves all Americans across the 
United States, we need to make sure that we are filling that 
gap and providing fair access.
    Mr. Lujan. So, in States like New Mexico, where, you know, 
a lot of trucks are moving through there, there is a lot of 
long-haul. So our interstate systems are probably the first 
area that could benefit from that infrastructure investment.
    As it then builds out away from those interstate systems 
into maybe vehicles that aren't going to be on such long hauls, 
what are you doing in that space?
    Ms. Romero. Yeah. So I mentioned this a little bit earlier. 
There is a small town, a farm worker town in central 
California, Huron. It is a 7,000-person town. This is a 
community that takes 4 hours on three different public buses 
just to get to the nearest children's hospital. That is one 
way. It is an 8-hour roundtrip. And, of course, the buses don't 
run at night. As you know, in rural communities, the 
infrastructure is lacking.
    And so what they are doing is they have this Green Raiteros 
program, where there is electric rideshare, community-owned--if 
you think of Zipcar, led by communities--where people can come 
in and use an electric vehicle to get to their appointments or 
use an electric vehicle to provide service for other members of 
the community. A lot of retired community members come in and 
do that; they work or they volunteer as a driver. And they are 
able to bring that technology in and help solve some of those 
gaps.
    Mr. Lujan. I appreciate that.
    Madam Chair, I appreciate the emphasis in that community, 
as well, with the challenges they have for transportation. If 
they don't have a rural healthcare clinic, I think that is 
something else that we could look at, making sure those folks 
have access to.
    But when you talk about a town of that size, you are 
talking about communities where I come from, so I get it. And I 
appreciate your work in that space, Ms. Romero.
    Thank you, Madam Chair.
    Ms. Castor. Thank you.
    Mr. Levin, you are recognized for 5 minutes.
    Mr. Levin. Thank you, Chair Castor. I am very grateful that 
you are holding this hearing. This is a personal issue for me, 
having grown up near a major port, the Port of Long Beach, for 
the first 8 years of my life before we moved down to south 
Orange County.
    And I have three big ports in southern California, in Long 
Beach, L.A., and San Diego, and I am friends with a lot of 
folks there. I have had a chance to tour the Middle Harbor 
Initiative at the Port of Long Beach and see all the zero-
emission things that are going on.
    And I commend all of you, all four of you. And that 
includes anybody trying to do zero-emission, as you are at 
Proterra. I am also encouraged by the work being done at 
Cummins with the Cummins Westport engine.
    The reality is that we need to get to zero. When I say 
zero, I don't just mean criteria pollutants. I think that is 
great. I think those advances are really critical on NOx, SOx, 
particulate matter. But the reality is we have to get to zero, 
period. That means zero CO2 as well. We have to get there as 
quickly as we can.
    I think it is important also to note a lot of the work that 
we are doing on the light-duty side, as we work to build out an 
EV charging infrastructure throughout the State of California 
in particular, which I am most familiar with. We are going to 
go from 14,000 EV chargers to 250,000 EV chargers by 2025.
    I have a bill that would increase the sales of new 
passenger cars to be 50 percent of all new passenger cars in 
California by 2035. And it ramps up--in the Nation--ramps up 
from there.
    We are already doing this stuff in California. I am always 
mindful of, where are you going to get that electricity from? 
Because I hear the naysayers say, well, if the electricity is 
dirty, then the electric vehicles are going to be dirty. Right 
now, we are getting--and this is our handy ISO app in 
California--52 percent of all of our electricity in California 
is coming from renewable sources. That is right now, today.
    I am also mindful that fuel cells could play a big role in 
this, as well, in the heavy-duty space. I worked in clean 
energy for about 15 years, representing a variety, everybody 
from electric trucks to fuel cells. And there are strengths and 
weaknesses to each of those technologies. There are 
infrastructure hurdles to each of those technologies as well.
    And I wanted to just highlight the work we are doing in 
California, again, with regard to heavy-duty. Specifically, 
Port of Long Beach just got an $8 million grant from the CEC to 
construct hydrogen refueling infrastructure. Port of L.A. got 
$41 million last year from the California Air Resources Board 
for the similar hydrogen fueling infrastructure, use of zero-
emissions forklifts and the like.
    So we have made it a priority in California. And the 
question for each of you is, what can we do at the Federal 
level? I have seen a variety of suggestions, but what one thing 
would you like to see us do at the Federal level to really 
advance zero-emissions heavy-duty infrastructure?
    Mr. Logan. If I may, Congressmember, so if I was just to 
pick one today, I think investing in the DERA programs, 
specifically within a program looking at the freight sector, 
advancing zero-emissions. Using the example of the school bus 
rebate program and alter that to look like a rebate system for 
zero-emission technology in the freight sector.
    Mr. Levin. Thank you.
    Anybody else? Because we get to write laws up here.
    Ms. Romero. Yeah, I mean, the sure thing I mentioned was 
the Clean School Bus Act for school bus electrification.
    The other thing that I think is a big topic of discussion, 
potentially in a bipartisan way, is carbon pricing. And I 
think, so far, there is no carbon pricing legislation at the 
Federal level that is looking at how we leverage the revenue to 
accelerate the transition. And I would say any revenue-neutral 
option is not an option. So thinking about how do we leverage 
those dollars to deploy into solutions that are going to get us 
to zero-emission.
    Mr. Levin. Okay.
    Mr. Popple. So I would have two quick ones, Congressman.
    One would be to open the ATVM program, which has funding to 
medium- and heavy-duty vehicles. The fact that ATVM excludes 
anything but a car shows how car-centric and -focused we have 
been, to our misfortune.
    And the second one would be, I would aggressively invest in 
modernizing the power grid. Because we don't know exactly when 
all these different sectors are going to go electric, but we do 
know the low-carbon, common-currency fuel of the future is 
electricity. And the more we invest in the grid, the more we 
can get clean energy out of Texas or Iowa or northern 
California or southern California into other sectors, from 
Oregon--so any investment in the grid I think is a future-proof 
investment.
    Mr. Levin. It is almost like we need to pass an 
infrastructure bill.
    Mr. Popple. Absolutely.
    Mr. Levin. Yes, sir.
    Ms. Satterthwaite. I will just add, funding DERA, 
continuing to fund DERA, and let customers choose which way to 
reduce emissions, and do it with short- and long-term benefits.
    Mr. Levin. I wanted to ask a related question, and perhaps 
each of you could just briefly weigh in.
    We have an opportunity with the USMCA, you know, the new 
NAFTA. And when I think about air quality and emissions in my 
region, the greater San Diego region, it seems to me heavy-duty 
transit, you know, a lot of trucks coming to and from Mexico, 
certainly contribute.
    What, if anything, should we be doing in the new NAFTA 
about heavy-duty emissions?
    Mr. Logan. I would say, without a doubt, including in any 
type of agreement a clean-truck and clean-freight mandate.
    The communities in and around those ports of entry are 
dramatically impacted. And, you know, I think this is one of 
the ways in which we can look at the cost of doing business, to 
help to be solution-oriented, addressing both the environmental 
justice and climate justice.
    Mr. Levin. Appreciate it.
    I am out of time, and I appreciate the chair.
    Maybe if one more wants to answer this, and--I am really 
out of time.
    Mr. Satterthwaite. If I could, just quickly?
    Ms. Castor. Go ahead. Quickly.
    Mr. Satterthwaite. Canada has essentially followed U.S. EPA 
regulations for heavy-duty trucks. So there was already 
harmonization between the U.S. and Canada.
    Mexico has followed European standards, not U.S. standards. 
They are not that different, but there could be an argument 
that harmonization would be better, I think, as part of MCA. If 
we could harmonize heavy-duty emissions regulations across the 
historic NAFTA/USMCA, I think that could make a difference.
    Mr. Levin. Thank you all very much.
    Ms. Castor. Thank you.
    Before we go to Mr. Griffith, I will recognize the ranking 
member for a U.C. request.
    Mr. Graves. Thank you, Madam Chair.
    Madam Chair, I can't tell you how much it pains me to 
submit anything that may refute what Mr. Huffman said. But I 
just want to ask unanimous consent to submit a report, a July 
2019 report by EIA that demonstrates in 2019 that they are 
expecting emissions to have a net reduction of 2.2 percent, 
which I believe would be lower than the majority of years 
during the Obama administration.
    Ms. Castor. Just a question. Is this in the electricity 
generation sector, or does it include the transportation 
sector?
    Mr. Graves. Yeah. That is energy-related CO2 emissions.
    Ms. Graves. So it is coal, natural gas, petroleum. So this 
is likely in the electric power sector, not the transportation 
sector? Or is it all sectors?
    Mr. Graves. This is energy-related. It is my understanding 
that it is tied back to all sectors that use those fuels.
    Mr. Huffman. You beat me to it, Madam Chair. I think, if 
allowed enough time, I could track down another unanimous 
consent to show 2019 emissions are rising.
    Mr. Graves. Bring it. Bring it.
    Ms. Castor. Thank you all very much.
    Without objection.
    [The information follows:]

                       Submission for the Record

                      Representative Garret Graves

                 Select Committee on the Climate Crisis

                             July 16, 2019
                             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                       Submission for the Record

                      Representative Jared Huffman

                 Select Committee on the Climate Crisis

                             July 16, 2019

    ATTACHMENT: Storrow, Benjamin. ``2019 Power-Sector Trends Point to 
a Continued Rise in U.S. Emissions.'' E&E News, 3 June 2019.
    The article is retained in the committee files and available at:
          https://www.scientificamerican.com/article/2019-power-sector-
        trends-point-to-a-continued-rise-in-u-s-emissions/

    Ms. Castor. And, Mr. Griffith, you are recognized for 5 
minutes.
    Mr. Griffith. Thank you, Madam Chair. Let me apologize to 
you and the other members of the committee and to our 
witnesses. I have been off in a hearing where we are working on 
fentanyl and trying to keep it from coming into the U.S.
    So I apologize, but it is not that I have been out doing 
fun things. I have been working hard for the people of the 
United States.
    Mr. Satterthwaite, Cummins is a leader in the ultra-low-
emission natural gas engines. How do these natural gas engines 
help reduce carbon emissions in the heavy-duty transportation 
world?
    Mr. Satterthwaite. Thank you for the question, Mr. 
Congressman.
    As I mentioned in my testimony, our latest low-emissions 
natural gas engine is actually achieving emissions levels which 
are 90 percent below the EPA and CARB heavy-duty diesel 
standards.
    Natural gas usage is primarily limited to return-to-base 
fleets--city buses, refuse trucks, other fleets that are on a 
regular return to home bases--because of the challenges with 
natural gas infrastructure. There is just not enough fueling 
infrastructure to allow natural gas to extend into the long-
haul, over-the-road trucks.
    What we have been able to reduce in the natural gas engines 
is significant. On a horsepower-for-horsepower basis, natural 
gas is somewhere between 30-percent lower greenhouse gas 
generation than diesel for the same amount of work done. And so 
those engines have made a significant difference in the 
communities they have been in. Most of them are in urban areas 
and with municipal fleets. And so that has made a significant 
difference, we believe, in those communities.
    Mr. Griffith. I support an all-of-the-above approach, but I 
have expressed concerns in the past about electric vehicles and 
that I think maybe government policy has tipped the scales and 
we haven't researched enough on other fuels, which is why I ask 
about natural gas, because I am very interested in that.
    So then the question becomes, on electric trucks--and I 
know a lot of companies, including Volvo, which its North 
American headquarters is in my district, is working on an 
electric truck. Don't we currently have the same problem with 
over-the-road trucking--that we would have with electric trucks 
as we would with natural gas?
    Mr. Satterthwaite. I think if you say the same problem, you 
mean the lack of infrastructure?
    Mr. Griffith. I mean the lack of infrastructure, and where 
are you going to refuel?
    Mr. Satterthwaite. Without a doubt. That is a significant 
impediment to the adoption of battery-electric technology in 
the over-the-road, long-haul, heavy-duty trucking. Definitely.
    We also believe there are weight or energy-density 
challenges and also price and cost challenges which have yet to 
be overcome.
    Mr. Griffith. All right. Tell me what those are.
    Mr. Satterthwaite. So, currently, if you want to engineer a 
truck with the same power and the same range as today's diesel 
or natural gas technology, it will weigh approximately three 
times as much as today's cab because of the weight of batteries 
needed for the power and the energy.
    Mr. Griffith. Wow.
    Mr. Satterthwaite. So that is one challenge.
    Mr. Griffith. And so that challenge then creates a 
challenge for the various States and localities that are trying 
to keep their roads repaired, because that extra weight adds to 
road wear, does it not?
    Mr. Satterthwaite. That would be a consequence of that.
    Mr. Griffith. And since most of our taxes currently are 
based on taxing the diesel to get road money, wouldn't that 
also then create a problem for the local governments and the 
State governments for having enough funds to repair the roads 
as a result of that extra weight?
    Mr. Satterthwaite. That could definitely happen as well, 
yes.
    Mr. Griffith. All right.
    Well, I do think that we need to increase our 
infrastructure both for natural gas and to make sure that we 
have refueling for electric as we move into this direction. As 
I said, I am all of the above, I am open to it, but we have to 
solve these problems on both road maintenance and on refueling.
    Because for a lot of the truckers in my area, driving up 
and down Interstate 81, just in the State of Virginia, you have 
328 miles. If you can't drive that far on a tank and there is 
no place to refuel when you get to the end of the line, you are 
not going to use that technology, no matter how efficient it 
might be and how much it might do for the environment.
    I appreciate it very much and appreciate you all being here 
today.
    And, with that, Madam Chair, I yield back.
    Ms. Castor. Thank you very much.
    So I recognize myself for 5 minutes for questions.
    I am so glad that we got to this topic, because I think 
there are exciting opportunities ahead. We have the climate 
solutions. We know how to do this. We know how to unleash 
American ingenuity. We must find cleaner and carbon-free 
solutions for how we move people and goods across America and 
across the globe.
    And families and consumers will benefit greatly. Lower 
costs--let's talk about a few of them. And by the way, this 
isn't decades away. This is now. For families and communities, 
when we talk about reducing carbon pollution, we talk about 
better health. Communities and families will be healthier, and 
that will help save money. Transportation-related businesses 
have a whole lot to gain when fuel costs come down 
dramatically.
    This is going to be a revolution that we live through over 
the coming years, if the Congress has the courage to act and 
put the incentives where they need to be put.
    Just look at what fuel economy has done on the passenger-
car side. For decades, every time the Congress has pushed 
automobile manufacturers to do better, they have met the 
challenge. But we are at risk right now of ceding that 
leadership to other countries, like China.
    Plus, we can create good, family-sustaining jobs as we 
build this clean-energy economy--yes, in rural areas. And we 
need to talk about the areas across the country that need those 
investments.
    Ms. Romero, talk to us about what the costs would be if we 
just stuck with the status quo.
    Ms. Romero. Yeah, I mean, we are talking about the 
decimation of communities across the country.
    And, honestly, even looking at having less than 11 years or 
less than 10 years until the next level of global catastrophe 
isn't enough. We are looking at low-income communities and 
communities of color today surrounded by busy freeways and 
highways, surrounded by pollution, where asthma and other 
pollution-related illness is impacting their ability to do 
anything.
    And so the consequences are grave, they are human, and----
    Ms. Castor. And you say: Gosh, start with school buses.
    Ms. Romero. And start with school buses. Why not? I mean, 
we need a lot more than that, obviously, in a comprehensive 
approach, a massive mobilization of resources, but why not----
    Ms. Castor. But that is an area where we could get co-
benefits there by reducing the costs for school districts. 
Maybe they can plow some of those fuel costs back into the 
classroom. And, plus, kids will be having a healthier ride to 
school.
    Ms. Romero. And we will raise the whole next generation to 
understand the new technology and be the leaders for the next 
future decades.
    Ms. Castor. Mr. Logan, what do you see are the costs of the 
status quo?
    Mr. Logan. In the same way, with children across the 
country. There are communities in and around ports that are 
bearing the brunt of the health consequences in the multiple 
billions of dollars in healthcare costs.
    And so there is both the health cost, but there is also the 
lost days of work, and there is also the low productivity of 
many different sectors. I mentioned earlier agriculture but 
also within the manufacturing as well.
    And, you know, if we don't, you know, resolve this issue, 
we are not going to have goods to move. We won't be having this 
conversation because we won't need to move things. We won't 
have things to move.
    Ms. Castor. Mr. Popple, I think Proterra really tells an 
important story.
    You are currently building these electric buses in South 
Carolina and in California. What other parts of the country do 
you think can support these manufacturing jobs as we move 
forward?
    And I just know, we are going to invest a whole lot more. 
It just makes too much sense for local communities back home.
    So what do you see? What does the future hold? Can we go 
into rural areas and areas that need a little bit of economic 
development for these clean-energy jobs?
    Mr. Popple. Absolutely. Especially, Congresswoman, if we 
focus on early-adopter categories like transit and school bus. 
Transit, in particular, has a Buy America requirement, which 
means 70 percent or more of the supply chain has to come from 
domestic sources.
    So, if you look at our product, it is not a product that 
just benefits California and South Carolina. Charging stations, 
for us, are built in Michigan. Electric motors are built in 
Colorado. Our composite bodies are built in Iowa and Rhode 
Island.
    So there is a national supply chain that can be set up on 
the vehicle side and on installing the infrastructure. And all 
of that infrastructure, that is local, so that is a local job 
to that community.
    Ms. Castor. And you said we are at risk right now to ceding 
leadership in the world to China and other countries. Is that 
right?
    Mr. Popple. Absolutely, Congresswoman. And I think what is 
at risk is, if we become less productive at moving goods and 
people than other global countries or other global economies, 
they will have a profound economic advantage, just like if we 
were stuck with propeller planes and the rest of the world 
moved to jets.
    Ms. Castor. Well, I want to thank you all very much.
    I want to thank the minority and Mr. Graves and my 
colleagues for a terrific discussion.
    We are going to continue the focus on the transportation 
sector moving forward. To use Ms. Romero's analogy, we should 
celebrate the U.S.'s ability to reduce carbon and air 
pollution, but the game is still on. We need to keep our hustle 
to achieve the type of reduction science shows we need to 
achieve to avoid it being ``game over'' for our children and 
future generations. That is what this committee's work is all 
about.
    As we heard in our second hearing from Dr. Liverman, every 
ton of CO2 we keep from going up in the atmosphere is 
important, because every increase in temperature counts to the 
health of people and the planet.
    So thank you again for being here today. Thank you again, 
colleagues.
    The committee is adjourned.
    [Whereupon, at 11:58 a.m., the committee was adjourned.]
                              ----------                              


United States House of Representatives, Select Committee on the Climate 
                                 Crisis

  Hearing on July 16, 2019, ``Solving the Climate Crisis: Cleaning Up 
             Heavy Duty Vehicles, Protecting Communities''

                        Questions for the Record

        Angelo Logan, Campaign Director, Moving Forward Network

                       the honorable kathy castor
    1. Deploying zero-emission heavy-duty vehicles will require capital 
investment. These costs are easy to identify, while the costs of the 
status quo are less well-understood. How would you describe the costs 
of the status quo in terms of the public health impacts of pollution 
from legacy vehicles and the impacts of climate change to frontline 
communities?
    Although the economic impacts associated with heavy duty freight 
transportation on public health is less available at the National 
level, the State of California has conducted several studies on this 
very topic. I draw from California's studies as examples of the cost of 
the status quo in terms of the public health impacts of pollution from 
legacy heavy-duty freight vehicles and the impacts to public health and 
climate change to frontline communities.
    In 2005 California Air Resources Board (CARB) estimated that 
freight transportation is responsible for 360,000 missed workdays and 
1,100,000 missed days of school with 2,830 hospital admissions and 
2,400 premature deaths. Between 2005-2020 it is estimated that heavy-
duty freight transportation cost California residents $200 billion in 
health costs.
    The freight system relies predominately on diesel-powered 
equipment, which produces diesel exhaust made up of toxins and climate 
pollutants. Diesel exhaust creates CO2, a major greenhouse gas. Freight 
transport worldwide contributes approximately 3 billion tons of CO2. 
Black carbon is also a result of diesel exhaust. Black carbon is a fine 
particulate matter and short-lived climate pollutant that has very high 
global warming potential--some estimate over 600 times higher than CO2. 
The freight transportation sector accounts for roughly 9% of U.S. 
greenhouse gas emissions and in the next couple of decades, it is 
expected that ocean going vessels alone will account for about 17% of 
all man-made carbon dioxide emissions worldwide.
    The people hit first and worst from the climate crisis and freight 
transport are the over 13 million people that live near major marine 
ports, rail yards, and freight facilities. These communities are 
disproportionately low-income communities of color and have increased 
health risks from climate change impacts and the toxic diesel pollution 
that is concentrated at high levels around freight hubs. The sources of 
this diesel pollution are heavy-duty trucks, trains, ships, and cargo 
handling equipment. Diesel exhaust is estimated to contain over 450 
chemicals; many are known toxins linked to early death, respiratory 
problems, heart attacks, and reduced birth weight and premature birth. 
Children have higher rates of exposure to air pollution and are at 
higher risk of health impacts.
    Affected by freight transportation, African Americans are a high-
risk population that is 3 times their proportion of the U.S. population 
and Latinos made up two times their proportion. All this to say, 
freight transport poses a huge climate crisis for the planet and for 
the local environmental justice communities that have been dealing with 
the impacts of the air pollution that is causing the climate crisis.
    2. We understand that the Moving Forward Network has dozens of 
members around the country. Could you please highlight some of their 
priorities for cleaning up goods movement?
    The Moving Forward Network (MFN) is a national coalition of over 50 
member organizations including community-based environmental justice 
organizations, national environmental organizations, and academic 
institutions, in over 20 major U.S. cities, representing over 2 million 
members, committed to reducing the public health harms created by our 
country's freight transportation system. Importantly, MFN members 
include individuals who work and live in freight-impacted communities.
    The MFN priorities are as follows:
          <bullet> Protect the Clean Air Act and the National 
        Environmental Policy Act throughout all legislative actions. 
        Congress must oppose all provisions to any Infrastructure Bill 
        or Surface Transportation Reauthorization Bill that would 
        endanger public health by weakening the Clean Air Act and/or 
        the National Environmental Policy Act.
          <bullet> Congress must develop and adopt policy principles 
        for climate legislation that advance climate justice, 
        environmental justice, communities' self-determination and 
        local solutions. Frontline communities have the real expertise 
        and true solutions that will solve the climate crisis. 
        Therefore, the process for developing any solution or strategy 
        is paramount.
          <bullet> Congress must provide EPA with the tools and 
        resources needed to meet its mission and play a role in solving 
        the climate crisis. Congress must appropriate a substantial 
        increase of funds to the EPA, both DERA and the Environmental 
        Justice grants program. The Environmental Justice Grants 
        programs support communities working on solutions to 
        environmental and public health issues. The Diesel Emissions 
        Reduction Act (DERA) authorizes grants to eligible entities for 
        projects that reduce emissions from existing diesel engines. 
        EPA must develop a more targeted strategy for awarding these 
        funds. Funds for demonstration projects should target zero-
        emission technologies.
          <bullet> Congress should hold EPA accountable to meeting its 
        mission and legal requirements under the Clean Air Act. EPA 
        must adopt regulations to reduce and eliminate emissions from 
        the freight sector. EPA must identify reducing freight-related 
        air pollution as a top priority for the Agency. Tackling such 
        pollution will further the Agency's air quality, climate and 
        environmental justice goals. EPA must adopt new national 
        standards for freight-related sources and provide more guidance 
        to states with freight-related activities in areas that violate 
        national air quality standards and/or produce localized health 
        risks with the goal of deploying zero-emission technologies.
    3. California's Gross State Product is more than $3 trillion. If it 
were a sovereign nation, it would have the 5th largest economy in the 
world. For those that suggest that decarbonization requires sacrificing 
economic growth, how would you respond?
    In response to suggestions that decarbonization of the freight 
sector requires sacrificing economic growth, I only respond with the 
mayor of Los Angeles' quote related to the joint ports of LA and Long 
Beach, the country's largest port complex; ``The Ports of Los Angeles 
and Long Beach are driving forces of our region's economy--they should 
also be models for how we move toward a more sustainable future by 
balancing growth and environmental stewardship,'' said Los Angeles 
Mayor Eric Garcetti. ``The draft Clean Air Action Plan is an important 
step in our work to reduce air pollution in our communities, and take 
action on climate change.'' ``We have already proven that it's possible 
to increase jobs and trade with cleaner air and healthier communities 
and I want to thank all of our partners who helped make this 
possible.'' The Mayor of Los Angeles is referring to jobs, trade and 
growth as economic growth and prosperity. To answer the question, the 
nations largest complex is decarbonizing by way of the ``Clean Air 
Action Plan'' without sacrificing economic growth.
                      the honorable garret graves
    1. In your testimony you talk about the Clean Air Act and holding 
EPA accountable to meets its legal obligations under the Clean Air Act. 
Do you agree that the federal government should hold those with 
compliance obligations under the Clean Air Act accountable as well? 
Should there be severe penalties for states that has areas habitually 
out of compliance?
    As of today, there are more than 30 counties in California that are 
out of compliance with not just one, but MULTIPLE federal air quality 
standards in the Clean Air Act. Reducing criteria pollutants (National 
Ambient Air Quality Standards) would almost certainly translate into 
greenhouse gas reductions as a co-benefit. Do any of you know what the 
reduction in greenhouse gas emissions would be if all of California 
simply complied with the Clean Air Act? Do you know how many fewer 
California deaths there would be if California were in full compliance?
    The Clean Air Act is a United States federal law that should be 
upheld by the federal government in the same regard as any other 
federal law that is intended to protect the public's health and safety. 
Under the Clean Air Act the EPA is charged with compliance and 
enforcement of the law. As part of my testimony, I recommended to the 
committee that Congress do everything in your power to hold EPA 
accountable to this charge--requiring, to the full extent of its 
authority, that EPA take action to address pollution. Also, Congress 
should hold regular hearings on the progress of EPA in meeting its 
legal requirements under the Clean Air Act, which includes requiring 
states to comply with federal air quality standards.
    I agree that reducing criteria pollutants and meeting the National 
Ambient Air Quality Standards would translate into greenhouse gas 
reductions as a co-benefit. The fact that 30 counties in California are 
out of compliance with multiple federal air quality standards means 
significant greenhouse gas emissions and associated negative health 
impacts such as premature deaths, and demonstrates the need to hold EPA 
accountable to meeting its mission and legal requirements under the 
Clean Air Act. Specifically, EPA should be adopting mobile source and 
other regulations that reduce and eliminate criteria and climate 
pollutants. In addition EPA should grant California the ability to 
adopt standards beyond EPA's, not limit California's ability to adopt 
standards that would allow them to meet the National Ambient Air 
Quality Standards. In other words, EPA should require California to 
achieve compliance with air quality standards, not hinder the State.
                               references
Castor Q1
    <bullet> Business, Transportation, and Housing Agency, and 
California Environmental Protection Agency (Cal EPA).
    <bullet> Goods Movement Action Plan Phase 1: Foundations. September 
2005.
    <bullet> Business, Transportation, and Housing Agency, and 
California Environmental Protection Agency (Cal EPA). Goods Movement 
Action Plan Phase 1: Foundations. September 2005.
    <bullet> http://www.arb.ca.gov/gmp/gmp.htm.
    <bullet> Haveman JD, EM Jennings, and H Shatz. California and the 
Global Economy: Recent Facts and Figures
    <bullet> National Port Strategy Assessment: Reducing Air Pollution 
and Greenhouse Gases at U.S. Ports, Environmental Protection Agency 
Office of Transportation Air Quality, September 2016, https://
www.epa.gov/sites/production/les/2016-09/documents/420r16011.pdf.
    <bullet> Fast Facts, U.S. Transportation Sector Greenhouse Gas 
Emissions 1990-2014, Environmental Protection Agency Office of 
Transportation and Air Quality, June 2016, http://nepis.epa.gov/Exe/
ZyPDF.cgi?Dockey=P100ONBL.pdf.
    <bullet> Lydia DePillis, ``Ports are the new power plants-at least 
in terms of pollution,'' Wonkblog (blog), The Washington Post, November 
24, 2015, https://www.washingtonpost.com/news/wonk/wp/2015/11/24/ports-
are-the-new-power-plants-at-least-in-terms-of-pollution.
Castor Q3
    <bullet> http://www.cleanairactionplan.org/2016/11/18/port-of-los-
angeles-and-long-beach-unveil-bold-strategies-to-reduce-greenhouse-
gases-and-clean-the-air/
Graves Q1
    <bullet> 42 U.S.C. section 7401(a)(4)
    <bullet> 42 U.S.C. section 7410(k)(5)

                        Questions for the Record

           Michelle Romero, National Director, Green for All

                       the honorable kathy castor
    1. In your testimony, you referenced examples of inclusive 
financing programs that helped low-income customers have access to 
energy efficiency upgrades to buildings. Could you please provide 
additional detail about these programs and explain how a similar model 
could be applied to public school transportation? What policies should 
Congress adopt to promote broader use of inclusive financing?
    There are a number of inclusive financing programs that have been 
deployed to help address the upfront cost barriers for building energy 
efficiency upgrades.
    In 2009, Green For All was proud to be a part of a program with the 
city of Portland, Oregon. Like many communities across the country, 
residents in Portland were experiencing the effects of the Great 
Recession, and needed a way to preserve jobs, create jobs, and spur 
economic growth. The city found a way by launching an inclusive 
financing pilot project to provide deep home energy efficiency 
retrofits for residents. The project was developed with Clean Energy 
Works Oregon, a nonprofit now known as Enhabit.\1\
---------------------------------------------------------------------------
    \1\ https://enhabit.org/programs/clean-energy-works/
---------------------------------------------------------------------------
    Leveraging public dollars to attract outside investment, Portland 
established a self-sustaining revolving loan fund to offer low-interest 
financing for residents to overcome the upfront cost barriers for deep 
home energy efficiency retrofits. The program provided residents with 
an Energy Advocate to asses their homes needs, along with the low-
interest financing that would allow residents to pay back the loan from 
their bill savings through a charge on their utility bill, known as on-
bill financing. In addition, Green For All worked with Portland to 
facilitate a community worker agreement for the program to achieve 
triple-bottom line results by requiring the jobs to be prevailing-wage 
jobs, setting goals for local and targeted hiring, and contracting with 
women and minority-owned businesses. The initial pilot was so 
successful, Portland was able to attract $20 million from the federal 
government to expand the program.
    Learn more about Portland's financing program design in our report: 
https://www.greenforall.org/clean_Kenergy_works_portland_report (2009).
    Find a summary of Portland's high-road jobs outcomes from the 
project here: https://www.greenforall.org/
high_road_outcomes_in_portland_s_energy_efficiency_ upgrade_pilot 
(2011)
    Green For All collaborated with the National Housing Trust to 
create a guide to On-Bill Programs that Advance Multi-family Energy 
Efficiency, which is available here: https://www.greenforall.org/
on_bill_programs_that_advance_multifamily_ energy_efficiency (2013)
      This report highlights four case studies on multi-family energy 
efficiency programs: PSE&G New Jersey Multifamily Program, MPower 
Oregon, Windsor Efficiency PAYS, and MidWest Energy 
HowSmart<SUP>'</SUP> Kansas.
    Green For All offers a Best Practices Guide for High Road 
Agreements here: https://www.greenforall.org/
high_road_agreements_a_best_practice_brief_by_green_ for_all (2012).
    Pay As You Save (PAYS) is another program model to help address 
barriers that can prevent low-income populations from accessing clean 
energy solutions. The PAYS model utilizes a tariff-based method; 
customers select their improvements through their utilities, and pay 
for their improvements over time. Until the investment is recovered, 
the tariff for the PAYS charge applies automatically to any future 
customers at that site. The PAYS model supports widespread adoption 
even in market segments that are hard to reach, such as renters, low 
and moderate-income households, multifamily buildings and municipal 
customers. For instance, this model eliminates debt-based 
disqualification. The debt-free PAYS model has yielded average energy 
savings of 25% and has been adopted by utilities in Kansas, Kentucky, 
North Carolina, New Hampshire, Hawaii, California and Arkansas. Learn 
more about the PAYS program by Roanoke Electric in North Carolina 
here.\2\ (page 14-16).
---------------------------------------------------------------------------
    \2\ https://d3n8a8pro7vhmx.cloudfront.net/greenforall/pages/7020/
attachments/original/1464933284/TOOLKIT_1_-
_Fair_and_Just_Investments.pdf
---------------------------------------------------------------------------
    If applied to public school transportation, similar models of local 
lending and tariff-based payments could enable districts to invest in 
making the switch from diesel to electric buses. Like energy efficiency 
upgrades for buildings or solar panel installation, electric buses have 
a higher upfront cost, which can be a barrier for many schools. But 
because electric buses are so much cheaper to fuel and maintain, an 
inclusive financing approach to remove the upfront cost barrier and 
allow the school to pay back a loan out of their savings would make it 
much more feasible for more schools to adopt electric buses. Other 
federal policies that would assist in broadening the scope of electric 
buses include matching programs, and interest-free government-funded 
loans that prioritize low-income and minority-serving schools and 
districts.
    2. California's Gross State Product is over $3 trillion. If it were 
a sovereign nation, it would have the 5th largest economy in the world. 
For those that suggest that decarbonization requires sacrificing 
economic growth, how would you respond?
    Civil rights leader Van Jones said in a 2018 statement, 
``Everything that's good for the planet is a job. It's a contract. It's 
a business opportunity. Solar panels don't put themselves up. Wind 
turbines don't manufacture themselves. Organic gardens don't make 
themselves. Every single thing that we need to make the Earth whole is 
also work that can make our society whole.''
    Protecting our environment and building our economy are not at 
odds. Decarbonization involves engaging people across sectors of 
society, from architects to farmers to truck-drivers. Within these 
fields, decarbonization allows opportunities for educational, 
professional, and economic progress, and these jobs can provide steady 
income, job security, and significant benefits for workers. For 
example, the transition to clean and renewable energy has created so 
many jobs that solar panel installers and wind turbine technicians are 
now at the top of the United States' list of fastest-growing jobs, and 
continue to grow in popularity, need, and compensation.\3\
---------------------------------------------------------------------------
    \3\tps://cleantechnica.com/2019/01/26/solar-pv-installer-wind-
turbine-tech-are-fastest-growing-occupations-in-us/
---------------------------------------------------------------------------
    Republican and former Governor of California Arnold Schwarzenegger 
said on The Van Jones Show last year, ``The fact of the matter is in 
California we have a 4.3% economic growth and the nationwide growth is 
only 1.3%[...] How is that possible when we have the strictest 
environmental laws in the United States? So we have already proven you 
can do both--you can protect the environment and protect the economy at 
the same time. It's that simple.'' Watch the segment here: https://
www.youtube.com/watch?v=D3xpPyai8zo It is worth noting California has 
dedicated a significant portion of its climate investment dollars to 
programs and projects that benefit the state's most disadvantaged 
communities. A minimum of 35% of the state's cap and trade dollars, for 
instance, are required to be spent in disadvantaged communities or to 
benefit disadvantaged communities. In practice, the state regularly 
invests more than half of its climate dollars to benefit disadvantaged 
communities. This matters not only from a moral perspective, but from 
an economic perspective too.
    When new technologies and businesses come to market, their products 
and services are generally more limited in quantity during the early 
stages. This can keep prices high, making them affordable only to 
``early adopters'' or people with the means and readiness to adopt 
them.
    As green businesses pick up market share and have more capital to 
invest in improving technology, purchasing materials in larger 
quantities, and so forth, prices can drop and put them within reach of 
lower and moderate income consumers. The green economy is not immune to 
these realities. Electric vehicles and solar panels were more expensive 
at first, and are gradually becoming more affordable. Government 
incentives and subsidies in the right places can help spur the kind of 
growth needed to put the green economy within reach of more Americans. 
Targeted investments in bringing clean technology to harder to reach 
markets, and making them affordable for lower-income consumers has not 
only been a way to ensure the green economy does not leave anyone 
behind in California, it has been a way to bolster green business 
growth and clean technology advancement, which I would argue, has 
helped California's economy continue to prosper.
    It is also important to recognize that California is not the only 
state proving you can have strong environmental policies and a strong 
economy. In Lancaster, Pennsylvania--a city that developed its first 
clean energy goals in 2011--the city's clean energy infrastructure 
provided a cost-effective approach to stormwater management that saved 
the city about $2.8 million in energy, air-quality, and climate-related 
benefits.\4\ There are multiple benefits to protecting our environment 
and transitioning to a clean economy.
---------------------------------------------------------------------------
    \4\ https://www.epa.gov/sites/production/files/2015-10/documents/
cnt-lancaster-report-508_1.pdf
---------------------------------------------------------------------------
    In California and across the country at large, smart 
decarbonization policy can and should move us towards a more 
sustainable and prosperous future for all Americans.
    3. California is a national leader in the deployment of electric 
vehicles as well as electric buses. How do low-income communities and 
communities of color benefit from these policies?
    Where should Congress focus its resources to provide the greatest 
benefit to these communities?
    Low-income communities and communities of color are hit first and 
worst by pollution. In the transportation context, decades of 
discriminatory land use and urban planning decisions have created a 
situation where communities of color are more likely to live near busy 
roads, freeways and highways, ports, and other major sources of 
tailpipe emissions. And the cumulative impacts of these conditions put 
them at greater risk of asthma, cancer, and pollution-related disease. 
These communities have much to gain from investments in low-carbon 
transportation and mobility options, and the transition to zero-
emission vehicles; It directly impacts their health and lives.
    California has made big commitments like putting 5 million electric 
vehicles on the road by 2030 \5\ and transitioning to 100% zero-
emission bus fleets by 2040,\6\ which have made the state a national 
leader in the deployment of electric vehicles. One might think that 
because communities of color are disproportionately affected by 
tailpipe pollution it would mean they are natural beneficiaries of 
these policies but the issue requires much more attention and intention 
than that.
---------------------------------------------------------------------------
    \5\ https://cleantechnica.com/2018/01/30/california-wants-5-
million-zero-emissions-cars-roads-2030/
    \6\ https://ww2.arb.ca.gov/news/california-transitioning-all-
electric-public-bus-fleet-2040
---------------------------------------------------------------------------
    The fact is, higher income consumers can more readily afford and 
access EVs on their own. To expand access to EVs, California offers 
rebate programs to low-moderate income consumers on a sliding scale. 
Individuals making less than or equal to 300% of the federal poverty 
level are offered higher rebates. In total, a qualifying low-income 
individual in California could receive up to $13,500 to scrap an old 
emitting vehicle and replace it with the purchase of a new EV.
    California also recognizes that vehicle ownership is not the right 
solution for everyone. In some cases, consumers can opt to receive a 
bus or transit voucher to scrap their old emitting vehicle if they 
would rather not replace it. To see a sampling of California's various 
incentive programs for both rural and urban areas, visit the Resource 
Finder at http://upliftca.org/resource-finder/.
    In terms of federal policy, the federal government should conduct 
an analysis of existing clean vehicle tax, rebate, voucher, and 
incentive programs, and evaluate their impacts. How is each one 
structured? Who do they benefit? How can they be strengthened to direct 
investments to the people who actually need help accessing EVs? For 
wealthier individuals, EV ownership is a matter of marketing. They have 
the means to make the choice to buy the EV. That is not true for many 
Americans, and the federal government should be focusing its resources 
on creating the conditions that would enable them to make those 
choices, too. Moreover, policies and incentive programs should be 
structured in such a way as to meet the needs of lower and moderate-
income consumers. For instance, a tax credit that gives a taxpayer a 
$2,500 credit or rebate only after they file their taxes, does nothing 
to help people who cannot afford the sticker price of an EV. We also 
know that lower-income Americans do not typically purchase new 
vehicles, and while there has not been much of a used EV market to-
date, that is changing, and incentives should support the purchase of 
both new and used EVs.
    Another issue to consider is how to prioritize zero-emission 
technology investments compared to other types of ``cleaner'' but still 
dirty fuels. While we recognize EV technology may not be ready for mass 
deployment in all transportation scenarios, wherever zero-emission 
options are available, they should be given priority over alternative 
fuel vehicles. For instance, electric school buses and transit buses 
are viable and available today. Therefore, the federal government 
should no longer be investing in diesel, natural gas, or other forms of 
``cleaner'' but still dirty buses. The purpose of the public's limited 
dollars should be to spur new economic growth and provide investments 
in cutting-edge technology that will keep the United States competitive 
while solving our greatest societal challenges. In the bus scenario in 
particular, the cost of buses is so great that agencies expect to get 
the full life-cycle use out of them. That means, these buses will be in 
existence for many years to come, and as they come to the end of their 
life and are retired, they should be replaced with the absolute best 
available technology on the market today, which is a zero-emission bus.
    Finally, we have seen public transportation infrastructure 
deprioritized all across the country, in favor of freeway widening 
projects that only keep more cars on the road. As a result, there are 
low-income communities locked out of economic opportunities, education, 
and healthcare because they lack reliable bus service and 
transportation options where they live. In some neighborhoods, 
including in Oakland, CA, there is not adequate bus service to meet the 
demand. This results in a situation where it is commonplace that a bus 
becomes full by the time it reaches your stop, and needs to skip your 
stop. You are then left at the bus stop stranded and unable to get to 
work on time. You may even lose your job if it occurs too regularly, 
and these are circumstances beyond your control. There are rural 
communities where it can take 8 hours round trip on multiple buses just 
to get a child to the nearest hospital. These are not conditions that 
can be remedied by continuing to favor individual vehicle ownership and 
the idea that American households should have 2 and 3 cars each in our 
policymaking. We need to look at transportation systems comprehensively 
and design systems where people--not only goods--can get to where they 
need to go with ease, efficiency, and affordability.
                      the honorable garret graves
    1. You noted in your testimony the support for the Clean School Bus 
Act of 2019. Do you believe this legislation better addresses this 
issue when compared to the EPA's Clean School Bus program?
    The Clean School Bus Act of 2019 and the EPA's existing Clean 
School Bus Rebate Program should not be viewed as ``either-or.'' By 
Clean Energy Works' estimate, it would take at least $6 billion to 
transition just 10 percent of the nation's school bus fleet. There is 
no way for cash-strapped schools to be able to make this transition 
without funding and financing to overcome the upfront cost barriers of 
buying electric. More funding--not less--is needed. And our children 
deserve it. Children are an especially vulnerable population when it 
comes to exposure to toxic tailpipe emissions. The Clean School Bus Act 
of 2009 is meant to augment and complement other programs and available 
funds to help schools in making the transition to zero-emission 
electric buses that give kids a cleaner, safer ride to school.
    The Clean School Bus Act of 2019 would provide grants of up to $2 
million to local governments to invest exclusively in electric buses 
and charging infrastructure, and to train their workers to operate and 
maintain the electric buses. Importantly, it gives funding priority to 
schools that serve low-income populations, and would authorize a total 
of $1 billion dollars over 5 years for a Clean School-bus Grant Program 
run by the U.S. Department of Energy.\7\
---------------------------------------------------------------------------
    \7\ https://scipol.org/track/clean-school-bus-act
---------------------------------------------------------------------------
    The EPA's program commits $9.3 million in rebates to replace older 
diesel-powered school buses with newer, cleaner buses--not necessarily 
electric or zero-emission buses. It also funds retrofits for existing 
buses in accordance with the Diesel Emission Reduction Act (DERA) of 
2010. The program's focus is on reducing children's exposure to toxic 
emissions from school buses, and was designed with 2010 conditions in 
mind. There has been significant technological advancement since the 
DERA of 2010. Today, technology has moved beyond lower-emission buses 
to now having fully zero-emission buses on the market that can travel 
more than 150 miles on a single charge. Given this, the federal 
government should consider amending EPA's existing program to refocus 
bus replacement dollars on replacing older buses with electric. Why 
expose kids to dangerous levels of emissions if we don't have to?
    School buses are expensive, and schools expect to get the full 
life-cycle value out of the bus, which can be 10-12 years. That means, 
buying ``cleaner'' diesel buses today locks children into having to 
breathe toxic emissions for a full decade. Today, better technology 
exists. Zero-emission electric buses are ready for deployment and are 
serving schools in many different parts of the country now. Federal 
dollars and grant programs to replace older, retiring buses should go 
toward zero-emission electric bus technology.
    The EPA's current program goes beyond bus replacement, and provides 
funding for retrofits, as well. Until all dirty buses reach their 
retirement age and can be replaced with clean zero-emission buses, a 
process that could take a decade or more to complete, the EPA should 
continue to fund school bus retrofits that will reduce children's 
exposure to emissions.
    Children's health must be a top-priority. Both the Clean School Bus 
Act of 2019 and the EPA's Clean School Bus Rebate Program are critical 
programs for reducing harmful exposure to tailpipe emissions and 
curbing climate risk.
    2. In your testimony, you say there are an estimated 150 million 
Americans living in neighborhoods that don't meet federal air quality 
standards. Do you know how many of them are in California?
    According to the American Lung Association's State of the Air 
report, California is home to seven of the top 10 ``Smoggiest Cities'' 
in the United States.\8\ It is estimated that 90% of Californians live 
in counties with unhealthy air.\9\ With an estimated population of 
39.56 million (2018), that would mean California is home to about 35.6 
million Americans living in low-quality air conditions or approximately 
23.5% of all Americans who are experiencing similar conditions.
---------------------------------------------------------------------------
    \8\ https://www.usatoday.com/story/news/nation/2019/04/24/air-
pollution-smog-soot-worst-california/3551734002/
    \9\ https://www2.calstate.edu/csu-system/news/Pages/California-
Named-State-with-the-Worst-Air-Quality-Again.aspx
---------------------------------------------------------------------------
    California has a population of over 39 million, a warm climate that 
helps form pollutants, and a topography that traps pollution, which 
creates unique challenges for the state in tackling air pollution. 
These challenges have been recognized by the federal government and are 
a key reason why California is given a special waiver to set higher 
vehicle emissions standards that the federal standards. Other factors 
contribute to the problem, such as rising housing prices which push 
people to live further and further away from where they work, and 
result in an increase in the overall vehicle miles travelled. While the 
state has enacted numerous policies to reduce emissions, it still has 
more work to do.
    Approximately 76.5% of Americans living in poor air quality areas 
live outside of California. Cities that made the top 10 ``Sootiest 
Cities''' list include: Fair Banks, AK; Pittsburgh, PA; four cities in 
Ohio; and Weirton, West Virginia.\10\
---------------------------------------------------------------------------
    \10\ https://www.usatoday.com/story/news/nation/2019/04/24/air-
pollution-smog-soot-worst-california/3551734002/
---------------------------------------------------------------------------
    3. Your program exists to lift people out of poverty, according to 
your testimony. How will changes in the heavy-duty transportation 
industry affect the low-income neighborhoods from an economic 
standpoint?
    First, we aim to reduce transportation costs for low-income 
households and expand mobility access. Lower-income earners spend a 
higher percentage of their incomes on basic necessities like energy and 
transportation, while low-income communities can oftentimes be locked 
out of economic opportunities due to inadequate transportation and 
mobility access. By investing not only in clean transportation 
solutions like electric vehicles, but also improved and expanded public 
transit service, transit-oriented affordable housing development, 
electric vanpools and rideshare programs for rural communities, and 
other solutions that help people reach jobs, education, and healthcare 
more efficiently and affordably, we can reduce the cost of living and 
improve quality of life.
    Second, we aim to leverage job creation to put the people who most 
need work, to work doing the job that most needs done: building a more 
sustainable future.
    Shifting the transportation industry from dirty diesel to electric 
vehicles shifts the job market, as well. It is estimated the industry 
will require 40 million installed chargers across the United States, 
Europe, and China.\11\ As electric vehicles become more widespread, 
technicians will be needed across the country to install and support 
these technologies. If we look to the spike in solar panel installers 
and wind turbine technicians as an example, we can see how clean 
technology can energize our economy and provide new, well-paying, and 
cutting-edge jobs to the people who need them most. The federal 
government can help ensure this by tying federal funds to fair labor 
and workforce standards such as paying a prevailing wage, local and 
targeted hiring, contracting with women, minority, and veteran-owned 
businesses, requiring entities receiving public dollars to be union 
neutral, and more. Senator Gillibrand's Build Local Hire Local Act of 
2019 is an excellent example of how this could be done.
---------------------------------------------------------------------------
    \11\ https://www.mckinsey.com/industries/automotive-and-assembly/
our-insights/charging-ahead-electric-vehicle-infrastructure-demand
---------------------------------------------------------------------------
    While the automobile industry will face some disruptions in its 
traditional forms of production, the electric car industry doesn't 
eliminate the industry and the need for automobile technicians.\12\ 
Rather, it opens up the market for potentially higher-paying jobs, like 
engineering autonomous technology, and hardware and software engineers. 
This will require a shift in our job training and workforce development 
programs to include creating job training pathways and pipelines for 
low-opportunity youth, women, minorities, veterans, and other 
vulnerable populations to access these new jobs.
---------------------------------------------------------------------------
    \12\ https://evadoption.com/15-shifts-how-the-transition-to-
electric-vehicles-will-transform-industries-jobs-and-the-environment/
---------------------------------------------------------------------------
    4. Are you aware of the attached ``The 200'' lawsuit in 
California?\13\ Without the need to comment directly on the lawsuit, 
what are you doing to ensure that energy, environment and climate 
policies in California are not creating an undue burden on those who 
are already struggling economically?
---------------------------------------------------------------------------
    \13\ https://centerforjobs.org/ca/news/behind-the-green-curtain
---------------------------------------------------------------------------
    California utilizes a variety of tools and policies to identify its 
most vulnerable and disproportionately impacted populations, dedicate 
and direct resources to benefit those communities, routinely evaluate 
and measure program success, and maintain a transparent process by 
which the public can view results.
    For example, CalEnviroScreen is a mapping tool the state uses which 
looks at cumulative impacts to identify the most ``disadvantaged'' 
populations. The tool includes environmental indicators like air 
quality and toxic exposure, health indicators such as asthma and cancer 
rates, vulnerable population factors such as children and senior 
populations, income and poverty indicators, and other risk factors that 
would illustrate where there are disproportionate pollution burdens and 
people who lack the means to address the issues on their own.\14\ The 
tool both identifies where heavy sources of pollution are found, as 
well as where the people who are most susceptible to the effects live.
---------------------------------------------------------------------------
    \14\ https://oehha.ca.gov/calenviroscreen/report/calenviroscreen-30
---------------------------------------------------------------------------
    Policymakers use the tool to make informed climate and clean energy 
investment decisions. Senate Bill 535 (2012) required a portion of 
California's cap and trade dollars go to benefit the most disadvantaged 
communities, and today the state spends more than 50% of the funds on 
programs that benefit these communities.\15\
---------------------------------------------------------------------------
    \15\ https://ww2.arb.ca.gov/resources/documents/cci-funding-
guidelines-administering-agencies
---------------------------------------------------------------------------
    It is worth noting that equity has become such a key priority for 
the state that it uses a variety of metrics for evaluating the success 
of its climate programs;\16\ Whereas most programs would measure 
greenhouse gas reduction levels as the sole measure of success, 
California considers co-benefits and impacts such as preventing 
displacement, engaging the community, and workforce development and job 
creation.
---------------------------------------------------------------------------
    \16\ https://ww2.arb.ca.gov/resources/documents/cci-methodologies
---------------------------------------------------------------------------
    If the federal government were to adopt a national carbon pricing 
program, which could provide significant funding for many clean energy 
solutions, it should adopt many of the criteria described above that 
would ensure dollars are deployed to create fair and inclusive access 
to and participation in the clean economy. You will find Green For 
All's two-pager on the key principles of effective and equitable carbon 
pricing policy here.\17\
---------------------------------------------------------------------------
    \17\ https://d3n8a8pro7vhmx.cloudfront.net/rebuildthedream/pages/
7689/attachments/original/1487686952/
GreenForAll_CarbonPricingPolicy_2Pager_(3).pdf?1487686952
---------------------------------------------------------------------------
    Additionally, Congress should consider developing a system for 
evaluating all policies, especially climate and energy policy, through 
an equity screen. Bills would be evaluated in terms of how well they 
propose to address existing disparities and whether it would be likely 
to widen or narrow the gap between the eco-haves and eco-have nots. A 
scoring rubric could be developed to assign value to different equity 
measures, assigning the bill an ``equity score.'' In many ways, this 
would be similar to how bills are evaluated and marked up for their 
financial or budgetary impact.

                        Questions for the Record

              Ryan Popple, President and CEO, Proterra Inc

                       the honorable kathy castor
    1. In your testimony, you referenced the Advanced Technology 
Vehicles Manufacturing Loan Program administered by the U.S. Department 
of Energy. How could this loan program be amended to facilitate greater 
deployment of zero-emission heavy-duty vehicles?
    One of the goals of the Energy Independence and Security Act of 
2007, which established the Advanced Technology Vehicles Manufacturing 
Loan Program (ATVM), is to increase the efficiency of vehicles and 
improve US energy security. The loan program, however, was limited to 
the improvement of the use of advanced technologies in light-duty cars 
and components manufactured in the United States. Manufacturers of 
heavy-duty vehicles--such as electric public transit buses--are 
ineligible to apply for the low-interest loans. My understanding is 
that there is approximately $16B remaining in this loan program, having 
successfully helped companies such as Tesla, Nissan and Ford. The loans 
are currently limited by statute to manufacturers and suppliers of 
light duty vehicles, the class of vehicles that weigh 8500 pounds or 
less. Congress should amend this program to allow U.S. heavy duty 
vehicle manufacturers, like Proterra, to apply for loans that will help 
them invest in R&D and accelerate product development. The amendment 
should expand the eligibility to include manufacturers of zero-emission 
heavy duty vehicles--which weigh more than 8500 pounds--for public 
transportation that meet certain criteria. I suggest expanding the 
ultra-efficient vehicle category by adding a new vehicle class. The new 
class of vehicles must be able to operate as a fully electric vehicle 
that can carry 28 passengers and pass standard energy economy tests 
established by the FTA's Model Bus Testing Program.
    2. California's Gross State Product is over $3 trillion. If it were 
a sovereign nation, it would have the 5th largest economy in the world. 
For those that suggest that decarbonization requires sacrificing 
economic growth, how would you respond?
    Investing in decarbonization promotes economic growth and American 
leadership in the global economy. Advancement and growth in the clean 
energy sector is critical to America's economic competitiveness and is 
creating good paying jobs across the country. Decarbonization in its 
various forms has contributed to California's significant economic 
growth in the form of investment, venture capital and job creation. 
California has demonstrated decades of job growth in the clean tech 
economy--experiencing more job and wage growth than the United States 
as whole.\1\ Today, more than 500,000 Californians are working in clean 
energy.\2\ Further, by targeting efficiency technologies like LED and 
electric vehicles, the US economy could create more value with less 
energy, providing a competitive advantage.
    The reality is that encouraging innovation attracts entrepreneurs, 
which in turn attracts private venture capital funding, which in turn 
leads to job creation and generates economic growth. In 2017, 
California attracted $1.42B of clean technology venture capital 
funding.\3\ And the state attracted over $22B in clean technology 
venture capital funding from 2007 to 2017 due to the strong ecosystem 
of innovation that was developed in response to semiconductor, 
software, energy and healthcare opportunities.\4\ California's share of 
the clean technology global venture capital funding during this same 
period has ranged from 48% to 18%.\5\ Proterra alone has raised over 
$500M in capital and created more than 575 U.S. jobs while establishing 
its Corporate HQ and two manufacturing facilities in CA.
    Lastly, California's emissions fell 1% in 2017, to 424 million 
metric tons. But the state's economy grew at 3.6%, higher than the 
national average, demonstrating that reducing emissions does not hamper 
economic growth.\6\ According to the California Green Innovation Index, 
California had greater emissions reductions (-11.1%) than the United 
States as a whole (-10.2%) between 2006-2016, while also achieving 
greater economic output.\7\
    3. Deploying more electric vehicles, buses, and trucks will add 
significant demand to the electricity grid. What can Congress do to 
prepare the grid for large-scale electrification?
    It is worth noting that Tesla reports deploying approximately 
14,000 ``super chargers'' in North America of power levels ranging from 
75 kW to 150 kW and, as I understand, without any stress on the overall 
grid. https://www.tesla.com/supercharger. Tesla has made local 
investments to distribution hardware (transformers and switch gear) to 
facilitate super charger locations in many areas, but they haven't 
required more power plants. The Tesla example is relevant because those 
``super chargers'' are the approximate power level of a bus charger, 
meaning we have a proof point that approximately 14,000 electric buses 
worth of plug-in chargers has already been installed without impact to 
the grid. To put this into perspective, the load of the entire US 
public transit fleet (approximately 70,000 buses) charging at 100 kW 
simultaneously would be 7 gigawatts, or less than the average annual 
capacity increase from 2007-2017.\8\
    I believe that planning for and managing demand on the grid is the 
primary responsibility of utility companies. Recent studies have shown 
that, overall, there's not a near capacity scarcity and EVs have the 
potential to help balance loads and improve the resiliency of our 
nation's electricity infrastructure.\9\ That being said, it is 
imperative we take a collaborative approach to proactively managing 
grid demand as we move towards large-scale electrification. Congress 
can help in the following ways:
          <bullet> Expand the Alternative Fuel Tax Credit (26 U.S.C. 
        Sec. 6426(d)) to make fuel neutral by including electricity as 
        an alternative fuel. By including electricity as an alternative 
        fuel, Congress will level the playing field by making the 
        credit fuel neutral, promote competition on the merits for 
        alternative technologies and further promote conversion to 
        alternative fuels, thereby reducing U.S. dependence on foreign 
        oil and encouraging creativity and innovation in the 
        marketplace.
          <bullet> Expand federal funding for energy research and 
        development, and in particular for the Department of Energy's 
        Office of Energy Efficiency and Renewable Energy (Vehicle 
        Technologies Office) and Advanced Research Projects Agency-
        Energy.
          <bullet> Provide additional federal funding support for 
        infrastructure projects that will support medium- and heavy-
        duty vehicle fleet deployments at the state and local levels 
        including school bus and transit bus projects.
          <bullet> Increase federal agency research on electrification, 
        automation, and connectivity technologies and deployment 
        strategies.
          <bullet> Fund vehicle-to-grid integration and stationary 
        battery storage demonstration projects to promote grid 
        resiliency and smart cities demonstration projects.
          <bullet> Fund research and development of battery-electric 
        technologies and create incentives to further investment in 
        primary battery cell development and manufacturing in the 
        United States to support a domestic supply chain for stationary 
        storage and vehicle applications.
          <bullet> Encourage more collaboration between the Federal 
        Energy Regulatory Commission and the state regulators 
        (including state Public Utility Commissions and state energy 
        offices) on electric vehicles, electric vehicle infrastructure 
        and other emerging grid technologies to ensure better planning 
        and coordination.
          <bullet> Help cities and utilities plan so that they can 
        identify the structural needs to support the integration of 
        vehicles and infrastructure into city and utility operations.
          <bullet> Encourage North American electric vehicle charging 
        connection standardization by working with private standard 
        setting organizations, such as the Society of Automotive 
        Engineers (SAE).
          <bullet> Encourage the adoption of a new Transportation 
        Infrastructure bill that includes funding for heavy-duty 
        electric vehicle fleets and the accompanying electric vehicle 
        infrastructure.
          <bullet> Support investment in infrastructure, storage and 
        smart technologies that enable demand management and promote 
        grid resiliency.
          <bullet> Support or create incentives for power companies to 
        accelerate transition of the grid from point-to-point to 
        electric distribution as a network.
                      the honorable garret graves
    1. I assume you are competing against Chinese bus manufacturers. 
How well do you compete against them and what is your biggest concern 
about having to compete with them in the U.S. market? What can Congress 
do to help?
    One of our competitors is the Chinese-manufacturer Build Your 
Dreams (BYD) and we compete throughout the United States for electric 
bus deployments for public transit agencies. Published reports show 
that BYD benefits from aggressive Chinese subsidy programs to lower 
prices in order to win business. We believe this reflects a strategy to 
price below market costs to eliminate competition and dominate the 
market in the United States and around the globe--which is the goal of 
Made in China 2025. To address this practice, Rep. Harley Rouda 
recently introduced a bill (HR 2739) that would prevent federal transit 
funds from being used by transit agencies to purchase rail cars or 
buses manufactured by Chinese owned, controlled, or subsidized 
companies. The same bill was introduced in the Senate by Senators 
Cornyn and Baldwin (S 846). Both bills were made part of the National 
Defense Authorization Act (NDAA) for Fiscal Year 2020. Section 6015 of 
the Senate NDAA retained Rouda bill language that would preclude 
funding for Chinese-supported rail and bus rolling stock. 
Unfortunately, section 896 of the House NDAA did not and limited the 
restriction solely to rail rolling stock. Congress should pass the 
Senate version in the NDAA conference report so that buses are 
included. A final NDAA bill that includes buses will ensure that U.S. 
manufacturers like Proterra and its domestic suppliers do not face 
unfair competition from companies that receive support from the Chinese 
government. Prohibiting federal transit funds from being expended on 
Chinese rolling stock would have the added benefit of protecting our 
national security and transportation and electric grid infrastructure 
from the threat that China poses and improving cybersecurity in public 
transportation.
    2. What are some of the challenges of electrification for long-haul 
agriculture and food supply vehicles? Do you see potential concerns for 
farmers, the food supply chain, and to food safety, animal welfare?
    The challenge for long-haul agriculture and food supply vehicles, 
as I see it, revolves around vehicle range and charging infrastructure 
deployment. Range is impacted by the use of auxiliary items like 
refrigeration and HVAC systems to provide humane conditions for animals 
being transported. Electrification in the food sector would have to 
accommodate refrigeration in many applications, which will impact the 
range of those vehicles. Short distance food supply vehicles would 
require careful route analysis and planning to ensure that they were 
able to meet their daily routes while accommodating the energy needs 
for refrigeration. High power and high-speed charging could solve that 
problem if vehicles were able to charge mid-day. Mid-day charging could 
top off the batteries on longer routes. However, this raises a second 
challenge involving the right placement of high power, high-speed 
chargers for long-haul agriculture and food supply vehicles.
    That being said, we see opportunities for EV technology to improve 
economic productivity in the agriculture sector, and to reduce 
emissions exposure and health care costs for workers in the 
agricultural economy. The bus & truck sector share many components and 
supply chains with the off-road commercial vehicle sector, which 
includes mining, construction and agricultural vehicles like tractors 
and harvesting equipment. In the near-term, the first opportunities for 
EV technology to provide benefits to the agricultural sector will be in 
fleet-based farm and ranch vehicles. These EVs will enable farmers to 
reduce their dependency on a single fuel type, and in many cases allow 
farming operations to self-generate much of their energy, as we 
increasingly see farms deploying solar and wind energy to diversify 
their revenue and gain more self-sufficiency. In terms of food safety 
and animal welfare, zero emission electric vehicles used in the 
agriculture sector will reduce the level of diesel pollution in crops 
and livestock, enabling a healthier food supply for America. In the 
long-term, zero emission freight trucks and trains could enable low-
cost, zero emission freight shipments between major agriculture 
markets. Long-haul electric trucks are already being introduced by 
major manufacturers including Freightliner, Tesla and Volvo. Long-haul 
will require more infrastructure investment that may include on-road 
charging similar to what has been demonstrated in Northern Europe. But 
the near-term opportunities for farm, construction and mining electric 
vehicle technology offer the most immediate economic, health and 
environmental improvements for the agricultural sector.
                               references
    1. 2018 California Green Innovation Index, Next 10 (10th Ed.); 
https://www.next10.org/2018-giiE; see also Energy Efficiency, 
Innovation and Job Creation in California, David Roland-Holst, UC 
Berkeley. https://are.berkeley.edu/dwrh/CERES_Web/Docs/
UCB%20Energy%20Innovation%20and%20Job%20Creation %2010-20-08.pdf
    2. Clean Jobs California 2019. https://www.e2.org/reports/clean-
jobs-california-2019/; see also Many Shades of Green: Diversity and 
Distribution of California's Green Jobs, Next 10, U.S. Metro Economies: 
Current and Potential Green Jobs in the U.S. Economy, U.S. Conference 
of Mayors. http://actrees.org/files/Research/
Many_Shades_of_Green_1209.pdf;
    3. 2018 California Green Innovation Index, Next 10 (10th Ed.); 
https://www.next10.org/2018-gii
    4. Id.
    5. Id.
    6. Clean Energy Powers California Climate Emissions Drop, J.D. 
Morris, Bix & Tech (Aug. 14, 2019). https://www.sfchronicle.com/
business/article/California-cuts-greenhouse-gases-but-14299117.php
    7. 2018 California Green Innovation Index, Next 10 (10th Ed.); 
https://www.next10.org/2018-gii
    8. https://www.eia.gov/electricity/annual/html/epa_04_02_a.html
    9. Connecting Electric Vehicles to the Grid for Greater 
Infrastructure Resilience, National Renewable Energy Laboratory. April 
20, 2017. https://www.nrel.gov/news/program/2017/connecting-electric-
vehicles-to-the-grid-for-greater-infrastructure-resilience.html

                        Questions for the Record

    Tony Satterthwaite President--Distribution Business Cummins Inc.

                       the honorable kathy castor
    1. In your testimony, you referenced the SuperTruck program 
administered by the U.S. Department of Energy. How could this program 
be expanded or modified to accelerate development and deployment of 
zero-emission heavy-duty truck technology?
    The SuperTruck program administered by the U.S. Department of 
Energy could be expanded and modified to accelerate the development and 
deployment of zero-emission heavy-duty truck technology by setting more 
aggressive emissions goals and expanding the resources available to 
meet those targets. For example, the current running SuperTruck II 
program sets a target of 55% improvement of Brake Thermal Efficiency 
(BTE) over the 2009 baseline class 8 truck. The next iteration of the 
program could supplement a BTE goal, which measures the efficiency of 
an internal combustion engine, for an emissions goal. Awarding 
competitive grants for truck and engine manufacturers to create teams 
to meet aggressive class 8 targets can help spur development and remove 
barriers like cost and infrastructure that exist for commercial 
customers. Use of the national labs, universities and commercial fleet 
partners can ensure access to resources and an understanding of how a 
customer wants to use a vehicle. By setting an emissions goal and not a 
technology mandate teams can try different approaches to meet these 
aggressive targets, like high efficiency diesel, natural gas, fuel cell 
and battery-electric power.
    2. In your testimony, you referenced opportunities to capture 
landfill gas or biogas for processing into fuels for vehicles. What 
should Congress do to expand deployment of these technologies?
    Congress can and should continue to invest in a variety of emerging 
technologies to help reduce the impacts of climate change. The 
Department of Energy and National Labs should continue to conduct 
research on net-zero carbon sustainable fuel choices including landfill 
gas or biogas as fuel. Creating consistency in the tax code around 
these technologies can also help industry develop long-term strategy. 
By supporting American innovation on a number of promising 
technologies, Congress can ensure US leadership on whichever option 
markets and customers choose to do their job.
                      the honorable garret graves
    1. What are some of the challenges of electrification for long-haul 
agriculture and food supply vehicles? Do you see potential concerns for 
farmers, the food supply chain, and to food safety, animal welfare?
    The challenges for vehicle electrification for long-haul 
agriculture and food supply vehicles are the same faced in many heavy-
duty applications: cost, weight and infrastructure. Currently, the cost 
of an electrified powertrain for a commercial vehicle is significantly 
more than a comparable diesel or natural gas truck. In fact, for dollar 
per unit of NOx reduced, just transitioning a food supply fleet to the 
latest diesel technology will be far more effective in reducing NOx in 
the air. With existing technology, battery weight on such a truck will 
also negatively impact the amount of freight carried, so more trucks 
will be needed to carry the same amount of product. Finally, there is 
not currently consistent and reliable charging infrastructure on long-
haul routes for many customers to switch to battery electric power.
    The food supply chain has additional challenges of refrigeration 
during transportation, currently supplied by diesel reefer units. The 
same challenges facing heavy-duty applications: cost weight and 
infrastructure, will also impact mobile refrigeration in an electrified 
scenario. Currently, there are no commercially-available electrified 
mobile refrigeration units. Heavy duty vehicles can recover some energy 
from braking, but refrigeration units do not have this option, making 
the range or time of operation of the electrified reefer a concern.
    These are some of the barriers that may concern agriculture 
customers. We are, however, encouraged by government efforts to address 
the problems of cost, weight and infrastructure, and of additional low 
and no-emissions technology options for these markets like natural gas 
and fuel cell to power long-haul vehicles.

                                  <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
